<html>
<title> - LEGISLATIVE HEARING ON H.R. 4532, TO CREATE THE FIRST TRIBALLY MANAGED NATIONAL MONUMENT, AND FOR OTHER PURPOSES, ``SHASH JAA NATIONAL MONUMENT AND INDIAN CREEK NATIONAL MONUMENT ACT''--PART 1</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   H.R. 4532, SHASH JAA NATIONAL MONUMENT AND INDIAN CREEK NATIONAL 
                      MONUMENT ACT--PART 1 AND 2

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   Tuesday, January 9, 2018 (Part 1)
                   Tuesday, January 30, 2018 (Part 2)

                               __________

                           Serial No. 115-33

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-219 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3d4c3dcf3d0c6c0c7dbd6dfc39dd0dcde9d">[email&#160;protected]</a>           
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Norma J. Torres, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Darin LaHood, IL                     Jimmy Gomez, CA
  Vice Chairman                      Vacancy
Daniel Webster, FL                   Raul M. Grijalva, AZ, ex officio
Jack Bergman, MI
Liz Cheney, WY
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, January 9, 2018, Part 1.................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     8
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     9
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     6
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Anderson, Matthew, Director, Coalition for Self-Government in 
      the West, Sutherland Institute, Salt Lake City, Utah.......    22
        Prepared statement of....................................    24
    Chapoose, Hon. Shaun, Member, Ute Tribal Business Committee, 
      Ute Indian Tribe, Fort Duchesne, Utah......................    15
        Prepared statement of....................................    16
    Curtis, Hon. John R., a Representative in Congress from the 
      State of Utah..............................................     9
        Prepared statement of....................................    11
    Herbert, Hon. Gary, Governor, State of Utah, Salt Lake City, 
      Utah.......................................................    12
        Prepared statement of....................................    14
    Morris, Suzette, White Mesa Ute Community, Member of Posey 
      Band Ute Tribe, San Juan County, Utah......................    25
        Prepared statement of....................................    26

Additional Materials Submitted for the Record:

    Submissions for the Record by Representative Bishop

        Bears Ears Inter-Tribal Coalition, Letter to the Utah 
          Congressional Delegation, dated November 30, 2016......    47
        Benally, Rebecca, San Juan County Commissioner and Member 
          of the Navajo Tribe, prepared statement of.............    54
        ``Great American lie that all tribes are for Bears Ears 
          NM,'' by Darren Parry, Northwestern Band of the 
          Shoshone Nation........................................    41
        The Hill, ``Sizing them up: Utah rep, not Trump or Obama, 
          meets Navajo needs on Bears Ears,'' by Alfred Ben, 
          December 26, 2017......................................    40
        Utah Congressional Delegation, Letters to Bears Ears 
          Inter-Tribal Coalition, dated November 2, 2016 and 
          November 18, 2016......................................    46

    Submissions for the Record by Representative Grijalva

        Advisory Council on Historic Preservation, prepared 
          statement of...........................................    55
        Sierra Club, Letter to Chairman Rob Bishop and Ranking 
          Member Grijalva, dated January 9, 2017.................    56
        The Navajo Nation, Letter to Chairman Rob Bishop and 
          Ranking Member Grijalva, dated January 19, 2018........    57
        Ute Mountain Ute Tribe, Letter to Chairman Rob Bishop and 
          Committee Members, dated January 10, 2018..............    58
    Submissions for the Record by Representative Lowenthal

        Democratic Members of the Federal Lands Subcommittee, 
          Letter to Chairman Tom McClintock, dated January 9, 
          2018...................................................     7

    List of documents submitted for the record retained in the 
      Committee's official files.................................    59
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Norma J. Torres, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Daniel Webster, FL                   Jimmy Gomez, CA
Jack Bergman, MI                     Vacancy
Liz Cheney, WY                       Raul M. Grijalva, AZ, ex officio
Greg Gianforte, MT
John R. Curtis, UT
Rob Bishop, UT, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, January 30, 2018, Part 2................    61

Statement of Witnesses:
    Begaye, Hon. Russell, President, Navajo Nation, Window Rock, 
      Arizona....................................................    87
        Prepared statement of....................................    89
    Benally, Hon. Rebecca, Vice Chair, San Juan County 
      Commissioners, Monticello, Utah............................   107
        Prepared statement of....................................   108
    Bowekaty, Carleton, Councilman, Pueblo of Zuni, Zuni, New 
      Mexico.....................................................    75
        Prepared statement of....................................    77
    Chaffetz, Hon. Jason, Former Member of Congress, Utah's 3rd 
      District, Alpine, Utah.....................................    62
        Prepared statement of....................................    64
    Hammond, Casey, Deputy Assistant Secretary, Land and Minerals 
      Management, U.S. Department of the Interior, Washington, DC   102
        Prepared statement of....................................   104
        Questions submitted for the record.......................   105
    Lopez-Whiteskunk, Regina, Former Ute Mountain Tribe 
      Councilwoman, Former Bears Ears Inter-Tribal Coalition Co-
      Chair, Ute Mountain Ute Tribal Council, Towaoc, Colorado...    65
        Prepared statement of....................................    67
    Reyes, Hon. Sean D., Attorney General, State of Utah, Salt 
      Lake City, Utah............................................    98
        Prepared statement of....................................   100
        Questions submitted for the record.......................   101
    Small, Tony, Vice Chairman, Ute Business Committee, Ute 
      Indian Tribe, Fort Duchesne, Utah..........................    69
        Prepared statement of....................................    70
    Tenakhongva, Clark, Vice Chairman, Hopi Tribal Council, The 
      Hopi Tribe, Kykotsmovi Village, Arizona....................    78
        Prepared statement of....................................    79
        Questions submitted for the record.......................    84

Additional Materials Submitted for the Record:

    Submissions for the Record by Representative Bishop
        Bears Ears Inter-Tribal Coalition, Letter to the Utah 
          Congressional Delegation, dated November 30, 2016......   128

    Submissions for the Record by Representative Grijalva
        National Trust for Historic Preservation, et al., Letter 
          to Rep. Bishop, Grijalva, McClintock, and Hanabusa, 
          dated February 13, 2018................................   129
        Pyramid Lake Paiute Tribe, Letter to Rep. Bishop, 
          Grijalva, McClintock, and Hanabusa, dated February 7, 
          2018...................................................   130

    Bishop, Rob, Member of Congress, Letter to Utah Land Office/
      Navajo Land Department, dated February 22, 2013............   125
    Chaffetz, Jason, Member of Congress, Letter to Hon. Russell 
      Begaye, President, Navajo Nation, dated October 16, 2015...   126
    Utah Delegation, Letter to President Barack Obama, dated 
      April 29, 2016.............................................   127
    Utah Delegation, Letter to Bears Ears Inter-Tribal Coalition, 
      dated November 18, 2016....................................   127
    List of documents submitted for the record retained in the 
      Committee's official files.................................   131
                                     


 
LEGISLATIVE HEARING ON H.R. 4532, TO CREATE THE FIRST TRIBALLY MANAGED 
    NATIONAL MONUMENT, AND FOR OTHER PURPOSES, ``SHASH JAA NATIONAL 
       MONUMENT AND INDIAN CREEK NATIONAL MONUMENT ACT''--PART 1

                              ----------                              


                        Tuesday, January 9, 2018

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Pearce, Tipton, 
Bergman, Gianforte, Bishop (ex officio), Lowenthal, Gallego, 
Gomez, and Grijalva (ex officio).
    Also Present: Representatives Curtis and Stewart.
    Mr. McClintock. The hour of 10:00 having arrived, the 
Subcommittee on Federal Lands will come to order.
    I would ask unanimous consent that the gentlemen from Utah, 
Mr. Curtis and Mr. Stewart, be allowed to sit with the 
Subcommittee and participate in the remainder of the hearing 
following the testimony.
    Without objection, so ordered.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chairman. This will also allow us to hear 
from our witnesses sooner and help Members keep to their 
schedules.
    Therefore, I would ask unanimous consent that all other 
Members' opening statements be part of the hearing record if 
they are submitted to the Subcommittee Clerk by 5:00 p.m. 
today.
    Without objection, so ordered.
    We will now proceed to opening statements.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Today, the Subcommittee on Federal Lands 
meets to consider H.R. 4532, the Shash Jaa National Monument 
and Indian Creek National Monument Act, by Congressman John 
Curtis and co-sponsored by the entire Utah congressional 
delegation.
    The over-arching objectives of this Subcommittee bear 
repeating: to restore public access to the public lands, to 
restore good management to the public lands, and to restore the 
Federal Government as a good neighbor to those communities most 
impacted by the public lands.
    The Constitution gives sole jurisdiction over the public 
lands to the Congress. The Antiquities Act of 1906 delegated 
limited authority to the President to designate national 
monuments on Federal lands containing, ``historic landmarks, 
historic and prehistoric structures, or other objects of 
historic or scientific interest.'' The law also very 
specifically limited monuments to, ``be confined to the 
smallest area compatible with proper care and management of the 
objects to be protected.'' The aim was to protect newly-
discovered archeological sites from looting.
    When under consideration, Congressional Members expressed 
concern that the Act might be abused. One asked the bill's 
sponsor, Congressman John Lacey, whether the Act could ever be 
used to lock up large areas of land. He responded, ``Certainly 
not. The object is entirely different.''
    President Theodore Roosevelt first used the Antiquities Act 
to declare 1,200 acres around the Devils Tower in Wyoming as a 
national monument--1,200 acres. Yet, in the waning days of the 
Obama administration, without any public hearings or 
consultation with Congress, and in direct contravention to the 
wishes of the Utah congressional delegation, the Utah state 
government, and the local and tribal governments in the 
affected jurisdictions, President Obama declared more than 1.3 
million acres as the Bears Ears National Monument. This is a 
land area larger than the entire state of Delaware and 1,000 
times larger than President Roosevelt's first use of the law.
    This designation carries severe restrictions on land use 
that limit public access and use of these public lands, that 
thwart good management of these lands, and that ignore the 
wishes of the local communities affected by these public lands.
    It turns out this action was initiated by environmental 
groups in San Francisco, financed by millions of dollars from 
left-leaning foundations whose consistent purpose has been to 
lock the American people out of their own public lands. Its 
constituency appears to be almost exclusively drawn from out-
of-region and out-of-state interests.
    Last month, President Trump modified Obama's Executive 
Order to comport with the limitations set forth in the 
Antiquities Act.
    Today, Congressman Curtis, backed with the unanimous 
support of the Utah congressional delegation, brings us H.R. 
4532, which reasserts Congress' sole constitutional authority 
over this issue.
    It establishes two national monuments in San Juan County, 
Utah: the Shash Jaa National Monument, the first tribally co-
managed national monument in the Nation, and the Indian Creek 
National Monument.
    The bill also establishes a first-of-its-kind Archeological 
Resources Protection Unit, statutorily dedicating additional 
law enforcement personnel and Federal dollars for the exclusive 
protection of antiquities within the monuments' boundaries.
    When the Norman and Plantagenet Kings of England locked up 
millions of acres of forest as the private preserve of the 
crown, public outreach became so great that in 1215 no fewer 
than five clauses of the Magna Carta were devoted to redress 
this abuse.
    The American Founders learned these lessons and created our 
Constitution, in which no one person would have the authority 
to lock up millions of acres of land with the stroke of a pen.
    The American public lands are the opposite of the King's 
Forest. They are intended to preserve these lands for the 
people's, ``use, resort, and recreation . . . for all time,'' 
as first put forth in the Yosemite Charter of 1864.
    By giving Congress, and not the President, authority over 
public land, our Constitution guarantees that all voices will 
be heard when a decision affecting millions of acres of land is 
made.
    Under our Constitution, the people expect their government 
to listen to those most affected by local land use decisions, 
and not just out-of-state special interest groups. And they 
have every right to demand that Congress re-assert its role 
over management of the lands on their behalf.
    This bill seeks to right a wrong and to go about monument 
designation the constitutional way, through open hearings, open 
debate, and congressional action.

    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    Today, the Subcommittee on Federal Lands meets to consider H.R. 
4532, the Shash Jaa National Monument and Indian Creek National 
Monument Act by Congressman John Curtis and co-sponsored by the entire 
Utah congressional delegation.
    The over-arching objectives of this Subcommittee bear repeating: to 
restore public access to the public lands, to restore good management 
to the public lands, and to restore the Federal Government as a good 
neighbor to those communities most impacted by the public lands.
    The Constitution gives sole jurisdiction over the public lands to 
the Congress. The Antiquities Act of 1906 delegated limited authority 
to the President to designate national monuments on Federal lands 
containing ``historic landmarks, historic and prehistoric structures, 
or other objects of historic or scientific interest.'' The law also 
very specifically limited monuments to ``be confined to the smallest 
area compatible with proper care and management of the objects to be 
protected.'' The aim was to protect newly discovered archeological 
sites from looting.
    When under consideration, Members expressed concern that the Act 
might be abused. One asked the bill's sponsor, Congressman John Lacey, 
whether the Act could ever be used to lock up large areas of land. He 
responded, ``Certainly not. The object is entirely different.''
    President Theodore Roosevelt first used the Antiquities Act to 
declare 1,200 acres around the Devils Tower in Wyoming as a national 
monument.
    Yet, in the waning days of the Obama administration, without any 
public hearings or consultation with Congress--and in direct 
contravention to the wishes of the Utah congressional delegation, the 
Utah state government, and the local governments and tribal governments 
in the affected jurisdictions--President Obama declared more than 1.3 
million acres as the Bears Ears National Monument. This is a land area 
larger than the state of Delaware, and one thousand times larger than 
President Roosevelts' first use of the law.
    This designation carries severe restrictions on land use that limit 
public access and use of these public lands, that thwart good 
management of these lands, and that ignore the wishes of the local 
communities affected by these public lands.
    It turns out this action was initiated by environmental groups in 
San Francisco, financed by millions of dollars from left-leaning 
foundations whose consistent purpose has been to lock out the American 
public from the public lands. Its constituency appears to be almost 
exclusively drawn from out-of-region and out-of-state interests.
    Last month, President Trump modified Obama's Executive Order to 
comport with the limitations set forth in the Antiquities Act.
    Today, Congressman Curtis, backed with the unanimous support of the 
Utah congressional delegation, brings us H.R. 4532, which re-asserts 
Congress' sole constitutional authority over this issue.
    It establishes two national monuments in San Juan County, Utah: the 
Shash Jaa National Monument, the first tribally co-managed national 
monument in the Nation, and the Indian Creek National Monument. The 
bill also establishes the first-of-its-kind Archaeological Resources 
Protection Unit, statutorily dedicating additional law enforcement 
personnel and Federal dollars for the exclusive protection of 
antiquities within the monuments' boundaries.
    When the Norman and Plantagenet Kings of England locked up millions 
of acres of forest as the private preserve of the crown, public outrage 
became so great that in 1215 no fewer than five clauses of Magna Carta 
were devoted to redress this abuse.
    The American Founders learned these lessons, and created a 
constitution in which no one person would have the authority to lock up 
millions of acres of land with the stroke of a pen.
    The American public lands are the opposite of the King's Forests--
intended to preserve these lands for the people's ``use, resort and 
recreation . . . for all time'' as first put forth in the Yosemite 
Charter of 1864.
    By giving Congress--and not the President--authority over public 
land, our Constitution guarantees that all voices will be heard when a 
decision affecting millions of acres of land is made.
    Under our Constitution, the people expect their government to 
listen to those most affected by local land use decisions, and not just 
out-of-state special interest groups. And they have every right to 
demand that Congress reassert its role over management of the lands on 
their behalf.
    This bill seeks to right a wrong and to go about monument 
designation the constitutional way: through open hearings, debate and 
congressional action.

                                 ______
                                 

    Mr. McClintock. I now recognize the Ranking Member for his 
opening statement.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Lowenthal. Thank you, Mr. Chairman.
    First, I would like to thank all of the witnesses for 
traveling so far to be with us.
    I must say this hearing feels a little bit like deja vu. 
Just 3 weeks ago, right before the holiday district period, we 
had a hearing on a similar rushed piece of legislation to 
provide cover for President Trump's illegal elimination of the 
Grand Staircase-Escalante National Monument.
    And now here we go again, our second day back in the new 
year, considering legislation to cover up the President's 
elimination and reconfiguration of Bears Ears National 
Monument.
    Let's be clear, tribes advocated for years to protect the 
area, whether through legislation or through an Antiquities Act 
proclamation, though it was the initial hope of the tribes that 
a legislative agreement could be reached.
    At first, the obvious vehicle for protecting the area was 
Chairman Bishop's Utah Public Lands Initiative. For more than a 
year, tribal governments worked in good faith to have their 
voices heard. Tribal representatives participated in meetings 
in Utah and here in DC, submitted proposals, and asked for 
feedback.
    Ultimately, the Bears Ears Inter-Tribal Coalition, a 
historic coalition representing the five tribes connected to 
Bears Ears, felt cut out of the process and left the 
negotiating table. They then turned to their only remaining 
option, a presidential proclamation under the Antiquities Act.
    Contrary to what opponents of President Obama's creation of 
Bears Ears National Monument say, the designation was not some 
fly-by-night, last-minute proclamation. The plan was not kept 
secret or hidden from Utah's political representatives.
    In fact, e-mails and documents obtained by the Democratic 
Committee staff show that as far back as 2013, the 
administration began communication with the Utah delegation, 
the Utah Governor's Office, the Bears Ears Inter-Tribal 
Coalition, and other key regional stakeholders to begin working 
to protect Bears Ears landscape.
    The Obama administration worked closely with the delegation 
staff up until the Committee marked up the Chairman's bill in 
the fall of 2016. But when it became clear that the Chairman's 
bill was not going to make it across the finish line, President 
Obama signed the proclamation to establish Bears Ears National 
Monument.
    For a brief moment, it felt like a victory for all the 
stakeholders--the proclamation was balanced and full of 
compromise. But by April 2017, facts about the creation of the 
monument and its permitted uses began being obscured, in some 
cases outright ignored.
    It no longer mattered that President Obama's proclamation 
allowed activities such as rock climbing, hunting, backpacking, 
white water rafting, biking, and horseback riding, or that the 
traditional Native cultural uses were recognized, including 
collection of medicines, berries, firewood, and other 
vegetation.
    Instead, the public was told by monument opponents that all 
those things would be limited under the Obama proclamation.
    Ironically, President Trump's proclamation is silent on 
recreational and Native rights, so as things stand today, 
access to gather firewood or plants for religious and cultural 
purposes is in limbo.
    If this legislation was truly intended to protect the 
outdoor recreation economy of Utah, it would incorporate my 
bill, America's Red Rock Wilderness Act. But, sadly, this 
legislation before us today is hastily written and does nothing 
to codify the wilderness study areas in Utah, leaving them in a 
perpetual purgatory of land management indecision and allowing 
my colleagues to continue to vilify the BLM when it is really 
Congress that refuses to act.
    Last, I would like to reiterate this bill directly affects 
five tribal nations. If the primary objective of this 
legislation were to truly increase tribal participation in the 
management of Bears Ears, we would have representatives from 
each of the nations here.
    If we were actually seeking to honor tribal concerns, we 
would be holding a hearing on H.R. 4518, a bill with nearly 100 
co-sponsors introduced by Representative Gallego to expand the 
Bears Ears National Monument.
    I am grateful that we will be able to hear from Shaun 
Chapoose, a member of the Ute Business Council. However, I 
think it would be beneficial to hear from even more tribal 
voices, so I would like to submit this letter requesting a 
second hearing with witnesses invited by the Minority. I ask 
unanimous consent that this letter be part of the hearing 
record.
    Thank you, Mr. Chair. I look forward to hearing from the 
witnesses, and I hope that in the future we hold a more 
balanced hearing.

    [The prepared statement of Mr. Lowenthal follows:]
 Prepared Statement of the Hon. Alan S. Lowenthal, a Representative in 
                 Congress from the State of California
    Thank you, Mr. Chairman.
    I would like to thank the witnesses for being here today, 
especially since many of you traveled so far to be here with us.
    I must say that his hearing feels a bit like deja vu. Just 3 weeks 
ago--right before the holiday district work period--we had a hearing on 
a similar rushed piece of legislation to provide cover for President 
Trump's illegal elimination of the Grand Staircase-Escalante National 
Monument.
    And now here we are again, our second day back in the new year, 
considering legislation to cover up the President's elimination and 
reconfiguration of Bears Ears National Monument.
    Tribes advocated for years to protect the area, whether through 
legislation or an Antiquities Act proclamation, though it was the 
initial hope of the tribes that a legislative agreement could be 
reached.
    At first, the obvious vehicle for protecting the area was Chairman 
Bishop's Utah Public Lands Initiative. For more than a year, tribal 
governments worked in good faith to have their voices heard. Tribal 
representatives participated in meetings in Utah and DC, submitted 
proposals, and asked for feedback.
    Ultimately, the Bears Ears Inter-Tribal Coalition--a historic 
coalition representing the five tribes most connected to Bears Ears--
felt cut out of the process and left the negotiating table. They then 
turned to their only remaining option: a presidential proclamation 
under the Antiquities Act.
    Contrary to what opponents of President Obama's creation of Bears 
Ears National Monument say, the designation was not some fly-by-night, 
last-minute proclamation. The plan was not kept secret or hidden from 
Utah's political representatives.
    In fact, e-mails and documents obtained by Democratic Committee 
staff show that as far back as 2013, the administration began 
communication with the Utah delegation, the Utah Governor's Office, the 
Bears Inter-Tribal Coalition, and other key regional stakeholders 
working to protect the Bears Ears landscape.
    The Obama administration worked closely with the delegation staff 
up until the Committee marked up the Chairman's bill in the fall of 
2016. But when it became clear that the Chairman's bill was not going 
to make it across the finish line, President Obama signed the 
proclamation to establish Bears Ears National Monument.
    For a brief moment, it felt like a victory for all of the 
stakeholders--the proclamation was balanced and full of compromise. But 
by April 2017 facts about the creation of the monument and its 
permitted uses began being obscured, and in some cases outright 
ignored.
    It no longer mattered that President Obama's proclamation allowed 
activities such as rock climbing, hunting, backpacking, whitewater 
rafting, biking, and horseback riding--or that traditional Native 
cultural uses were recognized, including collection of medicines, 
berries, firewood and other vegetation.
    Instead, the public was told by monument opponents that such would 
be limited under the Obama proclamation.
    Ironically, President Trump's proclamation is silent on 
recreational and Native rights, so as things stand today, access to 
gather firewood or plants for religious and cultural purposes is in 
limbo.
    If this legislation was truly intended to protect the outdoor 
recreation economy of Utah, it would incorporate my bill, the America's 
Red Rock Wilderness Act. But, sadly, this legislation before us today 
is hastily written and does nothing to codify any of the Wilderness 
Study Areas in Utah, leaving them in a perpetual purgatory of land 
management indecision and allowing my colleagues to continue to vilify 
the BLM when it is really Congress who refuses to act.
    Last, I would like to reiterate this bill directly affects five 
tribal nations. If the primary objective of this legislation were truly 
to increase tribal participation in the management of Bears Ears, we 
would have representatives from each nation here to testify.
    If we were actually seeking to honor tribal concerns, we would be 
holding a hearing on H.R. 4518, a bill with nearly 100 co-sponsors 
introduced by Representative Gallego to expand the Bear Ears National 
Monument to 1.9 million acres, in accordance with the initial proposal 
put forward by the Inter-Tribal Coalition.
    I am grateful that we will be able to hear from Shaun Chapoose, a 
member of the Ute Business Council. However, I think it would be 
beneficial to hear from even more tribal voices, so I would like to 
submit this letter requesting a second hearing with witnesses invited 
by the Minority. I ask unanimous consent that letter is part of the 
hearing record.
    So, I look forward to hearing from the witness today and I hope 
that we can hold a more balanced hearing at a future date.

                                 ______
                                 

    Mr. McClintock. Without objection, the letter will be 
received.

    [The information follows:]

                   U.S. House of Representatives,  
                    Committee on Natural Resources,
                                             Washington, DC

                                                    January 9, 2018

Hon. Tom McClintock, Chairman,
Federal Lands Subcommittee,
Natural Resources Committee,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman:

    Today, the Subcommittee on Federal Lands will hold a hearing on 
H.R. 4532--the Shash Jaa National Monument and Indian Creek National 
Monument Act. While we applaud the focus on national monuments, we are 
concerned that the witness panel does not reflect a fair representation 
of the stakeholders affected by this legislation. The bill doubles down 
on President Trump's recent action to abolish the Bears Ears National 
Monument, an area that tribal communities have been fighting for years 
to protect. Except for one witness invited by the minority, the panel 
does not include an official government representative from any of the 
five tribal nations linked to the monument.
    The Committee should hear from a wider range of tribally elected 
leaders, scientists, and other experts to examine ways we can improve 
the management of Bears Ears under Proclamation 9558.
    Pursuant to Rule XI of the Rules of the House and Rule 4 of the 
Rules of the Committee on Natural Resources, the undersigned Members of 
the Committee hereby request a further hearing on the H.R. 4532, during 
which witnesses selected by the Minority shall be allowed to testify.

            Sincerely,

        Raul M. Grijalva,             Alan Lowenthal,
        Ranking Member                Member of Congress

        Ruben Gallego,                A. Donald McEachin,
        Member of Congress            Member of Congress

        Jimmy Gomez,                  Anthony Brown,
        Member of Congress            Member of Congress

                                 ______
                                 

    Mr. McClintock. I would point out to the gentleman that I 
had a conversation with the Ranking Member, Ms. Hanabusa, a few 
weeks ago in which I pointed out that the hearing structure of 
witnesses for this Subcommittee is the same as it was under 
Democratic majorities. In fact, we took those rules from the 
Democratic Majority.
    I told her, however, that if there was ever any concern 
that she had that there were insufficient witnesses on the 
Minority side to come to me personally and we would work out an 
arrangement. No such undertaking has been made, and I find this 
action objectionable and highly distressing.
    The Chair notes that we are joined by the Chairman and 
Ranking Member of the Natural Resources Committee. I will now, 
without objection, recognize the Chairman for 5 minutes.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you.
    And I thank Mr. Lowenthal, the gentleman from California. 
We have had great trips together. I like you. You are wrong, 
but I like you. And also the staff data that was given to you 
was wrong. There was never a markup on our PLI bill.
    We were promised data coming from the Interior Department 
that did not show up. We were also promised language for co-
management that never appeared. And when the President made the 
Bears Ears declaration, it shut the process down. So, that is 
what actually took place.
    And if you look very carefully at those e-mails that you 
mentioned, you will find out that they were very vague and they 
did not give specifics as to what the President was planning.
    Satchel Paige is one of my favorite all-time baseball 
players, great pitcher. At one time he was trying to help some 
young pitchers to hit the corners of the plate. They were 
missing it wildly. Finally, in frustration, he said, ``Just 
throw strikes, home plate doesn't move.''
    That is one of the issues that we have here today. 
President Obama, while golfing in Hawaii, created a national 
monument that was not even close to home plate. His ball was 
actually in a different ZIP code.
    Secretary Zinke flew over this area in a helicopter, went 
on horseback. What he threw was a strike. And now what we have 
from special interest groups are trying to change the false 
narrative of the past to a present narrative to make it 
reasonable by moving home plate. But home plate simply doesn't 
move.
    The big lie that we have heard in the past was we are 
trying to protect this area from oil and gas exploration and 
mining. That is off the table, and I think Mr. Curtis will 
explain how that is off the table in his particular 
legislation, because it never really was part of it there.
    Representative Curtis, in his bill, is throwing strikes. 
Whereas, the opposition from special interest groups are 
throwing balls that basically are going over the backstop. 
There is a commission that has no authority, that was 
established by President Obama. That will still exist. But what 
we will do new in the Curtis bill is the idea of co-management 
will be real, not a fraud, but it will be real.
    Law enforcement, which is important for this area, does not 
exist in the management plan or in the management declaration. 
But in the Curtis bill, there is actually money that is 
appropriated and manpower that is mandated that is real and 
different.
    What Curtis is doing, and those who will be talking about 
his particular bill, are throwing lots of strikes. Some of the 
other interest groups out there are throwing lots of balls. But 
the bottom line is, home plate doesn't move. And it doesn't 
matter what you want to try to move it, it still doesn't move. 
We need to concentrate on the strikes, not the balls.
    I yield back.

    Mr. McClintock. Without objection, the Chair now recognizes 
the Ranking Member of the Natural Resources Committee for 5 
minutes.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman.
    And let me just reiterate the point that Ranking Member 
Lowenthal just made, that the process for the establishing of 
the Bears Ears Monument had an intimate, ongoing, and 
comprehensive involvement on the part of Native Nations--five--
in not only the construct of the designation and the content of 
the designation but input into what the scientific, historic, 
cultural, and sacred sites were indeed.
    And to now, at this point, at this juncture, to eliminate 
that work in one fatal swoop, I think is very, very arrogant on 
the part of Congress. It is arrogant on the part of this 
legislation, given that tribal nations were given, rightfully 
so, under the Constitution, the ability to be sovereign and, 
more importantly, the ability to consult, confer, and reach 
consensus with the Federal Government.
    This bill effectively turns that upside down. And we are 
going back to a time in history in which we are the givers of, 
as opposed to the allies of, the cooperative government that we 
should be with Native Nations.
    I think that is at the crux of the legislation. That is at 
the crux of the repeal of the designation. And that is at the 
crux of this particular piece of legislation, to take us back 
in time, a time that we all thought was way behind us.
    I yield back, and I will save my time for questions. Thank 
you.

    Mr. McClintock. Thank you.
    The Chair now recognizes the Honorable John Curtis of Utah 
for 5 minutes to present his bill.

STATEMENT OF THE HONORABLE JOHN R. CURTIS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Curtis. Mr. Chairman, I appreciate the opportunity 
today to testify on my bill, H.R. 4532, the Shash Jaa National 
Monument and Indian Creek National Monument Act.
    I would like to thank the entire Utah delegation for 
supporting this legislation, especially Chairman Rob Bishop and 
the Natural Resources Committee staff for their continued work 
on this issue for many years. This bill would not be possible 
without their many years of work and the work of those who 
preceded me.
    I would also like to thank the Chairman and the Ranking 
Member for holding this hearing.
    While it is difficult to overstate how politicized the 
creation and management of our national monuments has become, I 
believe all sides of this debate share many common goals, where 
we can still work together to protect this area for generations 
to come.
    These goals include a high priority on protecting and 
preserving both antiquities and the natural beauty of this 
area, as well as maintaining traditional uses of the land. I 
believe H.R. 4532 meets these high standards of expectations.
    I also believe that moving swiftly to find solutions is 
critical. The two presidential declarations have brought 
worldwide attention to this area but have done little to put a 
plan in place or boots on the ground to protect and preserve.
    My bill seeks to create a management plan that maintains 
multiple use of Federal lands and protects our most precious 
national treasures. This can best be accomplished by using the 
legislative process, including the constitutionally mandated 
system of checks and balances, when making decisions that 
affect such large areas of land.
    Over the past several weeks, many Utahns have contacted my 
office to share their views about these national monuments and 
about my proposed legislation, and I hope they continue to do 
so.
    Additionally, we are fortunate today to have several of 
Utah's elected officials, including our great governor, 
Governor Gary Herbert, here to give their perspective on how 
these lands should be managed. And I would like to personally 
thank him for his trip here today.
    Congress is the portion of our Federal Government most 
directly connected to the American people. It requires broad 
consensus to put a new idea into law, and it is why we, as 
Members of Congress, must act on this issue.
    The bill we are discussing today will protect lands in 
southeastern Utah, in my district, and it will do it the right 
way. This bill will create the first-ever tribally co-managed 
national monument. This changes the top-down management from 
Washington, DC and installs those closest to the land who 
understand it best as their stewards.
    This bill empowers Utah's local tribes and community 
leaders to properly manage these areas. This bill creates real 
protection for important areas, above and beyond what any 
president can achieve by creating a national monument using the 
Antiquities Act.
    The bill provides at least 10 law enforcement personnel at 
each of these two monuments to protect important areas--right 
now, this is taken care of by two BLM agents, imagine that--and 
it creates an Archeological Resources Protection Unit to ensure 
the safety of these important resources.
    This bill has a mineral withdrawal from the original 1.35 
million acre designation under President Obama. The bill is 
about protecting areas, not opening mining, or oil and gas 
development.
    Perhaps most important, this bill creates long-term 
certainty for my constituents. By using the legislative 
process, this area will be protected for generations to come in 
law, not subject to change by a stroke of a pen.
    I look forward to coming together, finding common ground, 
and working toward the shared goal of protecting the national 
treasures we are blessed with in our great state of Utah.
    And with that, I yield my time, Mr. Chairman.

    [The prepared statement of Mr. Curtis follows:]
  Prepared Statement of the Hon. John R. Curtis, a Representative in 
                    Congress from the State of Utah
    Mr. Chairman, I appreciate the opportunity today to testify on my 
bill, H.R. 4532, the Shash Jaa National Monument and Indian Creek 
National Monument Act.
    I would like to thank the entire Utah delegation for supporting 
this legislation, especially Chairman Rob Bishop and the Natural 
Resources Committee staff, for their continued work on this issue. This 
bill would not be possible without their many years of work and by the 
work of those preceding me.
    I would also like to thank Chairman McClintock and Ranking Member 
Hanabusa for holding this hearing. While it is difficult to overstate 
how politicized the creation and management of our national monuments 
has become, I believe all sides of this debate share many common goals 
where we can still work together to protect these areas for generations 
to come.
    These goals include a high priority on protecting and preserving 
both antiquities and the natural beauty of the area, as well as 
maintaining traditional uses of the land. I believe H.R. 4532 meets the 
high standard of these expectations.
    I also believe that moving swiftly to find solutions is critical. 
The two presidential declarations have brought worldwide attention to 
this area but have done little to put a plan in place or boots on the 
ground to protect and preserve.
    My bill seeks to create a management plan that maintains multiple 
use of Federal lands and protects our most precious national treasures. 
This can best be accomplished by utilizing the legislative process, 
including the constitutionally mandated system of checks and balances, 
when making decisions that affect such large areas of land.
    Over the past several weeks, many Utahns have contacted my office 
to share their views about these national monuments and about my 
proposed legislation, and I hope they continue to do so.
    Additionally, we are fortunate today to have several of Utah's 
elected officials, including our governor, here to give their 
perspective on how these lands should be managed.
    Congress is the portion of our Federal Government most directly 
connected to the American people. It requires broad consensus to put a 
new idea into law and it is why we as Members of Congress must act on 
this issue.
    The bill we are discussing today will protect lands in southeastern 
Utah, in my district, and it will do it the right way. This bill will 
create the first-ever tribally co-managed national monument. This 
changes the top-down management from Washington, DC and installs those 
closest to the land who understand it the best as its steward.
    This bill empowers Utah's local tribes and community leaders to 
properly manage these areas. This bill creates real protection for 
important areas, above and beyond what any president can achieve by 
creating a National Monument using the Antiquities Act.
    This bill provides at least 10 law enforcement personnel at each 
monument to protect important areas, and creates Archaeological 
Resources Protection Units to ensure the safety of important resources.
    This bill also has a mineral withdrawal for the original 1.35 
million-acre designation under President Obama. This bill is about 
protecting areas, not opening mining, or oil and gas, development.
    Perhaps most important, this bill creates long-term certainty for 
my constituents. By using the legislative process, this area will be 
protected for generations to come in law, not subject to change by the 
stroke of a pen.
    I look forward to coming together, finding common ground, and 
working toward the shared goal of protecting the national treasures we 
are blessed with in the great state of Utah.

                                 ______
                                 

    Mr. McClintock. Great. I would thank you for your testimony 
and invite you to join the Subcommittee, and, again, thank you 
for bringing your bill to us today.
    If there are no questions of Mr. Curtis, and seeing none, 
we will go right to the second panel.
    We welcome our second panel, and are particularly honored 
to have with us today the governor of the state of Utah, the 
Honorable Governor Gary R. Herbert, who comes to us from Salt 
Lake City, Utah.
    Governor Herbert, we are very honored by your presence here 
today. Thank you for joining us and you are recognized for 5 
minutes.

  STATEMENT OF THE HONORABLE GARY HERBERT, GOVERNOR, STATE OF 
                   UTAH, SALT LAKE CITY, UTAH

    Governor Herbert. Thank you very much.
    I am honored to be here. And Chairman McClintock and 
Representative Lowenthal, thank you for inviting me here today 
to offer input on H.R. 4532, the Shash Jaa National Monument 
and Indian Creek National Monument Act.
    I also thank Chairman Rob Bishop and Representative John 
Curtis for developing this legislation and moving so quickly to 
hold this hearing.
    I understand this is a contentious topic, and there are 
well-meaning people on both sides of the debate with strong 
feelings. The areas we are discussing in San Juan County and 
southeastern Utah are beautiful and majestic. They deserve 
protection. I believe that what we all want is to protect the 
antiquities in this area, but the question is how and through 
what means.
    It will come as no surprise that I supported President 
Trump's proclamation last month. But whether or not you agree 
with a proclamation, we now find ourselves with a reset and the 
opportunity to move forward with a legislative effort that 
enhances and approves the processes whereby we protect the 
area.
    That is where I would like to focus my remarks today--
looking to the future and highlighting the reasons I think 
Representative Curtis' bill helps us protect the antiquities in 
this area by including those most impacted by land management 
decisions, including the Native Americans, in the actual 
stewardship of these lands.
    Thomas Jefferson said that, ``the government closest to the 
people serves the people best.'' That certainly applies to 
management of public lands. I am pleased to see this 
legislation move us in that direction with the innovative use 
of management councils.
    These councils exemplify the concept of cooperative 
federalism, with seats on these councils mandated for Federal, 
county, and tribal representatives who will work together to 
develop management plans for the monuments.
    In our experience, the looting and vandalism in the area is 
not from lack of legal protections but from a lack of law 
enforcement and appropriate education.
    Utah's antiquities section coordinator, who is a neutral 
and objective party in this debate, shared with me the 
following: lines on a map do not protect archeological 
resources. Protection comes from ongoing education for visitors 
about respecting those treasures and enforcement of the laws 
prohibiting looting and vandalism.
    Unlike the original monument designation that protected the 
name only, this bill provides for increased law enforcement. 
Representative John Curtis' bill creates an Archeological 
Resources Protection Unit for each monument and, additionally, 
mandates that at least 10 law enforcement personnel be assigned 
to each monument.
    The bill also gives Utah the ability to exchange state land 
within the monumental boundaries for lands elsewhere of equal 
value. That is an important opportunity to consolidate our 
trust lands so that we may generate needed funds for Utah's 
schoolchildren.
    It is important to note this bill precludes any type of 
mining or development of oil or gas within the boundaries of 
the 1.35 million acres of the original Bears Ears Monument. 
This should put to rest any argument that the monument was 
reduced in order to advance energy development.
    I would also note that the lands within the original Bears 
Ears National Monument proclaimed in December of 2016 by 
President Obama were protected under a host of Federal 
Government laws long before this proclamation. All those 
Federal protections are still in effect today regardless of 
monument status or arbitrary lines on a map.
    A selection of the Federal laws governing and protecting 
these historic lands include the National Historic Preservation 
Act of 1966, the Archeological Resources Protection Act of 
1979, Native American Graves Protection Repatriation Act of 
1990, and the Pathological Resources Preservation Act of 2009.
    Moreover, the BLM's 2008 Monticello Resource Management 
Plan includes dozens of environmental protections for these 
lands, many of them drawn from the aforementioned laws, and 
they are still in effect here today.
    Despite these pre-existing protections, the current ones, 
and newly proposed ones, I recognize that there will continue 
to be controversy and debate over these remarkable areas. The 
question is, does there really need to be this controversy?
    Perhaps I am an idealist, but I hope that we can come 
together and work in good faith, recognizing that we all want 
these lands to remain public and that we all want to protect 
their history, archeology, and unique nature.
    We certainly want our children and grandchildren to be able 
to enjoy them just as we do. I think if we will ascribe good 
motives to each other, we will be more likely to have a 
productive conversation and more likely to reach an optimal 
solution for the use of our public lands that everyone can 
agree to and live with.
    Last, I would like to encourage the Committee's efforts to 
reform the Antiquities Act. Like most of what Congress does, 
the Antiquities Act of 1906 was well-intentioned, but it 
requires updating and modernization.
    I have long said it is not the use of the Antiquities Act, 
but rather the abuse of the Antiquities Act by presidents of 
both parties, that now requires Congress to carefully review 
this law.
    A great start would be Congressman Bishop's legislation 
that requires more public input and local buy-in based on the 
size of a proposed monument. I believe that this is a good bill 
that deserves your consideration and support.
    Thank you very much.

    [The prepared statement of Governor Herbert follows:]
 Prepared Statement of the Hon. Gary R. Herbert, Governor of the State 
                                of Utah
    Chairman McClintock and Ranking Member Hanabusa, thank you for 
inviting me here today to offer input on H.R. 4532, the Shash Jaa 
National Monument and Indian Creek National Monument Act. I also thank 
Chairman Rob Bishop and Representative John Curtis for developing this 
legislation and moving so quickly to hold this hearing.
    I understand this is a contentious topic and there are well-meaning 
people on both sides of the debate with strong feelings. The areas 
we're discussing in San Juan County in southeastern Utah are beautiful 
and majestic. They deserve protection. I believe that what we all want 
is to protect the antiquities in this area, but the question is how and 
through what means.
    It will come as no surprise that I supported President Trump's 
proclamation last month. But whether or not you agree, we now find 
ourselves with a reset and the opportunity to move forward with a 
legislative process for protecting this area. And that is where I'd 
like to focus my remarks today--looking to the future and highlighting 
the reasons I think Representative Curtis' bill helps us protect the 
antiquities in this area while also including those most impacted by 
land management decisions in the actual stewardship of these lands, 
including Native American tribes.
    Jefferson said that ``the government closest to the people serves 
the people best'' and that certainly applies to managing public lands. 
I'm pleased to see this legislation move us in that direction with the 
innovative use of management councils. These councils exemplify the 
concept of cooperative federalism, with seats mandated for Federal, 
county, and tribal representatives who will work together to develop 
management plans for the monuments.
    In our experience, the looting and vandalism in the area is not 
from lack of legal protections, but from lack of law enforcement. 
Unlike the original monument designation that protected in name only, 
this bill provides for increased law enforcement. Rep. Curtis' bill 
creates an Archaeological Resources Protection Unit for each monument 
and, additionally, mandates that at least 10 law enforcement personnel 
be assigned to each monument.
    Additionally, this bill precludes any type of mining or development 
of oil or gas within the boundaries of the 1.35 million acres of the 
original Bears Ears Monument. This should put to rest any suspicion 
that the monument was reduced in order to advance energy development.
    Finally, the bill gives Utah the ability to exchange state land 
within the monument boundaries for lands elsewhere of equal value. 
That's an important opportunity to consolidate our lands and generate 
funds for Utah's schoolchildren.
    In conclusion, I'd like to encourage the Committee's efforts to 
reform the Antiquities Act. Like most of what Congress does the 
Antiquities Act of 1906 was well-intentioned, but it requires 
modernization. I have long said it is not the use of the Antiquities 
Act, but rather the abuse of the Antiquities Act--by presidents of both 
parties--that requires Congress to carefully review this law. A great 
start would be Congressman Bishop's legislation that requires more 
public input and local buy-in based on the size of the proposed 
monument.
    I recognize there will continue to be controversy and debate over 
these remarkable areas. The question is, does there really need to be? 
Perhaps I am an idealist, but I hope we can come together and work in 
good faith, recognizing that we all want these lands to remain public, 
and we all want to protect their history, archaeology, and unique 
nature. We certainly all want our children and grandchildren to be able 
to enjoy them as we do. I think when we ascribe good motives to each 
other, we'll be more likely to have a productive conversation and more 
likely to reach an optimal solution for the use of our public lands 
that everyone can live with.
    Again, I thank you for the opportunity to testify and I'm happy to 
answer any questions.

                                 ______
                                 

    Mr. McClintock. Great. Thank you very much for your 
testimony, Governor.
    Our next witness is the honorable Shaun Chapoose. He is the 
Ute Tribal Business Committee member from the Ute Indian Tribe. 
He comes to us today from Fort Duchesne, Utah. Welcome.

 STATEMENT OF THE HONORABLE SHAUN CHAPOOSE, MEMBER, UTE TRIBAL 
   BUSINESS COMMITTEE, UTE INDIAN TRIBE, FORT DUCHESNE, UTAH

    Mr. Chapoose. Members of the Subcommittee, thank you for 
the opportunity to testify on H.R. 4532. I am an elected member 
of the Indian Tribe Business Committee. I am accompanied by a 
Navajo Nation delegate, Davis Filfred. We are both Bears Ears 
commissioners.
    I would also like to recognize Navajo Nation President 
Russell Begaye, and also Vice Chairman Councilman Tony Small, 
who represents my tribe.
    I am testifying on behalf of the Bears Ears Inter-Tribal 
Coalition. The Coalition includes the Ute Indian Tribe, the 
Navajo Nation, Ute Mountain Ute Tribe, Zuni Tribe, and Hopi 
Tribe. Our five tribes came together for Bears Ears National 
Monument and to protect the hundreds of thousands of priceless 
objects and sacred sites within the monument. It is important 
that we understand we are all federally recognized tribes with 
formal governments.
    The Coalition strongly opposes the bill, and it improves 
the President's unlawful action attempting to dismantle the 
monument. The bill pours salt on a wound caused by the 
President's action. Instead of this bill, the Subcommittee 
should be holding a hearing on H.R. 4518, the Bears Ears 
National Monument Expansion Act, introduced by Congressman 
Gallego. H.R. 4518 has 98 co-sponsors. This bill only has three 
co-sponsors.
    At the minimum, today's hearing should have provided equal 
time for both bills. Before I get into the problems with this 
bill, it is important to recognize the number of tribes cut out 
of this hearing. Our coalition is made up of five tribes, 
federally recognized sovereign tribes with our own government-
to-government relationship with the United States.
    This relationship was recognized in the Constitution long 
before Utah became a state. But here, at this witness table, 
our five tribes are forced onto one seat. Meanwhile, every 
level of the state is here. You have the state government, a 
private citizen from Utah, the San Juan County region, and the 
Utah lobbying group.
    The Subcommittee should provide a full hearing on the bill, 
problems with all of the tribes affected. The bill's problem 
can only be understood through the history of the Bears Ears 
National Monument.
    Our tribe and the Utah Dine Bikeyah, a local Utah Navajo 
organization, worked for decades to study the hundreds of 
thousands of objects and sites in the Bears Ears. To protect 
these sites, we defined a 1.9 million acre monument. President 
Obama reduced the monument by 30 percent to 1.35 and created 
the Bears Ears Commission to manage the monument. This was by 
far the smallest area possible as stated in the Antiquities 
Act.
    Then in an unprecedented and unlawful move, President Trump 
attempted to dismantle the monument and create smaller isolated 
monuments, including about 200,000 acres, an additional 85 
percent reduction. This is no longer the smallest area 
possible. Instead, this small area that the bill would enact 
into law leaves most of the resource unprotected.
    We need weeks for you to see and understand the hundreds of 
thousands of objects and sites the bill leaves unprotected. I 
brought photos of just a few. As all of these and thousands 
more meet the requirement of the Antiquities Act and are in 
need of protection, there is no legal or scientific reason to 
exclude these objects and sites, only political reasons.
    The politics are clear--not a single sovereign tribe was 
consulted in this bill. Misleading statements from some in 
Congress and the Administration forces me to say here that 
talking with an individual tribal member is not government-to-
government consultation. This should be obvious.
    The many problems with this bill demonstrate the lack of 
consultation with actual tribal governments. First, the bill 
violates the United States government-to-government 
relationship with our tribes.
    For example, we were shocked by the name Shash Jaa Tribal 
Management Council. Nothing about this council is true tribal 
management. Instead, the council is a return to the 1800s, when 
the United States would divide tribes and pursue its own 
objectives by cherry-picking tribal members it wanted to 
negotiate with. It is up to the sovereign tribal government, 
not the United States, to select our own representatives.
    Second, under the bill, the true tribal management council, 
the Bears Ears Commission, is required to filter its comments 
through non-Federal, non-tribal, state representatives. Third, 
the bill violates the exclusive Federal tribal relationship in 
the Constitution by elevating state and county governments 
above federally recognized tribes. Even worse, the bill equates 
tribes as public stakeholders.
    Finally, the bill impacts reservation lands by allowing 
state exchanges within our reservation boundaries. I have only 
scratched the surface. Under most circumstances, we would be 
eager to work to resolve the problems with the bill. But in 
this case, we cannot work in support of this bill that would 
legislatively approve the President's unlawful actions 
attempting to dismantle decades of collaborative work to 
establish the Bears Ears National Monument.
    Thank you for your opportunity.

    [The prepared statement of Mr. Chapoose follows:]
Prepared Statement of Shaun Chapoose, Bears Ears Inter-Tribal Coalition
                              introduction
    Chairman McClintock, Ranking Member Hanabusa, and members of the 
Subcommittee, thank you for the opportunity to testify on H.R. 4532, 
the Shash Jaa National Monument and Indian Creek National Monument Act. 
My name is Shaun Chapoose. I am an elected member of the Ute Indian 
Tribe's Business Committee. I also serve as a member of the Bears Ears 
Commission. Accompanying me today is Davis Filfred, Navajo Nation 
Delegate, who is also a member of the Bears Ears Commission.
    The Bears Ears Commission was formed to assist the Federal 
Government in managing the Bears Ears National Monument. The 
Commission's five members represent the five tribes who sought the 
establishment of the Monument through the Bears Ears Inter-Tribal 
Coalition (Coalition). The Coalition includes: the Ute Indian Tribe, 
the Navajo Nation, the Ute Mountain Ute Tribe, the Pueblo of Zuni, and 
the Hopi Tribe. The Coalition represents a historic gathering of our 
people and our tribal nations in support of the significant and 
priceless resources making up the Bears Ears National Monument. I am 
honored to testify today on behalf of the five tribes of the Bears Ears 
Inter-Tribal Coalition.
    At the outset we ask that the Subcommittee recognize the number of 
tribes that were cut out of this hearing. Each of the tribes making up 
the Bears Ears Inter-Tribal Coalition is its own sovereign government. 
Each of us have our own unique and negotiated relationship with the 
United States. This relationship is highlighted in the United States 
Constitution and began long before Utah became a state.
    Yet, at this hearing, our five tribes are forced to share one seat, 
while every level of the state of Utah is represented, including: the 
state government, county government and a Utah stakeholder lobbying 
group. We ask that the Subcommittee recognize its government-to-
government relationship with each of our tribes and provide a full 
hearing of the impacts H.R. 4532 will have on our cultural, natural, 
and sacred resources. Each of our tribes have our own unique concerns 
and perspectives on H.R. 4532.
    The Bears Ears Inter-Tribal Coalition adamantly opposes H.R. 4532 
and its attempt to legislatively confirm President Trump's unlawful 
action revoking, replacing, and dismantling the Bear Ears National 
Monument. Of course, we appreciate Congressman Curtis' recognition of 
the significance of the cultural, natural, and sacred resources 
included within the Shash Jaa and Indian Creek areas in his bill, H.R. 
4532. However, in this context, the bill pours salt on the wound caused 
by the President's unlawful action.
    Instead of H.R. 4532, the Subcommittee should be holding a hearing 
on H.R. 4518, the Bears Ears National Monument Expansion Act. H.R. 4518 
was introduced by Congressman Gallego on December 1, 2017 and referred 
to the Subcommittee on December 7, 2017. Despite being before the 
Subcommittee for a longer period of time than H.R. 4532, no hearing has 
been scheduled on H.R. 4518. In addition, H.R. 4518 has the broad 
support of 98 co-sponsors, while H.R. 4532 has only garnered the 
support of three co-sponsors. If the Subcommittee were following 
regular order, there appears to be no basis for holding a hearing on 
H.R. 4532 and not H.R. 4518. At a minimum, today's hearing should have 
provided equal time for consideration of both bills.
    H.R. 4518 would address the President's unlawful action by 
expanding the Bear Ears National Monument to the 1.9 million acres 
originally proposed by the Coalition. The Coalition and Utah Dine 
Bikeyah, a local, nonprofit Utah Navajo organization, worked for almost 
a decade to conduct an extensive ethnographic study documenting a vast 
array of ``historic landmarks, historic and prehistoric structures, and 
other objects of historic and scientific interest'' that have special 
significance to our Tribal Nations and our ancestors. As required by 
the Antiquities Act, that study showed that 1.9 million acres was the 
``smallest area compatible with the proper care and management of the 
objects to be protected'' and that protection was needed under the 
Antiquities Act. H.R. 4518, developed in consultation with tribal 
governments, would expand the size of the Monument to its originally 
proposed 1.9 million acres to ensure that all of its vital and sacred 
resources are protected in accordance with the law.
    In contrast, H.R. 4532 was developed without any tribal 
consultation and includes a variety of serious problems that violate 
basic tenants of Federal Indian law and the United States' treaty, 
trust and government-to-government relationship with Indian tribes. 
Problems include:

    <bullet> creating a tribal management council that is not governed 
            by tribes and is composed of many of the strongest 
            opponents to the Bears Ears National Monument;

    <bullet> imposing an inappropriate barrier between the tribes and 
            our Federal trustee by requiring the comments of the Bears 
            Ears Commission to be filtered through management councils 
            consisting of non-Federal and non-tribal representatives;

    <bullet> elevating the views of state and country governments above 
            the tribes, and ignoring and undermining the government-to-
            government relationship between tribes and the Federal 
            Government by treating tribes as mere interest groups;

    <bullet> creating and imposing false divisions within our tribes; 
            and

    <bullet> including land exchange provisions that could affect 
            Indian reservation lands.

    Under most circumstances we would be eager to work with Congressman 
Curtis and the Subcommittee to address and resolve these problems with 
H.R. 4532. However, we cannot work in support of a bill that would 
legislatively confirm the President's unlawful action dismantling a 
decade of collaborative work to establish the Bears Ears National 
Monument.
                    the bears ears national monument
    Establishment of the Bears Ears National Monument was a decade long 
collaborative effort to encompass and protect hundreds of thousands of 
cultural, historic, and spiritual sites and features. As noted above, 
the Coalition and Utah Dine Bikeyah worked for almost a decade to 
conduct an extensive ethnographic study documenting sites and objects 
across southeastern Utah. The 1.9 million acres originally proposed by 
the Coalition was reduced by about 30 percent by Presidential 
Proclamation No. 9558 to establish the 1.35 million acre Bears Ears 
National Monument.
    In this reduced area, there are no unimportant areas. In fact, the 
Bears Ears National Monument is so rich, and the resources there are so 
densely situated, that one cannot go more than one-eighth of a mile 
without encountering the next site or ``object.'' If you remove any 
part of the Monument from protection, it will necessarily damage 
cultural, spiritual, archaeological, and paleontological sites of 
paramount significance.
    In addition to vast ``historic landmarks, historic and prehistoric 
structures, and other objects of historic and scientific interest'' 
contained within the Monument, Bears Ears is a homeland to us. It 
always has been and remains so. We continue to use Bears Ears to: 
collect plants, minerals, objects and water for religious and cultural 
ceremonies and medicinal purposes; hunt, fish and gather; provide 
offerings at archaeological sites; and conduct ceremonies on the land. 
In fact, Bears Ears is so culturally and spiritually significant that 
some ceremonial use items can only be harvested within Bears Ears. 
Moreover, some members of the Coalition's tribes continue to hold 
grazing permits and allotments in the area.
    Our cultures are everywhere within Bears Ears. The canyons and 
forests hold many of our stories. Family gatherings, dances, and 
ceremonies are held at special places within Bears Ears. Our tribal 
members go to Bears Ears to gather roots, berries, pinon nuts, weaving 
materials, and medicines. We go for healing. Stone cliff-dwellings, 
rock art and trails, testaments to the Old People, have survived 
thousands of years of wear and weather. Our ancestors are buried there, 
and we can hear their songs and prayers on every mesa and in each 
canyon.
    The Bears Ears National Monument enjoys overwhelming popularity 
nationally, extensive and passionate support in the state of Utah, and 
support from locals who view the Monument as an economic development 
opportunity. Businesses based on tourism, recreation, and respect for 
the Monument's cultural resources provide long-term sustainable jobs 
and local economic resources. This is in contrast to uranium and 
fossil-fuel mining on Federal lands that provide temporary, dangerous 
jobs that fund far off corporations, often destabilize local economies, 
and leave behind pollution and a scarred landscape.
    The President's attempt to eliminate or reduce the boundaries of 
the Bears Ears National Monument is wrong on every count. Such action 
is illegal, beyond the reach of presidential authority, and should not 
be confirmed by H.R. 4532. Despite provisions of H.R. 4532 purporting 
to withdraw portions of the Monument's lands from entry for mining 
purposes, the Monument would still be subject to and affected by 
existing claims and leases, potential expanded mining, and mining 
related activities. In addition, grazing interests would be given 
priority and damaging motorized vehicle use would be permitted. 
Finally, ghastly looting and grave robbing continues to this day 
throughout Bears Ears and would not be deterred by H.R. 4532.
    Preventing and addressing these impacts were the primary reason 
that the tribes sought monument status for this area. While we 
recognize there are appropriate places for resource development, 
including energy development, this is not one of those areas. This is 
an area that must be preserved and protected for its cultural, 
archeological, paleontological, and sacred. Without appropriate 
protection, American citizens and the world would lose the opportunity 
to enjoy one of the most remote and wondrous landscapes found anywhere. 
We would also lose the opportunity to highlight, foster, and share our 
traditional knowledge that is tied to Bears Ears.
             the president's unlawful action and h.r. 4532
    Despite its provisions purporting to protect important cultural, 
natural, and sacred resources, H.R. 4532 can only be understood in the 
context of the President's unlawful action revoking, replacing, and 
dismantling the Bear Ears National Monument. On December 4, 2017, the 
President issued Presidential Proclamation No. 9681 purporting to 
``modify'' the Bears Ears National Monument and designating two 
different, smaller, and isolated units called the Shash Jaa and Indian 
Creek units. This drastic change actually revokes and dismantles the 
Monument and replaces it with two new monuments. These two different 
monuments consist of 201,397 acres, an 85 percent reduction in land 
when compared to the original Monument, and leave hundreds of thousands 
of priceless and significant cultural, natural and sacred objects 
unprotected.
    President Trump's unprecedented proclamation revoking Bears Ears 
and replacing it with two new monuments violates the Antiquities Act 
and exceeds the power delegated to the President by Congress. The 
Antiquities Act authorizes presidents to designate Federal public 
lands, such as Bears Ears, as national monuments to safeguard and 
preserve landmarks, structures, and objects of historic or scientific 
importance. The Antiquities Act does not authorize a president to 
rescind or modify national monuments created by their predecessors, and 
certainly does not authorize them to revoke and replace existing 
monuments with smaller ones as has been attempted here. H.R. 4532 would 
legislatively confirm this unlawful action.
    H.R. 4532 would leave hundreds of thousands of priceless and 
significant cultural, natural, and sacred objects unprotected. There 
are too many objects, sites, and resources left unprotected to list 
them all here. Not to mention the cultural practices and traditional 
tribal intellectual knowledge that would be lost or diminished. A few 
examples of objects and sites that would be unprotected are included in 
Exhibits 1, 2, and 3 attached to our testimony.
    Exhibit 1 shows an example of a dwelling and related rock art that 
H.R. 4532 would leave unprotected. It shows the handprints and 
dwellings of our ancestors whose burial sites and funerary objects have 
been looted. Bears Ears includes a variety of dwellings and granaries 
showing different construction methods and eras of building. The area 
is unusual in that it shows contact between Mesa Verde and Chacoan 
Ancestral Puebloans, including differences in construction of religious 
structures. These ``objects of historic and scientific interest'' 
should be protected as a part of the Bears Ears National Monument under 
the Antiquities Act.
    Exhibit 2 shows rock art representing a cradleboard of Ute origin 
that H.R. 4532 would leave unprotected. The artwork is unusual and 
rare. It is located on a horizontal surface. Again, this is an ``object 
of historic and scientific interest'' that should be protected as a 
part of the Bears Ears National Monument under the Antiquities Act.
    Finally, Exhibit 3 shows Basketmaker or Ancestral Puebloan 
pictographs painted on a rock surface that would be left unprotected by 
H.R. 4532. Bears Ears includes a wide variety of rock art of different 
styles and from different time periods. Again, these are ``objects of 
historic and scientific interest'' that should be protected as a part 
of the Bears Ears National Monument under the Antiquities Act.
    These are just a few of the ``objects of historic and scientific 
interest'' that should still be protected under the Antiquities Act and 
any legislation covering these resources. There is absolutely no 
rational basis to exclude these sites and objects while including the 
sites and objects that are within the Shash Jaa and Indian Creek areas 
designated by President Trump and H.R. 4532.
    Claims that these objects and sites can be protected under other 
applicable laws like the National Historic Preservation Act or the 
Archeological Resources Protection Act of 1979 are a red herring. If 
these laws provided adequate protections, there would be no need for 
the protections included in President Trump's Proclamation No. 9681 or 
H.R. 4532. Instead, these claims merely expose political decision 
making behind Proclamation No. 9681 and H.R. 4532. Unfortunately, it is 
clear that Proclamation No. 9681 and H.R. 4532 were not based on 
scientific and ethnographic assessments of the resources that would be 
impacted.
                    specific problems with h.r. 4532
    Most important, H.R. 4532 was not developed in consultation with 
the Indian tribes who hold these lands sacred and would be most 
impacted. Misleading statements by some in Congress and the 
Administration require us to emphasize that discussions with individual 
tribal members are not government-to-government consultation. Let us be 
clear, none of the elected tribal leaders making up the Bears Ears 
Inter-Tribal Coalition was contacted to advise, consult, or assist in 
the development of H.R. 4532. In fact, not a single federally 
recognized tribal government was consulted on the proposals in H.R. 
4532. Specific problems with the bill demonstrate this lack of 
consultation.
    Time after time, H.R. 4532 undermines and violates the United 
States' treaty, trust, and government-to-government relationship with 
our tribes. For example, we were shocked by the name of Shash Jaa 
Tribal Management Council. Nothing about this Council reflects true 
tribal management. First, the Council consists of three representatives 
who are not required to have any ties whatsoever to tribal governments. 
Second, the tribal members on the Council are not required to be duly 
elected or appointed representatives of tribal governments, which means 
they will not be authorized tribal government representatives. Further 
to that point, the President will appoint all of the members of the 
Council as opposed to tribal governments. Third, the tribal members 
must all be from only two of the five tribes with an interest in Bears 
Ears whereas the five Coalition Tribes have already acknowledged our 
shared and local interest in Bears Ears. Fourth, the Council is 
required to consult with state and local governments, and the public, 
but are not required to consult with the tribes who hold these lands 
sacred.
    Finally, the most shameful aspect of the bill, is that it 
improperly predetermines the tribal representatives who would serve on 
the Council. It is not up to the United States or Congress to select 
who will represent our tribes. This is an inappropriate return to the 
failed policies of the 1800s when the United States would divide tribes 
and pursue its own objectives by designating for itself which tribal 
representatives the United States would negotiate. It is up to 
sovereign tribal governments, not the United States, to select our own 
representatives.
    These factors are even worse for the Indian Creek Management 
Council where a single tribal representative serves with four 
representatives from Federal, state and county governments. Again, the 
tribal representative would be appointed by the President and not the 
tribe, and would have to consider and incorporate the comments of state 
and local governments and the public as opposed to the tribal 
governments most affected. For both the Shash Jaa and Indian Creek 
areas, the Bears Ears Commission, including the five tribes is reduced 
to an advisory group.
    These provisions attempt to treat Indian tribes as merely public 
stakeholders and not as governments, and most certainly not as 
governments with a direct sovereign-to-sovereign relationship with the 
Federal Government. This violates fundamental principles of Federal 
Indian law. The United States has a treaty, trust, and government-to-
government relationship with Indian tribes. As specified in the United 
States Constitution, this relationship is exclusive and does not 
include state governments. H.R. 4532 must be revised to reflect these 
important principles of Federal law.
    Title III of H.R. 4532 also needs revision. Title III allows the 
state of Utah to exchange its school trust lands located inside the 
Shash Jaa and Indian Creek areas for other lands within the state to 
provide for resource development in support of public schools. However, 
this provision must be revised to exclude lands within Indian 
reservations to prevent impacts to on-reservation Indian resources.
    Our cultural, natural, and sacred resources within our Indian 
reservations are just as important as the resources within the Bears 
Ears National Monument. Our reservation lands were reserved in treaties 
and other agreements to provide a homeland for our tribes. In another 
return to the failed policies of the 1800s, Title III of H.R. 4532 
would allow another Indian land grab where Federal lands lie within our 
reservations. The United States and Congress rejected these policies 
long ago in favor of protecting and restoring Indian reservation lands. 
H.R. 4532 and this extreme proposal should be soundly rejected.
                               conclusion
    The Bears Ears Inter-Tribal Coalition adamantly opposes H.R. 4532 
which would legislatively confirm the President's unlawful action in 
violation of the Antiquities Act. H.R. 4532 would dramatically affect 
some of our most important cultural, natural, and sacred resources. We 
ask that the Subcommittee provide a full hearing of H.R. 4532 and hear 
from each of the five tribes who make up the Bears Ears Inter-Tribal 
Coalition. We also ask that the Subcommittee hold a hearing on H.R. 
4518 which has broad support and would resolve many of the problems 
raised today.

    Thank you for your consideration of our testimony.

                              ATTACHMENTS

                               Exhibit 1
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

    Mr. McClintock. Thank you for your testimony.
    Our next witness is Mr. Matthew Anderson. He is the 
Director of the Coalition for Self-Government in the West, of 
the Sutherland Institute from Salt Lake City, Utah. Welcome to 
the Committee.

  STATEMENT OF MATTHEW ANDERSON, DIRECTOR, COALITION FOR SELF-
 GOVERNMENT IN THE WEST, SUTHERLAND INSTITUTE, SALT LAKE CITY, 
                              UTAH

    Mr. Anderson. Good morning, Chairmen Bishop and McClintock, 
and Ranking Members Grijalva and Lowenthal, and members of the 
Subcommittee on Federal Lands. Thank you for the invitation to 
speak.
    San Juan County is a land of towering mesas, red rock 
canyons, and unparalleled beauty. More impressive than this 
landscape, however, are the people who call this place home. 
For locals, public lands are about much more than outdoor 
recreation. Their history, culture, and future depend on access 
to public lands and the life-sustaining resources they provide.
    Simply put, public lands are their whole world. For nearly 
2 years, I have spent countless hours getting to know the 
people of San Juan County, learning about their connection to 
the land, and coming to understand why they overwhelmingly 
opposed the Bears Ears National Monument.
    Today, I would like to share with you the stories of three 
San Juan County residents and how provisions of H.R. 4532 
respects their history, promotes their culture, and preserves 
their way of life.
    First, I would like to tell you about Grandma Betty Jones. 
Grandma Betty is a Utah Navajo and serves as a leader and 
medicine woman in her community. I first got to know Grandma 
Betty at a rally in Bluff, Utah. There she told me stories of 
gathering traditional herbs and medicines along Elk Ridge, 
herding sheep on the reservation, and explained the spiritual 
nature of Bears Ears.
    Grandma Betty also expressed her fear that a national 
monument designation would restrict local tribes' access to the 
land. Much of her concern centered on the reality that a 
designation could limit firewood cutting and the heat it 
provides Navajo homes during the long winter months.
    After all, she and local Native Americans have seen 
firsthand that national monuments restrict this type of 
activity. Just a stone's throw away from the Bears Ears 
National Monument is the Natural Bridges National Monument. The 
words ``No wood cutting'' greet visitors in big, bold letters.
    H.R. 4532 ensures that Grandma Betty, her family, and other 
Utah Native Americans will have a prominent seat at the table 
in determining how Bears Ears and the surrounding area will be 
managed. This first-of-its-kind legislation will keep Utahns' 
homes warm and protect against the whims of centralized 
government.
    Debbie Christiansen serves as president of the San Juan 
County School Board. I spent an afternoon in her living room 
getting to know her and listening to the educational struggles 
that her county faces. You see, it costs nearly three times as 
much to educate one student in San Juan County as it does in 
other parts of the state due to its small size and large land 
mass.
    When you combine this with the fact that less than 8 
percent of the county can be taxed to support education and the 
rampant poverty in the region, it is no wonder that Debbie 
opposes decisions that will put further strain on the limited 
educational resources her county has. She viewed the Bears Ears 
National Monument as an insurmountable hurdle that locked up 
state trust lands and the funds they provide the region's 
schoolchildren.
    The land exchange in H.R. 4532 permits the State of Utah 
School and Institutional Trust Lands Administration to swap 
parcels in the Shash Jaa and Indian Creek National Monuments 
for mineral rich lands both within and outside of the county. 
While clearly not the answer to all of San Juan County's 
educational struggles, this bill will open up funding to 
educate the county schoolchildren.
    Zeb Dalton is a third-generation cattle rancher and makes a 
living grazing his livestock in the shadow of the Bears Ears 
Buttes. In the spring of 2016, I met him and his teenage son at 
their corral to learn about ranching in southeastern Utah and 
listen to his concerns about the then-proposed Bears Ears 
National Monument.
    From horseback, Zeb expressed his worry that a designation 
would bring with it steeper regulations and decreased numbers 
of grazing cattle. He cited the experience of his neighbors in 
Kane and Garfield Counties where, despite President Clinton's 
promise that grazing would remain at historical levels in the 
Grand Staircase-Escalante National Monument, the number of 
actual use AUMs has declined by almost a third in less than 20 
years.
    For those ranchers left in the area, they face an uphill 
battle. They struggle to extend or move water lines within 
their allotments, fence riparian areas, maintain roads, or take 
other necessary measures to ensure the health and safety of 
their livestock.
    This is slowly pushing cattle off the range and ranchers 
off the land their families have worked for generations. Zeb 
fears his business, cultural heritage, and family's future will 
be next. H.R. 4532 helps safeguard Zeb's and other San Juan 
County ranchers' way of life, allowing them to use the land as 
they have for generations.
    While Grandma Betty, Debbie, and Zeb all differ in how they 
use public lands, they all stand in solidarity and they are 
called to preserve, protect, and responsibly use the land. 
After all, who knows this land and loves it more than those who 
call it home.
    Without congressional action and the sensibility of H.R. 
4532, Bears Ears, Shash Jaa, and Indian Creek will be relegated 
to nothing more than political footballs being punted back and 
forth with each change of presidential administration. Nobody 
wins in this scenario, not the archeological resources, not the 
environment, and certainly not the people of San Juan County. 
Thank you.

    [The prepared statement of Mr. Anderson follows:]
 Prepared Statement of Matthew Anderson, Director of the Coalition for 
     Self-Government in the West, a project of Sutherland Institute
    Good morning Chairman McClintock, Ranking Member Hanabusa, and 
members of the Subcommittee on Federal Lands, and thank you for the 
invitation to speak.
    San Juan County is a land of towering mesas, red rock canyons and 
unparalleled beauty. More impressive than this landscape, however, are 
the people who call this place home. For locals, public lands are about 
much more than rock climbing, camping, and outdoor recreation. Their 
history, culture, and future depend on access to public lands and the 
life-sustaining resources they provide. Simply put, public lands are 
their whole world.
    For nearly 2 years, I have spent countless hours getting to know 
the people of San Juan County, learning about their connection to the 
land and coming to understand why they overwhelmingly opposed the Bears 
Ears National Monument. While President Trump's decision to reduce the 
monument was a bold first step, locals recognize that congressional 
action alone is the only path that can secure their future.
    Today, I would like to share with you the stories of three San Juan 
County residents and how the provisions of H.R. 4532 respect their 
history, promotes their culture and preserves their way of life.
    First, I would like to tell you about Grandma Betty Jones. Grandma 
Betty is a Utah Navajo and serves as a leader and medicine woman in her 
community. I first got to know Grandma Betty at an anti-monument rally 
in Bluff, Utah. There she told me stories of gathering traditional 
herbs and medicines along Elk Ridge and herding sheep on the 
reservation, and she explained the spiritual nature of Bears Ears. 
Grandma Betty also expressed her fear that a national monument 
designation would restrict local tribes' access to the land. Much of 
her concern centered on the reality that a designation could limit 
woodcutting and the heat it provides Navajo homes during the long 
winter months. After all, she and other local Native Americans have 
seen firsthand that national monuments restrict this type of activity. 
Just a stone's throw away from Bears Ears is the Natural Bridges 
National Monument. The words ``No Woodcutting'' greet visitors in big 
bold letters. H.R. 4532 ensures that Grandma Betty, her family and 
other Utah Native Americans will have a prominent seat at the table in 
determining how Bears Ears and the surrounding area will be managed. 
This first-of-its-kind legislation will keep Utahns' homes warm and 
protect against the whims of centralized government.
    Debbie Christiansen serves as president of the San Juan County 
School Board. I spent an afternoon in her living room getting to know 
her--listening to stories of raising her family in a small town, 
discussing her love of the students she serves, and learning of her 
hopes for the future of San Juan County. She shared with me the 
educational struggles her county faces. You see, it costs nearly three 
times as much to educate one student in San Juan County as it does in 
other parts of the state due to its small population and large land 
mass. When you combine this with the fact that less than 8 percent of 
the county can be taxed to support education and the rampant poverty in 
the region, it is no wonder that Debbie opposes decisions that put 
further strain on the limited educational resources her county has. She 
viewed the Bears Ears National Monument as an insurmountable hurdle 
that locked up state trust lands and the funds they provide the 
region's schoolchildren. Today's bill makes Debbie's job a little 
easier by opening up funds to educate the next generation. The land 
exchange in H.R. 4532 permits the State of Utah's School and 
Institutional Trust Lands Administration to swap parcels in the Shash 
Jaa and Indian Creek National Monuments for mineral-rich lands both 
within and outside of the county. While clearly not the answer to all 
of San Juan County's educational struggles, this bill can have a 
profound and lasting impact on the county's schoolchildren.
    Zeb Dalton is a third-generation cattle rancher and makes a living 
grazing livestock in the shadow of the Bears Ears Buttes. In the spring 
of 2016 I met him and his teenage son at their corral to learn about 
ranching in southeastern Utah and his concerns over the then-proposed 
Bears Ears National Monument. From horseback, Zeb expressed his worry 
that a designation would bring with it steeper regulations and 
decreased numbers of grazing cattle. He cited the experiences of his 
neighbors in Kane and Garfield counties, where--despite President 
Clinton's promise that grazing would remain at historical levels in the 
Grand Staircase-Escalante National Monument--the number of actual use 
AUMs has declined by almost a third in less than 20 years. Those 
ranchers left in the area face an uphill battle. They struggle to 
extend or move water lines within their allotments, fence riparian 
areas, maintain roads, or take other necessary measures to ensure the 
health and safety of their livestock. This is slowly pushing cattle off 
the range and ranchers off the land their families have worked for 
generations. Zeb fears his business, cultural heritage, and family's 
future will be next. H.R. 4532 helps safeguard Zeb's and other San Juan 
County ranchers' way of life--allowing them to use the land as they 
have for generations.
    While Grandma Betty, Debbie, and Zeb all differ in how they use 
public lands, they all stand in solidarity in their call to preserve, 
protect, and responsibly use the land. After all, who knows and loves 
this area more than those who call it home? Without congressional 
action, Bears Ears, Shash Jaa, and Indian Creek will be relegated to 
nothing more than political footballs being punted back and forth with 
each change of presidential administration. Nobody wins in that 
scenario--not the archaeological resources, not the environment, and 
certainly not the people of San Juan County.

                                 ______
                                 

    Mr. McClintock. Great. Thank you for your testimony.
    Our final witness is Ms. Suzette Morris. She is with the 
White Mesa Ute community. She is a member of the Posey Band Ute 
Tribe. She comes to us from Fort Blanding, Utah. Welcome to the 
Committee.

 STATEMENT OF SUZETTE MORRIS, WHITE MESA UTE COMMUNITY, MEMBER 
         OF POSEY BAND UTE TRIBE, SAN JUAN COUNTY, UTAH

    Ms. Morris. Thank you, Chairman McClintock, Congressman 
Lowenthal, and members of the Subcommittee. Thank you for 
inviting me to testify in support of H.R. 4532.
    My name is Suzette Morris, and I am a member of the Ute 
Mountain Tribe from White Mesa, Utah. I am also the vice 
president of the Stewards of San Juan County. Stewards of San 
Juan County is a diverse working group made up of stakeholders, 
advocates, and interested citizens who are working together to 
determine how we can best maintain and enhance our land in San 
Juan County.
    I received a call Sunday evening asking if I would come 
testify. I left my six daughters early the next morning, drove 
2\1/2\ hours to the airport, took a plane to Dallas and another 
plane here to Washington, DC, a place I have never been in my 
life, because this is so important to me and my family.
    I grew up in White Mesa. My family is from the area. From a 
young girl, I was taught all about these lands. I was taught 
where to go and also where not to go. In our communities, 
public lands are our most valuable resource. We use the land 
for hunting, wood cutting, gathering sage and medicinal herbs, 
and for sacred ceremonies.
    There is no one who cares for the land more than we do, the 
local residents and Native people of San Juan County. It is the 
people who live closest to the land that understand the land 
best and should be the voice in how the lands are managed.
    H.R. 4532 will finally empower the voices who have been 
silenced in this debate, and those are the voices of the local 
tribes who actually live in San Juan County. Our voices have 
been silenced by special interest groups funded by Hollywood 
actors, San Francisco boardrooms, and by tribes who do not live 
anywhere near Bears Ears. Even the leaders of my own tribe in 
Colorado don't know where Bears Ears is.
    They decided to support the Obama monument in secret. They 
did not talk to the White Mesa Utes to support it, because the 
majority of us don't. By creating the first-ever tribal 
management council, you are empowering local Native American 
people with real authority to manage the land of their 
ancestors. The Obama creation of the Bears Ears National 
Monument never mentioned tribal management. It only created an 
advisory committee that had no real power over the land.
    In closing, I would like to acknowledge that Rebecca 
Benally, the San Juan County Commissioner and a member of the 
Navajo Tribe, was initially scheduled to testify today. Sadly, 
she was unable to make it because of sickness and a hospital 
visit. I would like to submit her testimony for the record and 
read it in part:

        ``By supporting H.R. 4532, you are listening to a group 
        that has been silenced for too long. We all come from 
        different backgrounds, but we want the same results. We 
        want land that is well-managed and accessible to all 
        people. We support the language of H.R. 4532.''

    Unfortunately, the Obama monument was done to us, not with 
us. A national monument should be an honor to an area, not 
something forced by a president thousands of miles away. The 
Obama monument ignored the voices of locals. That is why I am 
here.
    It is an honor to be here today. Thank you for listening, 
and I look forward to any questions.

    [The prepared statement of Ms. Morris follows:]
  Prepared Statement of Suzette Morris, Ute Mountain Ute Tribe, White 
                               Mesa, Utah
    Thank you, Chairman McClintock, Congressman Lowenthal, and members 
of the Subcommittee for inviting me to testify in support of H.R. 4532. 
My name is Suzette Morris and I am a member of the Ute Mountain Ute 
Tribe from White Mesa, Utah. I am also the Vice President of the 
Stewards of San Juan County. Stewards of San Juan County is a diverse 
working group made up of stakeholders, advocates, and interested 
citizens who are working together to determine how we can best maintain 
and enhance land in San Juan County.
    I got a call Sunday evening asking if I would come testify. I left 
my six daughters early the next morning, drove 2\1/2\ hours to the 
airport, took a plane to Dallas and then another plane here to 
Washington, DC, a place I have never been in my life, because this is 
so important to me and my family.
    I grew up in White Mesa. My family is from this area. From a young 
age I was taught all about these lands. I was taught where to go, and 
also where not to go. In our community, public lands are our most 
valuable resource. We use the land for hunting, wood cutting, gathering 
sage and medicinal herbs, and for sacred ceremonies. There is no one 
who cares for the land more than we do, the local residents and Native 
people of San Juan County. It is the people who live closest to the 
land that understand the land best and should have a voice in how the 
lands are managed.
    H.R. 4532 will finally empower the voices who have been silenced in 
this debate, and those are the voices of the local tribes who actually 
live in San Juan County. Our voices have been silenced by special 
interest groups funded by Hollywood actors, San Francisco boardrooms 
and by tribes who do not live anywhere near Bears Ears. Even the 
leaders of my own tribe in Colorado probably don't even know where 
Bears Ears is. They decided to support the Obama monument in secret. 
They didn't ask the White Mesa Utes to support it, because the majority 
of us don't.
    By creating the first ever Tribal Management Council you are 
empowering local Native American people with real authority to manage 
the land of their ancestors. The Obama creation of the Bears Ears 
National Monument never mentioned tribal management, it only created an 
advisory committee that had no real power over the land.
    In closing, I would like to acknowledge that Rebecca Benally, the 
San Juan County Commissioner and a member of the Navajo Tribe was 
initially scheduled to testify today. Sadly she was unable to make it 
because of a sickness and a hospital visit. I would like to submit her 
testimony for the record and read it in part:

        ``By supporting H.R. 4532, you are listening to a group that 
        has been silenced for too long. We all come from different 
        backgrounds, but we want the same results. We want land that is 
        well-managed and accessible to all people. We support the 
        language of H.R. 4532.''

    Unfortunately the Obama monument was done to us, not with us. A 
national monument should be an honor to an area, not something forced 
upon us by a president thousands of miles away. The Obama monument 
ignored the voices of locals. That is why I am here.
    It is an honor to be here today. Thank you for listening and I look 
forward to your questions.

                                 ______
                                 

    Mr. McClintock. Thank you very much.
    I, again, want to thank the panel for their testimony and 
coming all the way here today to provide that testimony.
    Questioning in this Subcommittee is done by seniority, but 
that is often modified by unanimous consent at the request of 
the Majority or Minority. We will make such a deviation right 
now by recognizing the author of the measure, Mr. Curtis, for 5 
minutes.
    Mr. Curtis. Thank you very much. And thanks again to all of 
our witnesses.
    Governor Herbert, thank you for being here today. I was 
feeling like you had made quite a sacrifice to be here until I 
heard Suzette talk about her trip. Thank you, all of you, for 
being here.
    Governor, may I ask you for just a minute to put on your 
county commissioner hat--many people may not realize that you 
were county commissioner before you were governor--to talk 
about the principle of local control and why that is so 
important to us in Utah.
    Governor Herbert. Well, again, I think most all of us 
appreciate that government closest to the people tends to be 
more reflective and more representative of the people's needs 
and wishes and probably has a better understanding of what is 
happening in their own backyard.
    Certainly, as a county commissioner, in my responsibilities 
there, I am kind of a bottom-up type of a guy as opposed to a 
top down. As a county commissioner, I was concerned about those 
above me, of the state mandating or dictating something that 
really the people of my jurisdiction do not want.
    I think we all understand the importance of local control 
and local input, certainly as we have responsibilities. And in 
this particular case, this ought to be a joint effort. It is 
not one versus the other. It is really a collaboration we ought 
to be looking for to get the right outcome. It will be optimal 
for the benefit of the Americans that we represent and for the 
people of Utah and for particularly the people there in the San 
Juan County area.
    Mr. Curtis. Thank you.
    You alluded to this, but let me ask you to expand on it. 
This issue that we have in Utah with Federal lands and the way 
their schools are funded, could you elaborate on that a little 
bit and talk about the burden on the state with the Federal 
lands?
    Governor Herbert. Well, in the public lands state--and, 
again, I know this is foreign to some of you because we have 
less than 1 in 4 acres of Utah that is privately owned, so we 
are a public lands state. We will always be a public lands 
state. But that seems to be the extent of where the rub comes 
all the time.
    And we have these townships, these sessions, rather, that 
have been set aside when Utah became a state--we call them 
school trust lands--designed to help fund education. These are 
trapped inside of public lands and sometimes hard to develop.
    But those areas are being developed by our SITLA people. 
And the income that comes off that is put back into the public 
education system to help fund our needed funding for our 
schools.
    We, in Utah, are the lowest funded people in the Nation. We 
get a pretty good result for the amount of money, but we could 
use more resources, and our school trust lands are really an 
important asset to help us fund our schools properly.
    Mr. Curtis. Thank you.
    Ms. Morris, thanks again for coming here today.
    The bill includes a number of additional resources into the 
area. Could you comment on how those are perceived, and are 
they welcomed by the Native Americans in the area?
    Ms. Morris. From my point of view, I think the land is 
protected already and the resources that we have are there. 
They are available, so I don't think a monument needs to be 
there to protect the land.
    The protection was already there from the beginning. There 
are 14 laws that protect the land in that area, and I don't 
think that making a monument is going to protect it anymore 
than----
    Mr. Curtis. Thank you.
    You live very close to the monument, 30 minutes. Is that 
approximately right?
    Ms. Morris. Yes, about 30, 45, depending on where you are 
going in the area, but I live close.
    Mr. Curtis. The two presidential declarations have brought 
a lot of attention to this. Can you tell us just briefly what 
you are seeing locally as far as additional people in the area?
    Ms. Morris. With the monument designation?
    Mr. Curtis. Yes.
    Ms. Morris. We go out in the area, like they mentioned. I 
am a descendent of the Posey Band, and we have allotments out 
there in Alan Canyon that is just a little ways from the Bears 
Ears Monument.
    We have seen a lot of suspicious activity where people are 
out there, and when we come upon them they are taking off. They 
are running through the stream so that we can't see their 
footprints. It kind of opened a lot of doors to what the other 
side is saying about the county looting.
    And I think it is the outsiders. It opened a lot of doors 
to people, they are fascinated with the area, so they are going 
in and they are curious.
    Mr. Curtis. Thank you very much.
    I yield my time, Mr. Chairman.
    Mr. McClintock. Thank you.
    The Chair is pleased to recognize the Ranking Member, Mr. 
Lowenthal, for 5 minutes.
    Mr. Lowenthal. Thank you, Mr. Chair.
    I want to clarify to make sure I heard correctly some of 
the comments that were made by members of the panel.
    My first question is to Ms. Morris. You talked about the 
importance, under H.R. 4532, of tribal management and that this 
would allow for tribal management. Are you saying that the 
tribal leadership coming from the Inter-Tribal Coalition will 
choose who those members are, or will it be another example of 
what took place in the 1800s, that the U.S. Government will 
choose what Indians should be on that management? Who is going 
to choose the management?
    Ms. Morris. From my knowledge, it is going to be the 
people. They are the ones that are going to choose those 
individuals that sit on that committee.
    Mr. Lowenthal. Thank you. But I think you should read the 
bill. It is not the people who will make that choice. Maybe you 
can clarify that.
    Mr. Chapoose, who will choose the tribal management?
    Mr. Chapoose. Actually, in the bill itself it is up to the 
President to select the representation of the sovereign tribal 
governments. And it also is up to some of the local people to 
make the same decision.
    And I need to stress this--we need to go back to the simple 
fact. We are federally recognized tribal governments. Under 
law, we have the voice and the authority to represent our 
perspective nations. But in this bill, it diminishes that.
    I think there was a part, I think it was Section 3, as a 
matter of fact, that talks about there are two particular 
areas, the Shash Jaa and the Indian Creek. In one, more or 
less, the President once again will pick who represents us, the 
sovereign nations. And I think we are allowed a few seats.
    In the other one, it even goes beyond that and diminishes 
that and gives us one. So, I think the bill is ladened with 
language that basically undermines the government-to-government 
relationship that does exist with us, the federally recognized 
tribes, and it also undermines our self-determination.
    Mr. Lowenthal. Thank you.
    I also want to ask you, Mr. Chapoose, to clarify the 
statement, when Mr. Anderson talked, in a very eloquent way, 
about Grandma Betty and being concerned about President Obama's 
proclamation of Bears Ears as a national monument that 
traditional Native cultural uses would not be recognized such 
as collection of medicines, berries, firewood, and other 
vegetation. Is that true that that was limited by President 
Obama?
    Mr. Chapoose. No. Actually, part of what we have put forth 
as a coalition enhanced not just the cultural aspect as far as 
gathering but the learning capabilities of the Native American 
tribes to develop and to better educate.
    It is interesting that in the comments we talk about third 
generations. My tribe, even though we are not there right now, 
and everybody acts as if just the occupants at this time have a 
claim. We need to be very cautious about that.
    Part of the Antiquities Act talks about historical and 
scientific evidence. It is evident that there were numerous 
tribes before my tribe, before the Hopi, the Pueblo, and the 
Zuni who have been in the region. And it is a known fact that 
their remnants, their artifacts, their petroglyphs are there.
    So, to basically make it sound like we are going to do 
everything that the first bill did, there again, it is them 
interpreting our intentions as tribal leaders. People need to 
remember, we were the sovereign tribes representing our 
interest in the original proclamation.
    It came from us directly. It didn't come from my neighbor. 
It didn't come from somebody who thinks they know what I want. 
It came from us, the tribal leaders.
    Mr. Lowenthal. Thank you.
    I want to follow up on this, Mr. Chapoose, that the 
monument review carried out by Secretary Zinke that was 
ultimately used to justify President Trump's elimination of 
Bears Ears National Monument, claimed that a lot of the land 
included in the original monument is not of scientific, 
historic, or cultural interest.
    That is why we are being asked today to support a bill that 
only has 15 percent of the land from the original designation. 
Can you speak to the cultural significance of the 85 percent 
that we have left out?
    Mr. Chapoose. In the photos, which were flashed earlier, 
they were actually outside of the new monument. They are 
petroglyphs. They are greeneries.
    Mr. Lowenthal. It was outside?
    Mr. Chapoose. Yes. They are actual reflections of what will 
not be protected. I am not a rocket scientist, but that pretty 
well shows me that it is under the criteria of the Antiquities 
Act antiquities. There was a comprehensive study done when the 
monument was declared the first time by the Utah Dine Bikeyah 
plus a bunch of other groups, and that information was brought 
forward to the President at the time and to people of Congress.
    So, the valuation that was done most recently with 
Secretary Zinke was, I show up, I fly down, let's have a PR 
moment, go look at some of the more popular locations and call 
it a day. Yet, the Utah Dine Bikeyah and the tribal leaders 
requested for him to actually have grounds-on opportunities 
with us, the tribal leaders.
    Mr. Lowenthal. Thank you. I yield back, Mr. Chair.
    Mr. McClintock. Thank you. I will start my 5 minutes and 
begin with Governor Herbert.
    Governor Herbert, I read the provisions of the Antiquities 
Act that the Obama administration used to impose these 
restrictions on 1.3 million acres of the land in Utah. It is 
supposed to be confined to the smallest area compatible with 
proper care and management of the objects to be protected. Do 
you think that that Executive Order comported with the 
requirements of the law?
    Governor Herbert. No, I don't. In fact, the magnitude of 
the monument is stunning. As you have mentioned already, it is 
bigger than the state of Delaware. If you take our two 
monuments that have been created, the Grand Staircase-Escalante 
along with the Bears Ears, it is the same size.
    And if you look on a map of Utah, of all of Utah County, 
all of Salt Lake County, all of Weber County, and all of Davis 
County, where over 80 percent of the people of Utah live, the 
magnitude is stunning it is so large.
    Mr. McClintock. I wonder if we imposed that kind of 
restriction on Los Angeles County what we would be hearing from 
the acting Ranking Member?
    But let me go on. Did the Obama Executive Order have the 
support of the government of Utah?
    Governor Herbert. It did not.
    Mr. McClintock. Did it have the support of the local 
government?
    Governor Herbert. No.
    Mr. McClintock. The Ranking Member suggested that the state 
was fully consulted in the designation of this region, and it 
is a region as a national monument. Is that true?
    Governor Herbert. There is discussion and dialogue that 
went on. I have worked with Secretary Sally Jewell, in fact, 
and had some discussions on this. She did come and visit Utah, 
which I appreciated. We had no idea as far as what the size and 
what the result was going to be, and certainly they did not 
tell us in advance of what that was going to be.
    And let me make one point that I think is salient. What 
they did say is this should be done legislatively. The Obama 
administration agrees with what we agree with. It should be 
done legislatively. Rather than just a stroke of a pen and 
somebody's arbitrary decision making, it should be done like we 
are trying to do here today.
    Mr. McClintock. Which is what the Constitution requires, 
and as you point out, why we are here today.
    Were any concerns expressed to the Obama administration 
prior to the announcement?
    Governor Herbert. We had a lot of discussion as far as 
let's see if we couldn't get the PLI through. Congressman 
Bishop made a significant effort, 18 million acres they are 
trying to resolve. We have had the public land dispute and 
sagebrush rebellions in the West for the last 100 years, under 
Democrat as well as Republican governors, so this is an ongoing 
issue.
    It wasn't able to get marked up. It wasn't able to come out 
for a vote. So, we ended up having a dictator approach of using 
the Antiquities Act, which I----
    Mr. McClintock. But, again, we have been told that you were 
fully consulted and basically brought in as a partner as this 
designation was being considered.
    Governor Herbert. No. I think Suzette mentioned that the 
feeling we have is it was done to us, not with us.
    Mr. McClintock. I see.
    Mr. Anderson, what restrictions are imposed on the public 
use of these lands because of the monument designation?
    Mr. Anderson. Well, Utah has a long and storied history of 
national monuments. And I would like to respond to a comment 
about wood cutting being guaranteed.
    In President Clinton's designation of the Grand Staircase-
Escalante, as I mentioned, there was a promise that grazing 
would remain at historical levels. So, it was in the 
proclamation just as herb gathering and wood cutting were in 
Obama's declaration.
    However, grazing has declined, and we have seen a history 
of broken promises when it comes to national monuments. Even if 
it is in a presidential proclamation, it does not guarantee 
access for the people of Utah. Congressional action is what is 
needed to secure the future of the people of Utah.
    Mr. McClintock. Thank you.
    Ms. Morris, what harm comes to the local community due to 
the designation of 1.3 million acres as an archeological site?
    Ms. Morris. There is no harm there. I know there are a lot 
of archeological sites, but like the other side says, there is 
a lot of looting. They don't live in the area. They are not 
there every day. They don't know everything.
    Mr. McClintock. Well, you do live in the area.
    Ms. Morris. Yes, I live in the area.
    Mr. McClintock. It is quite clear that the local people are 
opposed to the expansive designation and supportive of this 
measure. What I am trying to fathom is why? What harm did the 
President's Executive Order do that this bill corrects?
    Ms. Morris. Access. The access to the land. We would be 
denied access to the land, and, like I stated before, we 
wouldn't be able to cut the wood. We wouldn't be able to gather 
the medicinal herbs, and a lot of our activity. We live there, 
so we go out there every weekend.
    Mr. McClintock. Well, the proponents say you can. But as 
Mr. Anderson has pointed out, those are promises that have been 
broken time and again, and we have certainly heard that song 
before.
    Ms. Morris. Yes.
    Mr. McClintock. Thank you very much for your testimony. My 
time has expired, and we will next go to Mr. Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    Let me go back to a point. Ms. Morris, the implication in 
your testimony is that Native American people do not support 
Bears Ears National Monument. Am I correct that the sovereign 
tribal governments of the Ute Mountain Ute, along with the 
other four tribes of the Bears Ears Commission have all passed 
official resolutions of support for Bears Ears National 
Monument, Number one?
    And further, they have all filed legal suits challenging 
the elimination of 85 percent of the Bears Ears by President 
Trump last month. Is that correct?
    Ms. Morris. Yes, but with the Ute Mountain Ute Tribe, there 
was no justification on the people.
    Mr. Grijalva. OK. But the Stewards of San Juan County, when 
were they funded, and what is your group's tax status?
    Ms. Morris. It is the Stewards of San Juan County.
    Mr. Grijalva. Yes, but when were they founded? When did 
they start?
    Ms. Morris. Just last year.
    Mr. Grijalva. And your tax status is what?
    Ms. Morris. It is a non-profit.
    Mr. Grijalva. OK. The group's registered agent, Mr. Phil 
Lyman, who is, I think, also a county commissioner in San Juan, 
is the registered agent in the business database in Utah. And 
he is on record saying that Native Americans, ``lost the war 
and therefore have no right to comment on public land 
management decisions.'' Do you agree with that statement?
    Ms. Morris. I think what he is talking about are the 
outsiders, the tribes that live outside of the area. And, yes, 
they don't have----
    Mr. Grijalva. Are you an elected member, a representative 
of your people in any capacity?
    Ms. Morris. Just a community member.
    Mr. Grijalva. And you are authorized to speak on behalf of 
the Mountain Ute?
    Ms. Morris. I am speaking as a Ute Mountain Ute tribal 
member.
    Mr. Grijalva. But not for the government and their 
representatives?
    Ms. Morris. No. I didn't say I was talking for the Ute 
Mountain Tribe.
    Mr. Grijalva. Mr. Anderson, director of, I think, the 
Coalition for Self-Government in the West, part of the 
Sutherland Institute, can you tell me when Sutherland started 
working with the Stewards of San Juan and how money was raised 
for the ads that were run by Stewards against the monument?
    Mr. Anderson. Absolutely. I first met a number of people 
who started the Stewards of San Juan County in the summer of 
2016. All the money that was run for the ads by Stewards of San 
Juan County was raised from local funds, and it was paid for by 
locals. What happened with the Sutherland Institute, all we did 
was help in the production of the video, but all funds that 
were used to pay for the commercial were paid for by local 
people.
    Mr. Grijalva. And the Descendents of K'aayelii, does the 
Sutherland Institute provide funding to that group as well?
    Mr. Anderson. No, we do not provide any funding, and we do 
not provide any funding to the Stewards of San Juan County.
    Mr. Grijalva. But you did send out a press release 
announcing their website in 2016?
    Mr. Anderson. Which was our website that we created. They 
have their own separate website which they funded and created.
    Mr. Grijalva. And this descendant group is pursuing 
recognition of its own tribe separate from the Navajo Nation. 
Does Sutherland support their effort?
    Mr. Anderson. We believe that locals should have a voice in 
all decisions. We haven't engaged in that issue.
    Mr. Grijalva. Where does the Sutherland Institute get the 
bulk of its funding? How much money did you get from the 
DonorsTrust and Donors Capital Fund to provide what was 
provided to Sutherland in 2016 and 2017?
    Mr. Anderson. The vast majority of our funding comes from 
our founding family in Utah. Most of our money comes from the 
state of Utah, and we are in compliance with all 501(c)(3) 
funding.
    Mr. Grijalva. I know. But DonorsTrust gave $225,000 to 
Sutherland in 2016. The most recent ones are still not 
available. That is a Koch Brothers funding network, the dark 
ATM as it has been categorized. So, do you feel that that 
legitimizes your independence as the institute and working with 
these organizations because the Koch Brothers are now paying 
essentially organizations to interfere in the internal politics 
of a sovereign nation, the Navajo Nation in this case.
    Mr. Anderson. Sutherland Institute became engaged in this 
issue because we saw local voices being drowned out by 
environmental and corporate interests. Their voices were not 
being heard. That is why we got involved. I spent time getting 
to know these people. I spent time in their homes and in their 
schools.
    Mr. Grijalva. Thank you very much. My point is that this is 
not a simple case of legislation. There are a lot of 
motivations, a lot of things behind it, a lot of interest 
behind it.
    Mr. McClintock. The gentleman's time has expired.
    Mr. Thompson.
    Mr. Thompson. Thank you, Chairman. Thank you to all the 
members of the panel for being here. I certainly don't want to 
criticize you for exercising initiative as citizens, for 
exercising that part of the Constitution of bringing your 
petitions to Congress. I appreciate that you are doing that. 
And, Ms. Morris, in particular, the last minute sacrifice, your 
stepping in, is much appreciated. Ms. Morris, we have heard 
testimony here today about tribes not having enough input into 
this process. I am curious, whose idea was it to seek a 
national monument in San Juan County? Was it a Ute Mountain Ute 
or a member of one of the local tribes or perhaps another San 
Juan County resident?
    Ms. Morris. I think it was the environmentalists. None of 
the Tribal Council, Ute Mountain Ute, Navajo Nation, they never 
made a statement on why they wanted the monument. I think the 
only ones that have been speaking about the importance of the 
monument are special interest groups. And my opinion is, how 
would special interest groups know how to protect the land when 
we have Native Americans that are taught their traditions, that 
are taught their culture and to be respectful, like they say 
they want to protect this archeological site, but we are taught 
not to go into that area. Somewhere it is all about greed; it 
is all about money, getting money and using Native American 
culture, using Native American history to promote this 
monument. And it was not our own council. For me, I speak for 
Ute Mountain in saying we never had a community meeting to say 
why they wanted the monument.
    Mr. Thompson. And you have actually personally addressed my 
next question for you. Leading up to the designation by the 
Obama administration, were local Native tribes consulted?
    Ms. Morris. No.
    Mr. Thompson. How about the tribal co-management that was 
promised by the Obama administration? Was true co-management 
ever achieved?
    Ms. Morris. No. I think a true co-management would include 
the locals. And this management that they talk about is all 
outsiders, outsiders that don't know the land. But I think with 
H.R. 4532, we are going to have that voice. We are going to be 
able to voice what we want, how we want to protect the land.
    Mr. Thompson. Thank you.
    Governor, I particularly enjoy Thomas Jefferson's quote 
outlining the importance of government that is closest to the 
people. And having a national forest in my congressional 
district, I see when outsiders have their input considered more 
heavily, more important than the people that live within that 
area. So, the use of management councils would certainly 
increase the presence and influence of local authorities. Can 
you describe how these councils will be built and what their 
role will entail? And how will this help the local communities?
    Governor Herbert. I think all of us recognize that those 
who live right next to it have a better understanding, probably 
a better appreciation for what is the best practices for the 
land in question. Again, it is not just a matter of outsiders; 
it is really a matter of a collaborative effort. And these 
councils are designed to make sure that we have representation 
from the Federal Government, from the local community and the 
counties, and the local tribes. And rather than just have a 
suggestion box out there, if we really care about protecting 
the antiquities and the archeological artifacts, if we really 
care about giving the Native Americans co-management 
responsibility, it has to be done legislatively. These councils 
are a step in the right direction. Again, you can decide and 
debate, which is the purpose of having a legislative approach 
here, to get to the right outcome. But, clearly, having local 
input ought to be considered and listened to, and really have a 
better input rather than somebody from so far outside that just 
comes in and feels like we are doing it to the people rather 
than with the people.
    Mr. Thompson. That is certainly a theme I have heard 
repeated a number of times and makes a lot of sense to me, that 
we need to do with and not for.
    Chairman, I yield back the balance of my time.
    Mr. McClintock. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. I thank the panel for 
taking the time to be able to be here today. I found it 
interesting, Mr. Anderson, when you were talking about, and we 
have had several comments in regards to education. The per-
pupil costs in San Juan County are higher than they are 
elsewhere in Utah. And taking some of those trust lands out is 
actually impacting the ability to be able to provide that 
educational support. Can you maybe expound on that and perhaps 
how this legislation might be able to help make sure that we do 
have funding for the children and for schools?
    Mr. Anderson. I would be happy to. In the state of Utah, 
about 67 percent of our state is owned and managed by the 
Federal Government. As such, our state cannot tax 67 percent of 
the land within our state. That puts our children at a real 
educational disadvantage. Sure, we have programs like receipt 
sharing and PILT payments, but especially with PILT payments, 
our counties don't know how much they are going to receive 
every year in funding. The formula changes consistently. With 
this bill, we are going to see our state trust lands be able to 
transfer out of areas that already don't really have any 
mineral resources. There is no oil or gas in the area. To quote 
the Grand Canyon Trust: drilling has yielded little more than 
dry holes in the Bears Ears region for so long. And what it is 
going to do is allow us to find mineral-rich areas in other 
parts of the state, hopefully within the county to keep the 
resources there and the jobs there. I spoke with the State 
Trust Land Administration, and they hope to keep the jobs 
there. But there are other places within our state that hold 
vast amounts of mineral resources that can go directly to 
funding the students of the state of Utah and specifically the 
people of San Juan County.
    Mr. Tipton. Thank you for that.
    Governor, thank you. I appreciate the opportunity to be 
able to visit with you. I think that you are focusing in on 
something that I believe is really critically important to be 
able to address the multitude of issues which may come up in 
the course of any type of designation, and that is being able 
to have that legislative process to be able to go through. As 
you have expanded visitation, there may be costs with the new 
parking lot. If we don't have that discussion in advance, we 
aren't going to be prepared for it. Can you maybe expound a 
little more in terms of why we should be looking at the 
legislative process? I don't know of anyone, Republican or 
Democrat, who is opposed to making designations. We value those 
public lands. But why is it important to go through that 
legislative process?
    Governor Herbert. Well, as you know, you can compare 
legislation by initiative petition, where you have no ability 
to modify and improve, or the legislative process that you 
have, where you can have debates, you can have amendments, you 
can make decisions and discussion, and improvement occurs over 
the legislative process. The public lands issue is a complex 
issue. And most of the states of America don't have the issue 
in their backyards. It is us in the Near Mountain West and kind 
of west of the Rockies that have this issue. I appreciate the 
complexity. We have division in the ranks. We have Native 
Americans on one side and Native Americans on the other side. 
The people of Utah are divided. It requires a legislative 
action, where we can in fact debate these issues, have 
discussion, and find out what is the optimal place to be to 
protect the artifacts? The monument is not going to be any 
silver bullet to protect them. In fact, some people think that 
the monument will attract people to come and increase looting. 
If we don't have more law enforcement and education of people 
that appreciate these wonderful things that we have out there 
in our public lands, we are going to continue to have looting 
and lose some of these artifacts as we attract people to come 
there. If we really believe that these are sacred lands for the 
Native Americans, we absolutely should give them some co-
management capabilities to preserve and protect what they think 
is sacred. We have Native Americans say, ``Well, we want to 
have a monument for tourism and travel. We want to increase the 
economic opportunity.'' Other Native Americans say, ``No, these 
are sacred lands, we don't want to have people come and trample 
on our sacred lands.''
    They are not compatible. That is why the legislative 
process. And President Obama and Secretary Jewell all agreed 
this should be done legislatively. You can argue all the 
history of why we don't have it done legislatively, but we have 
an opportunity to do it right now. And it is this Committee and 
others of your body that need to take up the cudgel and say, 
``Let's see if we can't do this right.'' And it can be done 
right by doing it legislatively.
    Mr. Tipton. I appreciate that. And just so that we have 
some clarity, listening to some of the comments that we have 
had on the panel, is it against the law right now to go in and 
destroy petroglyphs on these public lands, with or without 
designation, it is still against the law, isn't it?
    Governor Herbert. It is. We mentioned earlier the different 
protections that are there. This is BLM land. They can, in 
fact, enhance protections at their own volition without any 
additional help from Congress. These lands are protected, will 
be protected, and can be enhanced by the BLM alone.
    Mr. Tipton. Thank you. I am out of time, Mr. Chairman. I 
yield back.
    Mr. McClintock. Thank you.
    General Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    And thanks to all of you for your testimony today. As I 
listen, where I am from in northern Michigan, we really don't 
like people coming in and telling us how to do our business. We 
manage our lands, we manage our lifestyles, and while we are 
always interested in others' opinions, if you don't live in the 
middle of it and you are not interested in conserving what you 
have for the long haul--and as our tribes in our district will 
tell you, we work together--but ultimately, we want the say, 
and we want it individually. Ms. Morris, can you describe to 
me, to the panel here, as an individual, the importance of 
Shash Jaa to you and to the Ute Mountain Utes?
    Ms. Morris. I speak for White Mesa because I live in the 
community, but it is important to us to be able to have that 
access because we have always had the access. It has been there 
for hundreds of years, all these ruins, the archeological 
sites. And it was just out of the blue that they wanted to make 
it a monument. It has been protected. We have had no problems 
in the past, maybe one or two incidents that occurred. But with 
the designation of the monument, it has increased people, and 
it is going to increase more vandalism and more looting. And 
their respect for the land is not there because we, as San Juan 
County residents, we respect the land. We know how to take care 
of the land. We have been taught that. As a Native American, we 
are taught to have that respect for the land. You give to the 
land. You don't take from the land, or you don't get rich off 
the land, and the land will take care of you.
    Mr. Bergman. And I want to just reiterate what I thought 
you said earlier, that with the passage of H.R. 4532, tribes 
will still be allowed to use Shash Jaa for hunting, wood 
cutting, gathering medicinal herbs, and for sacred ceremonies. 
Am I correct?
    Ms. Morris. Yes.
    Mr. Bergman. OK. Thank you.
    Governor Herbert, under this bill do you believe that the 
public will have just as much access to the land in question? 
Just as much?
    Governor Herbert. Yes. And, again, there is not a lot of 
change that is occurring. The national monument was really not 
necessary, certainly at that magnitude. The BLM already is 
restricting access to some of the artifacts and some of the 
ancient ruins that are there on the property. And that is what 
you want to do is to restrict traffic. If you really care about 
preservation, the archeologists are telling us it is traffic, 
it is people going there that is causing the problems. The BLM 
has always had that ability to restrict, and they in fact do 
that. We have resource management plans where we spent 7, 8 
years working with all the stakeholders as far as what we can 
do on these public lands.
    Mr. Bergman. Do you think that there would be limitations 
put in place by this bill that weren't in place before?
    Governor Herbert. Not that I am aware of.
    Mr. Bergman. I have kind of noticed a pattern in the 
testimony here today, and that is we all want and we have a 
need for certainty and clarity, something that is currently 
missing in the Bears Ears National Monument designation. Does 
this bill, H.R. 4532, bring the certainty and clarity that you 
state? Is that so?
    Governor Herbert. That is true. That is what legislation 
does. Let me just make one clarification. The limitation that 
is put on in this bill of Congressman Curtis puts to rest any 
idea that somehow this is being done to access energy. We have 
people out there distorting the facts, misrepresenting the 
truth, saying this is about oil and gas. That is not true. 
There is really no oil and gas there in the monument itself. 
But this is being codified now that there is going to be no 
mining, no oil or gas accessibility inside the original Bears 
Ears Monument. So, that is a restriction that is enhanced by 
this bill.
    Mr. Bergman. Thank you.
    Mr. Chairman, I yield back.
    Mr. McClintock. Mr. Gianforte.
    Mr. Gianforte. Thank you, Mr. Chairman.
    Thank you to the Committee for your testimony today. I want 
to start with Mr. Anderson, if I could. Many of the proponents 
of the original Bears Ears National Monument would like us to 
believe that it was really a grassroots effort that drove that 
initiative, led by local voices. Can you explain to the 
Committee why you testified today that that is not true? And, 
further, can you talk to us about the impact and influence big 
money environmentalists had in pushing the original 
designation?
    Mr. Anderson. I would be happy to. The idea for the Bears 
Ears National Monument actually began in 2014 with a group of 
environmentalists who met in San Francisco. This was undercover 
reporting that was done by the Deseret News, which is our local 
newspaper in Salt Lake City. They said in their meeting minutes 
that, ``In order to get this Bears Ears National Monument 
through, we are going to have to get tribes on board.''
    And I have seen that firsthand. I remember going down and 
seeing when Secretary Sally Jewell visited and seeing eight 
busloads worth of people bussed in to try to drown out local 
voices--they were all wearing blue shirts and during the 
hearing, they were not required to say where they were from. 
And locals, like Suzette, were looking around saying, ``Who are 
these people? We have never seen these people before.''
    They have really done a good job of drowning out these 
voices. They have a lot of money, and they have a lot of power, 
and the people of San Juan County do not. They are the poorest 
county in the entire state, among the poorest in the country. 
They don't have the money to push back against the false 
narratives put out by corporate interests and environmental 
groups.
    Mr. Gianforte. Is it fair to say that the bill we are 
discussing today is a much better reflection of the local 
voices?
    Mr. Anderson. Absolutely. Not just now, but moving forward.
    Mr. Gianforte. OK. Great.
    Ms. Morris, thank you for being here on short notice. I 
understand the difficulty in leaving a family behind and 
traveling to a place you have never been. So, thank you.
    I want to ask you about tribal management of this national 
monument. This is going to create a new precedent for us, and I 
am curious first to talk to you about the impact. We have heard 
testimony today that in other monument designations, the 
ability to collect firewood, the ability to collect medicinal 
herbs has been constrained or restricted. If those things 
happened in Bears Ears National Monument, what would that mean 
to your family? Can you talk about the impact on your culture 
and your people if that access was removed?
    Ms. Morris. With the access being removed, it would create 
a lot of animosity because we are used to going up there. We 
are used to going on the dirt roads. Certain areas have the 
sage or the cedar and we have to travel. If there was limited 
access, it would create a lot of not being able to do our 
traditional way of life, what we value, and our cultural, our 
ceremonies that we do, we wouldn't be able to do that. We would 
have to go out in other areas to pick that.
    Mr. Gianforte. OK. And under this bill, there would be 
representation from the local tribe. Can you talk a little bit 
about what co-management means to you? And if you or someone 
from your tribe was on that management, what would you be 
looking to preserve?
    Ms. Morris. Co-management to me is being able to hear the 
local voices, being able to hear the local tribes. Our tribes, 
they all differ. Our cultures, our traditions, they are all 
different, so if we can come together, work together. From the 
beginning, we were left out. All we want is to be able to have 
a seat at the table to express our importance, to express our 
values and our respect for the land, and not outside groups 
coming in and telling us how to take care of our land.
    Mr. Gianforte. OK. Thank you.
    Governor, again, thank you for being here. In your 
testimony, you talked about reform of the Antiquities Act. I 
want to draw on your experience as a county commissioner. In 
Montana, if I want to know what is going on, I always talk to a 
local county commissioner. What impacts have you seen locally 
from the Antiquities Act from a county commissioner perspective 
that have been difficult that caused you to make that comment 
about reform?
    Governor Herbert. As I mentioned, it is not the use of the 
Antiquities Act; it is the promise, the abuse of it. And 
presidents have done it on both sides of the aisle. They do it 
for political purposes. The most egregious example that I have 
seen in my history was the Grand Staircase-Escalante. You know, 
1.9 million acres that was designated when the president stood 
in Colorado, lied to our congressional delegation, including 
our Democrat Representative, Congressman Orton, at the time, 
and did it, not because he was trying to protect antiquities, 
but he wanted to make sure that nobody accessed the Kaiparowits 
Plateau coal. He did it as a favor for his environmental 
constituency. And even Democrats in Utah were upset and 
appalled about that action. That is an abuse of the Antiquities 
Act.
    Mr. Gianforte. Thank you.
    Chairman, I yield back.
    Mr. McClintock. Thank you.
    The Chair next recognizes the Chairman of the Natural 
Resources Committee, Congressman Rob Bishop, for 5 minutes.
    Mr. Bishop. Thank you. Before I ask my questions, I would 
like to ask unanimous consent to introduce a couple of articles 
into the record.
    The first one is an article that was written by Alfred Ben, 
who is from the Aneth Chapter, vice chairman there, about 
sizing up the national monuments and their opposition to it 
within the Aneth Chapter.
    Mr. McClintock. Without objection.

    [The information follows:]

Sizing them up:
Utah rep. not Trump or Obama, meets Navajo needs on Bears Ears

The Hill

By Alfred Ben, Opinion Contributor

December 26, 2017

Among land management issues in the American West, Bears Ears National 
Monument pushed to the forefront of public attention Native Americans's 
land issues. President Trump's downsizing of Bears Ears and Grand 
Staircase-Escalante National Monument in Utah forced out many opinions 
on why Bears Ears should or shouldn't be a monument. One thing we all 
can agree upon: the land should be preserved.

My ancestors have long-lasting ties to the area. I come from a great 
Navajo leader, named K'aayelii. As descendants of K'aayelii, we have a 
strong bond with the Bears Ears buttes. My ancestors lived on those 
lands when no other tribes were there. We take immense pride knowing 
our people never surrendered during the wars of the 1800s in which many 
members of our tribe were held prisoner in Fort Sumner, New Mexico.

When President Obama designated more than 1.3 million acres in San Juan 
County as Bears Ears National Monument in December 2016, my chapter of 
the Navajo Nation, Aneth Chapter, closest to Bears Ears, passed 
resolutions requesting that the president reverse his designation. Why 
do you think so many Utah Native voices were against the designation?

For one thing, there already are 11 wilderness areas protecting this 
area; therefore, a monument designation doesn't come with anything more 
than the paper it was written on. Second, the idea was sold to the 
public as though it was a ``celebrated,'' tribally-managed monument, 
with decision-making at the offices of each tribal chairman/president. 
The buck stops at each tribal leader? Not so.

All one needed to do was to view the Bears Ears National Monument 
proclamation on the Bureau of Land Management (BLM) website to see what 
a slap in the face its designation was to Native American tribes. The 
proclamation gave each tribe named a less-than-advisory role in the 
Bears Ears Commission. ``Tribal co-management,'' a term adamantly 
pushed often by special interest groups and environmentalists, was 
found nowhere in the original Bears Ears proclamation. Monument 
decisions always were going to remain in the hands of faceless BLM and 
U.S. Forest Service (USFS) officials.

The committee status of the Bears Ears Commission so far has not 
included much, if any, input from Native Americans. If it holds 
meetings they are held in secret, at unknown locations; the only 
meeting I was ever aware of was held off-site of any reservation, in 
Bluff, Utah, and controlled by non-elected special interest groups. To 
this day, none of my constituents can even find a meeting agenda. How 
are we supposed to have confidence in that process?

President Trump has reduced the size of the original monument 
boundaries to 201,876 acres and designated two smaller monuments, Shash 
Jaa National Monument and Indian Creek National Monument. Within the 
original Bears Ears Monument boundaries lies the reason the Forest 
Service was a main player in its management: the Manti-La Sal National 
Forest. These 1.2 million acres of forested land cover six Utah 
counties, but mostly San Juan County.

The U.S. Department of Agriculture website for the Manti-La Sal forest 
leaves blank advisory roles and tribal relations. The website makes no 
mention of the Aneth, Oljato, Red Mesa, and Navajo Mountain chapters. 
Utah Navajo and Ute tribal members who actually use the Bears Ears 
lands were extremely displeased with the lack of interest from our own 
tribal governments.

Am I pleased that the Bears Ears Monument's boundaries were reduced? 
Somewhat. Am I pleased there are two efficiently sized national 
monuments where before there was only one? I can live with that. But 
it's not enough.

What my Navajos would like to see are lasting protections for the area. 
Obviously, presidential proclamations to designate monuments could be 
modified back and forth until the end of time. The answer, then, lies 
with Congress, which can pass laws that withstand the test of time and 
presidents.

Our newest Rep. John Curtis (R-Utah), elected last month, has Navajo 
concerns on his mind. We are honored that his first official act as a 
congressman was to introduce H.R. 4532, the Shash Jaa National Monument 
and Indian Creek National Monument Act, to create a truly Native 
American management body with which the public can be involved. As a 
duly elected official, chosen by the people, I stand with my Utah 
congressman's legislation.

                                 ______
                                 

    Mr. Bishop. I would also like to ask to introduce one that 
is written by Darren Parry, the vice chairman of the 
Northwestern Band of Shoshone Nation, up where I happen to 
live, called the ``Great American lie that all tribes are for 
Bears Ears National Monument.''
    Mr. McClintock. Without objection.

    [The information follows:]

``Great American lie that all tribes are for Bears Ears NM''

By Darren Parry

Vice Chairman, Northwestern Band of the Shoshone Nation

For thousands of years, our tribal elders would sit down with our young 
children and tell them stories about our people. The stories were 
always the same, never a word out of place. Our children were taught 
life lessons that would help them transition to adulthood. Things have 
changed.

No longer do we teach our children the old ways. Social media does that 
now. No longer does our youth listen to and respect our elders. No 
longer does our youth learn the sacred art of compromise, where the 
thoughts and ideas of all groups are valuable and that all ideas should 
be heard and respected.

Instead, our politicians have taught them that it is only important to 
win at all costs.

This brings me to Bears Ears National Monument. It saddens my heart to 
see the all or nothing attitudes from everyone involved. The BENM 
movement has been in the works for a long time. This was discussed long 
ago by Conservation groups that wanted to protect the lands that we 
know and love.

They were hesitant at first to get tribes involved, according to their 
minutes. After all, working with a variety of tribal sovereign 
governments can be tricky. When their lobbying efforts in Washington, 
DC stalled, a strategic decision was made to include the Navajo Nation, 
but not without concerns.

This was a brilliant move on their part. For President Obama to support 
a National Monument, the local tribes needed to be involved. Tribal 
governments with the help of conservation groups came together and 
started the Inter-tribal Coalition.

Since the tribes have gotten involved, they have been at the forefront 
of this movement. But this was never their idea.

The conservationists have done a wonderful job of pushing the tribal 
nations to the front to speak for their cause. The fact that the 
President of the Navajo Nation had not heard of or could even tell you 
where Bears Ears was located speaks volumes.

This land in San Juan County is sacred to our native people. There is 
no question that those sacred Native sites need protection. What most 
people don't understand is that the Native American cultural sites 
within the monument were already protected under federal law.

Inviting the world to visit these pristine areas does not protect them 
any better, but it will exploit them. Increasing popularity does not 
increase protection.

This land has been used by my native brothers and sisters to gather 
wood, pick plants that have healing and ceremonial purposes and enrich 
their lives. This land at times has served as a burial ground and a 
place to live.

This land has also been used by many local residents of San Juan 
County, who are good people who work hard every day to make a living. 
If you go there today, it is a beautiful and peaceful place. It has 
been taken care of by all of us for the last 100 years, and we will 
continue to do so.

Back in June of 2016, there was a councilman representing the 
Northwestern Band of Shoshone who officially signed the Support for 
Presidential Designation of the Bears Ears National Monument to Protect 
Cultural, Historical & Natural Resources on Federal Lands in San Juan 
County, UT under the Utah Tribal Leaders Association.

When the Northwestern Band of the Shoshone Nation signed a resolution 
supporting our tribal brothers and sisters, we did so because we are 
family. We will always have unconditional love and support for each 
other like families do.

However, the councilman did not have the blessing of the tribal 
Council, nor did he speak on behalf of the Council. It has been 
increasingly difficult to continue to support Bears Ears NM because all 
sides, interests, and views are not being represented or heard.

The NW Band of Shoshone does not support the Bears Ears National 
Monument. I disagree with environmental group's decision to utilize the 
tribes inside the Inter-tribal Coalition.

This monument was inducted and accomplished without official 
consultation and significant participation of the NW Band of Shoshone. 
We believe this takes away the rights and freedoms of many to express 
their beliefs and views.

This designation is not in the best interests and welfare of not only 
Shoshone people, but of all Utahan's who love the land of their 
heritage.

There is an old saying among my people that says, ``What if I told you 
that the left wing and the right wing all belong to the same bird.''

It is my hope as a tribal leader, as a citizen of the most beautiful 
state on earth, and as a steward of all things given to us by the Great 
Spirit, that we can all come together and sit down as a group and make 
a decision that is in the best interest of everyone.

I am currently working with other tribal leaders to help educate them 
to the real issues that are involved. This is not a good deal for 
tribes. They need to understand this. The great American lie is that 
all tribes are for the Bears Ears National Monument. They are not!

                                 ______
                                 

    Mr. Bishop. Let me just say one quote from what he said, 
``The Bears Ears National Monument movement has been in the 
works for a long time. This was discussed long ago by 
conservation groups that wanted to protect the lands that we 
know and love. They were hesitant at first to get tribes 
involved, according to their minutes. After all, working with a 
variety of tribal sovereign governments can be tricky . . . 
This land in San Juan County is sacred to our Native people. 
There is no question that those sacred Native sites need 
protection. What most people don't understand is that the 
Native American cultural sites within the monument were already 
protected under Federal law. Inviting the world to visit these 
pristine areas does not protect them any better, but it will 
exploit them.''
    The third is what was recently mentioned by Matt, the 
article by Amy Joi O'Donoghue from the Deseret News called 
``Big money, environmentalists and the Bears Ears story.'' I 
would like that actually admitted into the record.
    Mr. McClintock. Without objection.
    Mr. Bishop. If I can just say a couple of things from that 
article. In October 2014, a group of people sat around a table 
and discussed their campaign to bring a monument designation to 
southeast Utah for the region they called Bears Ears. This 
wasn't a group of Native American tribal leaders from the Four 
Corners, but board members from an increasingly successful 
conservation organization who met in San Francisco to discuss, 
among other things, if it was wise to ``hitch our success to 
the Navajos.'' Many Utah Navajo are against the monument 
designation for Bears Ears, but the out-of-state tribal leaders 
behind Bears Ears Inter-Tribal Coalition who support it insist 
their effort is one that is locally driven, locally supported, 
and grassroots in nature. But the campaign is fueled in part by 
$20 million in donations from two key philanthropic foundations 
headquartered in California that cite environmental protections 
as their key focus.
    Then it also quotes Byron Clarke, who at the time was the 
vice president from the Navajo Blue Mountain Dine, who at the 
end of it simply said, of those coming in to talk about this 
area, he doesn't believe tribal officials who support a 
monument designation could name the landmarks at Bears Ears or 
know if wood gathering is good at places like Babylon Flat, 
Duck Lake, Little Dry Mesa, or Sweet Alice Springs. ``I'd be 
met with blank faces.'' This is quoting Mr. Clarke, ``The 
people who came here from a distance and will return to a 
distance had to GPS the Bears Ears to get there. I've never had 
to use GPS out there. Their idea of protection is to 
essentially make it famous. How does making it famous and 
putting it on the map for careless visitors protect it?''
    And, finally, because one of the testimonies that was 
given--Shaun, I am glad you are here, I didn't realize your 
name is now Chapoose, but we will deal with that--criticized 
the legality of it. I would also like to introduce for the 
record a report from the American Enterprise Institute 
entitled, ``Presidential Authority to Revoke or Reduce National 
Monument Designations,'' which it says it is actually a 
legitimate part there.
    Mr. McClintock. Without objection.
    Mr. Bishop. When we had to do the PROMESA board, we had to 
go through a lot of contortions to have presidential 
designations for those board members.
    Governor Herbert, I think it is interesting to note that 
Governor Leavitt was here when we talked last time about the 
Grand Staircase-Escalante. He was governor at the time that was 
done. You are here with us this time to talk about Bears Ears 
because you were governor at the time. This is a big deal for 
Utah, and I appreciate you, as well as former Governor Leavitt, 
actually being here to illustrate that. The lands we are 
talking about here will be designated by the President because 
they are public lands, aren't they, not reservation lands?
    Governor Herbert. They are off reservation lands. They are 
public lands, again owned by all of America, and certainly next 
door to our local people there. That is why this should be a 
joint discussion as far as how we manage them.
    Mr. Bishop. I am going to try to do this very quickly. When 
we talk about motorized access for wood gathering, how 
significant it is, the Obama proclamation was silent as for 
proposing or abandoning it. The Inter-Tribal Council, Mr. 
Chapoose, simply said you wanted to enhance that. But in the 
testimony that was given, you criticized this bill for actually 
emphasizing that.
    You have 19 seconds, Suzette. Why is it so important that 
you have that protection, which is only done in Curtis' bill 
and not in the proclamation?
    Ms. Morris. Because, like I stated before, not all of the 
medicinal medicine is just right there in the area. We have to 
take the dirt roads to find the plants that we are looking for.
    Mr. Bishop. Under 10 seconds. Under the Obama proclamation, 
even if the Inter-Tribal Council wanted to enhance it, they did 
not have the authority or power to do it. Under Curtis' bill, 
they would have the authority or power to guarantee it would be 
there, and that is why it is stated in the first place.
    Mr. McClintock. The gentleman's time has expired. We will 
do a second round. I will begin and yield my 5 minutes to the 
Chairman.
    Mr. Bishop. All right. Let's go through this here.
    Suzette, if I can come to you, there is the Northern Band 
of the Utes, your band of the Utes, and the Ute Mountain Band 
of the Utes. Your band actually formally endorsed Bears Ears, 
but was there ever a question asked to the membership of your 
band? Was it actually put to a vote or a public discussion by 
them?
    Ms. Morris. The band that you are talking about is the 
Posey Band. They have no affiliation with the Ute Mountain. The 
Posey Band was the one that was given the allotments. There 
were 30, it was my direct ancestor that was given that land. 
But it was not Ute Mountain at the time.
    Mr. Bishop. Can you tell what happened when they were 
trying to take petitions down to Monument Valley?
    Ms. Morris. Yes. We went to a meeting in Monument Valley 
where local Monument residents were there, and they were 
signing papers, signing petitions--it was a petition for the 
monument. But Navajo elders were denied translation. They 
didn't understand what they were signing. And they were given 
T-shirts in return for that. But they asked for translation and 
were denied by fluent Navajo people.
    Mr. Bishop. OK. Thank you. I appreciate it.
    Shaun, quick question. You showed us two exhibits outside 
the boundaries of this new national monument. Do you know where 
the first and third of them actually are?
    Mr. Chapoose. Actually, the first one is that granary one, 
right, a little draw. You want to flip them real quick. But the 
one that is ironic is there is a cradle board, which is a Ute--
--
    Mr. Bishop. Do you know where they are?
    Mr. Chapoose. Yes.
    Mr. Bishop. Where are they?
    Mr. Chapoose. In the Bears Ears region.
    Mr. Bishop. Where?
    Mr. Chapoose. Well, let me get out my little map for you, 
Congressman.
    Mr. Bishop. OK. Do you know where Fish Creek actually is?
    Mr. Chapoose. Yes, I have actually been there. I have been 
there recently.
    Mr. Bishop. Do you know what those land designations are 
right now?
    Mr. Chapoose. Yes.
    Mr. Bishop. What are they?
    Mr. Chapoose. They were a monument first. They have been 
rescinded, and now they are unprotected.
    Mr. Bishop. No. Wrong again. Both of those, all of those 
pictures that you put up there are already in wilderness study 
areas, which has greater protection than a monument would give 
to them.
    However, Mr. Curtis, let me ask you, would you be willing 
to talk about expansion of some of these other particular 
areas, or would you also be willing to talk about expanding who 
gets to have some input in the selection process?
    Mr. Curtis. Absolutely. We have heard today a number of 
positive comments about the legislative process. And one of the 
points of the legislative process is that legislation gets 
better as it goes through the process. Absolutely.
    Mr. Bishop. One of the things I would like to also 
illustrate is we were criticized in written testimony of having 
no input or being allowed no process with it. What you see up 
there is the picture from the bulletin out there with the Ute 
Reservation. When I traveled out there to meet with the 
business council, Shaun, you weren't there that day, but I met 
with the others. The one other one is Representative Chaffetz, 
who was down meeting with President Begaye. We did have those 
kinds of conversations.
    I would also like to introduce for the record three 
letters.
    The first one took place on November 2, 2016, in which our 
staffs met with this Inter-Tribal Council as it was constituted 
at the time and at which time Bill Hedden from the Grand Canyon 
Trust said White House staff are convinced that the 
proclamation itself cannot establish full collaborative 
management and that they are thinking they might not do it 
because it would disappoint or anger the tribes. That is why 
what Mr. Curtis is doing is so significant.
    But that was on November 2. On November 18, the delegation 
from Utah then sent a letter to them asking a request for draft 
legislative language that would implement an equitable co-
management system for the Bears Ears region.
    Also, a letter from November 30 in which the response from 
the Bears Ears Inter-Tribal Coalition on their stationery said 
the Coalition is not prepared to provide additional draft 
language, nor would they in the future, although they said they 
were happy that we were actually talking to them.

    [The information follows:]

                     Congress of the United States

                          Washington, DC 20515

                                                   November 2, 2016

    Dear esteemed leaders of the Bears Ears Coalition:

    We are committed to finding solutions to the various land 
designation and management challenges facing the Bears Ears region of 
San Juan County, Utah. Working together with tribal leaders, local 
officials, and other land-user groups, we believe that a proposal can 
be crafted that adequately designates the Bears Ears for conservation, 
recreation, and tribal uses.
    We would also like to work with tribal leaders on a co-management 
proposal. It is widely known that co-management cannot be achieved 
through an Antiquities Act designation. Only the congressional process 
can craft a meaningful co-management plan in which the tribes are made 
equal to other participants.
    I f a national monument were to be designated at the Bears Ears, 
co-management would not be part of the proclamation. In an October 2016 
memo, Bill Hedden, Executive Director of the Grand Canyon Trust, wrote 
to his Board of Trustees: ``White House staff are convinced that the 
proclamation itself cannot establish full collaborative management . . 
.'' He went on to write: ``The great danger to getting this done is 
that the White House will decide that not designating a monument at all 
is better than taking an action that will disappoint or anger the 
tribes.'' \1\
---------------------------------------------------------------------------
    \1\ Grand Canyon Trust, Board of Trustees Meeting, 1-1, (Oct. 14, 
2016).
---------------------------------------------------------------------------
    Further, recent Secretarial Order 3342 issued by Secretary Sally 
Jewell left much to be desired by tribal leaders looking for a seat at 
the land-planning table. The Order, intended to boost tribal 
involvement in the land planning process, was littered with caveats and 
loopholes. The Department of Interior explicitly acknowledges: ``[T]he 
Order does not address `co-management'.'' \2\
---------------------------------------------------------------------------
    \2\ Dept of the Interior, Secretarial Order No. 3342, Identifying 
Opportunities for Cooperative and Collaborative Partnerships with 
Federally Recognized Indian Tribes in the Management of Federal Lands 
and Resources, Sec. 2(c)(3) (Oct. 21, 2016).
---------------------------------------------------------------------------
    Clearly the administration can give tribes coordination. But we all 
know what that means. It means tribes can participate in all the 
meetings. It means tribes can listen to the discussion. It means tribes 
can even make recommendations. But at the end of the day, coordination 
puts tribes in the role of an advisor. It doesn't have any real teeth 
or authority.

                                 ______
                                 

                     Congress of the United States

                          Washington, DC 20515

                                                  November 18, 2016

    To the Co-Chairmen and Members of the Bears Ears Inter-Tribal 
Coalition:

    The November 2, 2016 meeting involving the Bears Ears Inter-Tribal 
Coalition and our offices was very productive. We were grateful for the 
time of the Coalition members who were able to attend. We look forward 
to continued dialogue as proposals are put forward concerning the Bears 
Ears region of Utah.
    Following up on the conversations we had during our meeting, we are 
writing to formally request draft legislative language that would 
implement an equitable co-management system for the Bears Ears region. 
It has been widely reported that co-management cannot be achieved 
through an Antiquities Act designation. We believe the congressional 
process can craft a meaningful co-management plan in which the Tribes 
are made equal to other participants.
    We are committed to finding legislative solutions to the various 
land designation and management challenges facing the Bears Ears region 
of San Juan County, Utah. Open dialogue and communication will ensure 
that all points of view, options, and solutions are considered.
    We look forward to hearing from you and stand ready to work 
together.

            Sincerely,

        Orrin Hatch,                  Rob Bishop,
        United States Senator         United States Representative

        Mike Lee,                     Jason Chaffetz,
        United States Senator         United States Representative

                                 ______
                                 

                   Bears Ears Inter-Tribal Coalition

                                                  November 30, 2016

To Utah Congressional Delegation,

    Thank you for hosting a meeting between tribal leaders from the 
Bears Ears Coalition and Utah congressional staff earlier this month. 
We sincerely valued the opportunity to hear directly from you and to 
discuss some of our concerns with the Utah Public Lands Initiative 
(PLI).
    As you know, each Tribe that comprises the Bears Ears Coalition has 
continually expressed an interest in collaboratively managing the Bears 
Ears landscape. We are pleased that you might be willing to accept our 
approach to collaborative management. After internal deliberation, 
however, the Coalition is still not able to support the Public Lands 
Initiative as drafted. As discussed at the meeting, some problematic 
areas of the PLI include:

    <bullet> The failure to use the boundaries, encompassing 1.9 
            million acres, as proposed by the Coalition after years of 
            expert research and analysis of this area;

    <bullet> The removal of 100,000 acres of land from the Uintah and 
            Ouray Indian Reservation;

    <bullet> Amendments to the Utah Navajo Trust Fund absent 
            consultation with the Navajo Nation;

    <bullet> The long term consequences that the transfer of energy 
            permitting and regulatory authority to the State will have 
            on the landscape and nearby communities;

    <bullet> Provisions validating Utah's claimed ownership of PL 2477 
            rights of way;

    <bullet> Provisions allowing mining in much of the 1.9 million acre 
            area proposed by the Coalition.

    These are only a few of the concerns that the Coalition has with 
the PLI. Until adequately addressed, the Coalition is not prepared to 
acquiesce to a draft bill by providing additional draft language. 
Nonetheless, we are grateful for the opportunity to discuss these 
issues with each of your offices.

            Sincerely,

        Alfred Lomahquahu,            Carleton Bowekaty,
        Bears Ears Co-Chair           Bears Ears Representative
        Hopi Vice-Chairman            Pueblo of Zuni Councilman

                                 ______
                                 

    Mr. Bishop. This idea that we did not have any of those 
discussions is one of the most bogus claims that happens to be 
there.
    Mr. Chairman, on this, I think it would be good to actually 
have another because there are so many inconsistencies in the 
testimony that was presented, written by whomever, whatever 
attorneys actually drafted it, that it would be nice to go 
through some of that once again in detail. It would be nice to 
talk about the actual number of lootings. I have 22 seconds.
    Matt, do you know how many lootings have taken place in 
like a 5-year span in this particular area?
    Mr. Anderson. It is very few. In fact, I don't have an 
exact number, but it is less than the Grand Staircase-Escalante 
number of lootings during the same period.
    Mr. Bishop. Twenty-five. Under the proclamation or the 
Inter-Tribal Council, do they actually do anything about that?
    Mr. Anderson. No.
    Mr. Bishop. Once again, Mr. Curtis, what does your bill do 
about that?
    Mr. Curtis. This bill is a management plan that protects 
the area.
    Mr. Bishop. Puts money into it?
    Mr. Curtis. Not just the President Trump designation, but 
the broader 1.35 billion acres.
    Mr. Bishop. Do you authorize money and manpower?
    Mr. Curtis. Yes.
    Mr. McClintock. I am afraid my time has expired.
    Mr. Lowenthal.
    Mr. Bishop. You need to have more control of your time, Mr. 
Chairman.
    Mr. Lowenthal. Thank you. I would like to make a comment 
before I ask questions. There has been a lot of talk about 
tribal management, the input of the tribes, questions have been 
asked frequently to Ms. Morris about the input of the tribe. To 
me, the input from the Inter-Tribal Coalition, the sovereign 
nations that live there is deafening, the silence. They have 
been excluded from this process, and not only is it 
inappropriate, it is totally disrespectful of what is taking 
place in this bill. That is where I am going to start.
    I want to ask Mr. Chapoose, the bill establishes a tribal 
management council for the Shash Jaa National Monument. 
However, the positions on the council will be filled by 
presidential appointment and reviewed by the Utah's 
congressional delegation. I ask you, does the Utah delegation 
speak for or represent sovereign tribal nations or tribal 
governments?
    Mr. Chapoose. There again, the agreements that exist in 
this, the United States, are particularly direct to us, a 
federally recognized tribe and the U.S. Government. It does not 
include the state of Utah or the county. And while I have the 
opportunity, I would like to point out, if we are going to go 
through the motions and have theater, I mean, let's do it. But 
we, as tribal leaders, have gone to this battle time and time 
again, and all we have asked in this process is an opportunity 
to represent ourselves. But throughout this process, all I have 
seen is select individuals who have been determined by people 
of power to speak on behalf of us, the tribal leaders. The 
tribal leaders are sitting here right now. You have had comment 
after comment talking about Navajo Nation. The Navajo Nation 
president is seated right behind me. If we are going to have a 
conversation at a government-to-government level, it requires 
us, the elected bodies, to be the ones putting forth that 
information.
    So, I find this rather interesting that I am sitting here 
to assist you and help you, but if I am going to be basically 
given history lessons too, I find that interesting also, since 
I am part of the history that we are talking about.
    Mr. Lowenthal. Thank you. I want to follow up. Are you 
aware of any tribal governments that support President Trump's 
action to eliminate the Bears Ears National Monument? Any 
tribal government?
    Mr. Chapoose. There again, I never have seen anybody come 
forward and say anything. I have seen the articles they have 
talked about, as the Congressman pointed out. We are talking 
about a group of Shoshones who basically don't even own a chunk 
of land and were able to work a deal with the state of Utah to 
get a chunk of land.
    Our tribes, the ones who are standing up, are old treaty 
tribes. And this is very important that we understand this: we 
pre-date the states. Our agreements exist with the U.S. 
Government. They are treaties. And the boundaries, which the 
county likes to point out, and as we have a local resident of 
the area saying that none of us live there, they forget, it is 
not that we don't live there, we were forced out of there. 
Where we reside today is not the choosing of our respective 
nations. They were the locations that were given and we were 
placed on after all the lands, which were our aboriginal lands, 
were taken from us.
    So, I think before we have discussions on history, we 
better make sure we are talking the proper history. But to my 
knowledge, there is no tribe. If anything, I have received 
letters from 20 treaty tribes from the northwest. I think we 
gained support from NCAI, the National Congress of American 
Indians, one of the oldest establishments in existence dealing 
with issues in the Federal Government. And let it be known: The 
Ute Tribe is one of the charter members of that organization, 
which was founded to protect and make sure these types of 
actions do not occur.
    Mr. Lowenthal. So, if this bill goes forward, in your view, 
Mr. Chapoose, will this bill lead to improved government-to-
government consultation with any of the five tribal governments 
that make up the Bears Ears Inter-Tribal Coalition?
    Mr. Chapoose. No, it will not. All this is going to do is 
divide us further. What is pretty interesting in this, and we 
have been to Congress quite a bit asking for other issues 
involving Indian Country, we know there is a challenge in 
court. It should be up to this body to do nothing further until 
those avenues are exhausted. To push it through basically shuts 
the door on the legal process, so this is not going to help 
anybody. If anything, I guess we are going to draw our lines, 
and we are going to start pushing harder and harder. But if we 
are talking about working together, there again, I am an 
elected person representing a Nation. The conversation you are 
going to have with me may not be what you think, but it will be 
an honest conversation based off a government-to-government 
requirement and law that exists in the United States.
    Mr. Lowenthal. Thank you, and I yield back.
    Mr. McClintock. Mr. Curtis.
    Mr. Curtis. Thank you. I would like to discuss just 
briefly, and then ask a question, the difference between the 
Bears Ears Commission and the co-tribal management. We have 
talked a little bit about the Bears Ears Commission, and I want 
to make clear the point that the Bears Ears Commission is kept 
fully intact in this bill. And not only is it kept fully 
intact, there is a requirement from the co-tribal management 
that they actually consult the Bears Ears Commission as it was 
conceived. And not only that, there is a requirement that if 
they don't listen to that advice, that they provide a written 
explanation about why they are not listening to that advice. I 
think that is very important to demonstrate the respect that we 
do have for the Bears Ears Commission and the work that was 
done on that. There is a provision in the bill that requires 
consultation with the Utah delegation from the President and to 
who he selects on that committee. I would certainly consider it 
a friendly amendment to add in that that is also in 
consultation with the Bears Ears Commission, to make sure that 
that input is respected and garnered as well.
    Mr. Anderson, you may not have an answer to this question, 
but let me try you on this. Are you familiar with the 
requirements in the Constitution that require the President to 
select who is on this committee? And if so, could you explain 
why that requirement is in this bill?
    Mr. Anderson. I don't have the history of the bill, but my 
understanding is it will reflect that elections matter. While 
there may be a Republican in today, I am sure there is going to 
be a Democrat in the future, and so the selection of the 
committee members will largely be a reflection of the elections 
we have in this country. But I cannot speak to the history 
specifically.
    Mr. Curtis. OK. The Bears Ears Commission was simply 
advisory. Under that situation, it is acceptable to not involve 
the President in the selection because the co-tribal management 
has decision-making authority, the Constitution actually 
requires that to be selected by the President. But as the 
author of this bill and this being my bill, I certainly would 
entertain any opportunity to insert more from the Bears Ears 
Commission into this that would give them the representation 
that they are looking for.
    With that, Mr. Chairman, I yield my time.
    Mr. McClintock. Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Chapoose, the first question or a comment, a reaction 
to other comments, about the manipulation by outside 
organizations relative to Native people and their involvement 
and that they were pulling the strings and that the tribal 
leadership that was involved, the five nations involved in 
this, were merely puppets of that process--your reaction to 
that?
    Mr. Chapoose. Yes. First of all, apparently, they are 
reading a different novel than I was participating in. When 
this came about, it was actual tribal leaders that approached 
us in our tribal headquarters. It was not non-Indians or 
lobbyists. These were elected leaders, and they came to us with 
a proposition, with a question. The request was, ``Look, we 
know this place is significant. We all have cultural ties. 
Nothing is being done to protect it. And it is going to require 
us as tribal leaders to step up and do it. And as sovereign 
governments, we have that right and authority.''
    According to a lot of the testimony, apparently, they were 
in the room, because I sure wasn't. But what we did as tribal 
leaders was we gathered and we talked. We talked about how to 
best protect this valuable resource, because we were not 
getting any protection.
    So, the whole assertion that the environmentalists and 
everybody else is calling the shots here, I am not a puppet, I 
am a tribal leader. And every one of us tribal leaders take our 
jobs very seriously and have nothing but the best interests of 
our respective nations in mind when we make our decisions, and 
we will stand by the decisions we make.
    Mr. Grijalva. If we are serious--and I agree with that--
about creating a tribally co-managed monument, we would want 
to, I assume, consult with the tribes associated with Bears 
Ears. You have mentioned that, in the development of this bill, 
there was no consultation to begin with. The Ute Tribe does not 
support Section 105, the tribal management council. Can you 
explain the opposition to that?
    Mr. Chapoose. Well, there again, consultation. If they 
truly would have reached out and talked to us, the tribal 
leaders, the sovereign tribal leaders, we probably would have 
been able to assist them in a lot of it. But what happened 
was--and I mean it has been stated--let's go find a citizen of 
a tribe or a member of a tribe, and because of their basic 
support of our agenda, we put them on a platform and say--look, 
these are the tribal leaders. The optics happen like this all 
the time.
    But the Governor knows and the county should know who the 
elected bodies are. They have an organization within the state 
of Utah called the Utah Tribal Leaders. In there, it has a 
list, and basically all the information required so that you 
can reach out to the sovereign elected governments which are 
within the state of Utah. So, when this comes about, we are the 
last to hear, so we are in here objecting to provisions, we are 
objecting to some of the language. But there, again, if they 
would bother to talk to us. I think Congressman Curtis needs to 
realize, I am also a private land holder in his district, just 
like I am a private land holder in Congressman Bishop's 
district. So, all I can say is the day that you realize that 
sovereign tribes are there to assist you and you reach out to 
them, I think you can avoid a lot of this. But if you are going 
to continue to do this, I guess we will continue to have more 
hearings and more discussion.
    Mr. Grijalva. Again, let me follow up. Do you agree with 
the assertion that the monument designation does nothing to 
protect cultural resources, historic resources, sacred sites, 
and that this bill is a better model if we really want to 
protect those? That is question Number one. Number two, let's 
not skim over the issue of sovereignty. Let's not skim over the 
issue of consultation and trust responsibility, which I think 
are integral parts of this whole discussion about this 
legislation and the precedent that it sets on those issues.
    Mr. Chapoose. I will answer this quickly as my time will 
run out. First of all, this bill does everything in reverse of 
what the initial monument did. And even though they make this 
comment that you are in an advisory role, we are aware of what 
our role was, because we were actually the participants who 
made sure that we got what we asked for.
    Second of all, consultation. This is the beginning of the 
end. This is another basic, ``We are going to mandate, as in 
the 1800s, what is best for the Native American tribes, make 
the decisions here at the congressional level,'' and we once 
again will suffer the consequences of it. We are the formal 
governments. It is law that we have a government-to-government 
relationship. And, hopefully, I am able to answer that so I 
don't go over my time limit.
    Mr. Grijalva. I yield back, Mr. Chairman. Thank you.
    Mr. McClintock. Thank you.
    General Bergman.
    Mr. Bergman. Thank you.
    Mr. Chapoose, just one quick question here for point of 
clarification. Is the land that we are talking about tribal 
land?
    Mr. Chapoose. No. That has never been the argument. It is 
public land.
    Mr. Bergman. Just a point of clarification here.
    Chairman McClintock, what I would like to do is yield back 
the remainder of my 5 minutes to Chairman Bishop if he would 
like.
    Mr. McClintock. Chairman Bishop is recognized.
    Mr. Bishop. Thank you. Look, we are going to have the 
continuous spins on this story going forward. But the key issue 
is who actually makes decisions, who gets to sit there as a 
nice advisory board that will be ignored by BLM when they don't 
want to, and who can actually tell BLM how to manage this 
particular property, which is on BLM lands, which is why the 
President has to make those appointments. That is the law. The 
only way it can be done is by legislation as well. If we are 
giving them that kind of authority, it has to be done by 
legislation. It cannot be done by proclamation or anything 
else.
    Bears Ears Inter-Tribal Coalition did talk at one time 
about this concept. And they said the effort to preserve Bears 
Ears has always been premised on collaborative management 
between tribes and the Federal Government. The problem is the 
proclamation does not do that. The Commission is a fraud. It is 
a sham. They get to advise, but the advice can easily be 
rejected.
    Which is why, Matt, I appreciate your testimony on what 
happened at Grand Staircase-Escalante, which shows that land 
managers have the ability to arbitrarily change things, and 
there is nothing, nothing, the Commission can do about it.
    However, if you actually go with what Representative Curtis 
is proposing, by legislatively creating a body that actually 
does have the ability to make those management decisions that 
will then be carried out by BLM, that actually goes to what the 
Inter-Tribal Coalition wanted in the first place but did not 
get from the Obama proclamation and does not have now if the 
Obama proclamation goes forward. Let me ask in the last couple 
of minutes, Suzette, how far away do you live from this land?
    Ms. Morris. Approximately 45 minutes.
    Mr. Bishop. The Hopis, how long would it take one of them 
to get there, that are part of the Commission?
    Ms. Morris. Maybe 2 to 3 hours.
    Mr. Bishop. Why is this land so important to you who lives 
right next door to it?
    Ms. Morris. We know the land, we love the land, and we 
don't want--like Shaun stated, he is an elected official for 
Ute Nation. Only in that area is he elected. With our elected 
officials, the community is what elects them, so I think it 
should have been a community effort. It should have been 
brought to the attention of the community.
    Mr. Bishop. How do you know what areas are sacred in Bears 
Ears?
    Ms. Morris. Because we were taught. We were taught that you 
do not go into areas that are ruins because that was where 
people lived. And we were taught if you go in there, then you 
are disturbing them. That is the reason why those ruins were 
left alone, because we were taught that.
    Mr. Bishop. Let me say, that becomes the crux of what this 
particular issue is to me. What we are talking about is, how do 
we empower people who actually have a close tie, an ancestral 
tie, a family tie to be able to make real decisions, not mock 
decisions, but real decisions? And it can only be done 
legislatively, and it can only be done in this particular 
language. Our effort is to try to empower people like you, who 
are tied by ancestry, family, grandparents to that particular 
area. That is why in your particular area, they do not support 
the proclamation. That is why the Aneth Chapter, which is the 
largest Navajo chapter within the state of Utah, does not 
support the proclamation, but they do support the Curtis bill.
    Governor, does the state of Utah support the Curtis bill?
    Governor Herbert. Well, you know----
    Mr. Bishop. Let me rephrase that, you can't speak for the 
state of Utah.
    Governor Herbert. It is hard for me to speak--I support it.
    Mr. Bishop. You support it.
    Governor Herbert. But I can tell you that I think we tend 
to look at history, we tend to look at who is to blame, we 
point our fingers. We have a failure to communicate very well. 
That blame goes around to everybody. I have great respect for 
Councilman Chapoose, and President Begaye is a good friend of 
mine, and others. We have different points of view on this. But 
if we really care about solving the problem--or if we are going 
to continue to fight and argue, we can be in court for the next 
5 or 6 years--if we really care about actually treating the 
Bears Ears with the reverence and respect it deserves and that 
the Native Americans want it to have----
    Mr. McClintock. Governor, I am going to interrupt for just 
a moment. General Bergman's time has expired, but Congressman 
Bishop now has 5 minutes in his own rights.
    Mr. Bishop. I am going to ask you to finish it off.
    Governor Herbert [continuing]. It needs to be done 
legislatively. Everybody agrees that is the best way. You can 
modify and improve it. Congressman Curtis has already said: 
Hey, I hear some things here maybe we need to take a look at. 
We have laws in the way that may prohibit it.
    These are lands owned not by Utahns only and not by the 
Navajos only or other Native tribes. These are owned by all 
Americans. You, the Congress, are responsible for how we in 
fact manage those lands through the Interior Department and 
through the BLM. The only way we can resolve this to the 
optimal benefit, respecting the differences of opinion, and 
come together with resolution, is a legislative fix. Anything 
else will continue to have us argue, fight in court, and never 
get resolution of this issue. So, the challenge for this body 
and the rest of your colleagues is to find a legislative 
solution, getting input from all the stakeholders, and then 
come up with legislation to resolve the issue.
    Mr. Bishop. If we do the legislative approach and we go 
forward, we can throw strikes, because home plate doesn't move. 
I yield back.
    Mr. McClintock. I want to thank our panel for a very 
spirited discussion on a very important subject and look 
forward to continuing that discussion, which is, as the 
Governor has pointed out, the essence of the legislative 
process, which is, once again, why the Constitution gives 
Congress authority over these matters, not the President, so 
that these voices can be heard. And because of the request for 
an additional day of hearings under House Rule 11 clause 2(j)1, 
we will reconvene to continue this discussion at a later date. 
I would ask the Minority to provide the names and contact 
information of their witnesses to the Subcommittee Clerk by 5 
p.m. today.
    Without objection, the Subcommittee stands in recess 
pending call of the Chair.

    [Whereupon, at 11:58 a.m., the Subcommittee was recessed, 
subject to the call of the Chair.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Rep. Bishop Submission

  Prepared Statement of Rebecca Benally, San Juan County Commissioner
    Thank you, Committee Chair and Ranking Member for inviting me to 
testify in support of House Resolution 4532. My name is Rebecca 
Benally, San Juan County Commissioner, a member of the Navajo Tribe. I 
appreciate the opportunity for my voice and the community voice to be 
heard.
    In our community, public lands are our most valuable resource. The 
land is our inheritance, handed down from generation to generation. We 
treasure the land. We take care of the land.
    H.R. 4532 is a step to create the first tribal managed national 
monument. The Shash Jaa National Monument incorporates land within the 
Bears Ears area. Unfortunately, the former Bears Ears proclamation 
never mentioned tribal management just an advisory commission.
    It is stated that, ``The purpose of the Shash Jaa National Monument 
shall be to protect, conserve and enhance the unique important 
historic, sacred, cultural, scientific, scenic, archaeological, natural 
and educational resources of Shash Jaa National Monument.''
    The purpose is only worthwhile if it truly serves the people. And 
no group of people has more to lose or gain, than the local tribes. We 
use the land for hunting, wood cutting, gathering medicinal herbs and 
for sacred ceremonies. By creating the Shash Jaa Tribal Management 
Council, you are giving the Native American people the opportunity to 
manage the land of their ancestors and maintain access.
    By supporting H.R. 4532, you are listening to a group that has been 
silenced for too long and finally allowing us a seat at the table. We 
all come from different backgrounds, but we want the same results. We 
want land that is well-managed and accessible to all people. We support 
the language of H.R. 4532. We agree that the land should be protected. 
Currently there are 14 regulation and laws in place, such as:

    -- 1935 Historic Sites Preservation Act

    -- 1960/1974 Reservoir Act

    -- 1964 Wilderness Act

    -- 1966 National History Preservation Act

    -- 1968 Wild and Scenic Rivers Act

    -- 1974 Archaeological & Historic Preservation Act

    -- 1976 Federal Lands Policy and Management Act

    -- 1978 American Indian Religious Freedom Act

    -- 1979 Archaeological Resources Protection Act

    --  1980 Amendment-Executive Order Protection & Enhancement of 
            Cultural Environment

    -- 1990 Native American Graves Protection & Repatriation Act

    -- 1996 Indian Sacred Site Protection Act

    -- 2000 Consultation & Coordination with Indian Tribal Government 
            Act

    -- 2003 Preserve American Act

    Therefore, H.R. 4532 is a step in the right direction to create the 
Shash Jaa Tribal Management Council that will benefit the local tribes 
and groups to work together to manage the land.
    It is an honor to be here today. Thank you for listening to the 
local people, San Juan County, Utah. I also would like to thank the 
Utah delegation for showing respect to the process and putting forward 
a thoughtful and inclusive bill.

                                 ______
                                 

Rep. Grijalva Submissions

  Prepared Statement of the Advisory Council on Historic Preservation
    The Advisory Council on Historic Preservation (ACHP) would like to 
take this opportunity to share its views with the Subcommittee 
regarding the Shash Jaa National Monument and Indian Creek National 
Monument Act (H.R. 4532). The ACHP is the independent federal agency 
that promotes the preservation, enhancement, and sustainable use of our 
nation's historic resources. Created by the National Historic 
Preservation Act of 1966, the ACHP is charged with advising the 
President and Congress on national historic preservation policy. In 
that capacity the ACHP often provides its views to the Congress on 
legislation under consideration that may affect the national historic 
preservation program and the preservation of historic properties of 
importance to the American people. In fulfillment of this duty, the 
ACHP advises against enactment of H.R. 4532.
    The ACHP has long supported the National Monument designation 
system founded on the provisions of the Antiquities Act of 1906 as an 
effective historic preservation protective process. In the ACHP's 
legislative agenda for the 114th and the 115th Congresses, the 
membership specifically included opposition to any legislative efforts 
to undermine the authority of the President to designate National 
Monuments under the Antiquities Act.

    As recently as November 2017, the ACHP membership took a position 
on H.R. 3990, the National Monument Creation and Protection Act, and 
resolved that:

        ``The ACHP supports Presidential designation of National 
        Monuments as an important tool for the protection of historic 
        properties on federal land . . .'' \1\
---------------------------------------------------------------------------
    \1\ The resolution in its entirety reads as follows:

    ``Whereas, the ACHP supports Presidential designation of national 
monuments as an important tool for the protection of historic 
properties on Federal land;

    Whereas, the ACHP is concerned that the National Monument Creation 
and Protection Act (H.R. 3990) makes extensive changes in the current 
national monument designation process that would limit the types of 
historic properties that could be protected and deemphasize protection 
of cultural and natural resources in the designation process, thereby 
undermining a preservation tool that has been effectively used for more 
than a century to protect some of the nation's most iconic places; and

    Whereas, the ACHP supports transparency and consultation with 
affected governments and stakeholders in the designation process for 
national monuments while respecting the role of the federal government 
as a steward of these resources for the entire nation;

    Now, be it resolved that the ACHP opposes H.R. 3990 as reported out 
of committee and directs the chairman to advise the Administration and 
the Congress regarding these concerns.''

    It is from this perspective that the ACHP must express its concern 
about a fundamental provision of H.R. 4532. Section 4 of the bill 
declares null and void Presidential Proclamation 9558 that established 
the Bears Ears National Monument. This National Monument was 
established by the President following the statutory directive given to 
him by the Congress in the Antiquities Act. It was an exercise of a 
valid legal authority based on over a century of practice, conforming 
to standards and procedures that have been thoughtfully evolved and 
scrupulously followed to achieve reasoned determinations through the 
objective application of professional standards and consideration of 
national and local interests, needs, and priorities.
    The ACHP readily acknowledges that the Congress possesses the 
authority through legislative action to modify or rescind National 
Monument designations made by the President. However, we would note 
that the Congress has never, in the over century-long history of the 
Antiquities Act, exercised that power to vacate a presidential action. 
The ACHP opposes H.R. 4532 on those grounds, as the primary provisions 
that follow to establish two new reconfigured and drastically reduced 
National Monuments are premised on the abolition of the existing Bears 
Ears National Monument.
    The ACHP appreciates this opportunity to share its views with the 
subcommittee. We value our longstanding and mutually beneficial 
relationship in working with the Natural Resources Committee and look 
forward to continuing to assist the committee in our shared goals to 
preserve and protect the Nation's irreplaceable cultural heritage. 
Please do not hesitate to call on me or my staff with any questions or 
requests for assistance on these issues.

                                 ______
                                 

                                       Sierra Club,
                                             Washington, DC

                                                    January 9, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Member of Congress:

    On behalf of our more than 3 million members and supports, the 
Sierra Club strongly urges you to oppose the Shash Jaa National 
Monument and Indian Creek National Monument Act (H.R. 4532).
    Late last year, President Donald Trump issued an unlawful order to 
repeal the Bears Ears National Monument and replace it with two smaller 
monuments, leaving nearly 85 percent of the original monument 
unprotected. That same day, Representative John Curtis (UT-03) 
introduced the Shash Jaa National Monument and Indian Creek National 
Monument Act to ratify Trump's illegal repeal of the Bears Ears and 
make his unlawful order permanent.
    These actions to eliminate parts of Bears Ears National Monument 
are an affront to the sovereign Tribal Nations who worked tirelessly to 
protect their cultural heritage for future generations. Bears Ears 
National Monument was protected at the behest of five sovereign Tribal 
Nations--Navajo, Hopi, Ute, Ute Mountain Ute, and Zuni Tribes--with 
strong historical, spiritual and cultural ties to these public lands. 
Six out of seven Navajo Chapter Houses in Utah supported the 
designation of Bears Ears National Monument. No Tribal government 
opposed it.
    The Bears Ears region, which was first identified for protection in 
1936, holds more than 100,000 Native American and Mormon cultural and 
archaeological sites that have been threatened by rampant looting and 
grave robbing. The actions by President Trump and Representative Curtis 
once again put these sacred sites and artifacts at risk.
    Bears Ears has been targeted because it holds resource potential 
that the oil and gas industry wants to access. Opening the monument to 
development will threaten cultural and natural resources that can never 
be replaced. Our national parks, public lands and waters protect a 
shared history and culture that are worth more than the minerals 
beneath them.
    Furthermore, national parks, monuments, public lands and waters are 
a critical part of the nation's economy--especially for rural and 
Western communities that benefit from the tourism, outdoor recreation 
and quality of life associated with healthy public lands. The Utah 
Tourism Board, in fact, has touted Bears Ears Monument as a destination 
for visitors to the state.
    Regions surrounding national monuments like Bears Ears have seen 
continued growth or improvement in employment and personal income, and 
rural counties in the West with more federal lands had healthier 
economies, on average, than their peers with less protected lands. 
Outdoor recreation alone generates $887 billion and 7.6 million jobs 
every year across the U.S. In Utah, outdoor recreation generates $12 
billion for the local economy. And in 2016, National Parks saw a record 
331 million visits nationally, contributing almost $35 billion to the 
U.S. economy.
    This attack on Bears Ears from the Administration and Congress sets 
the stage for additional attacks on all of America's national parks and 
public lands, and shows the willingness to ignore the law, science, 
tribal sovereignty and the will of the American people. National parks 
and protected public lands and waters help define who we are as a 
nation. Attempts to rip apart the fabric of national monuments are an 
assault on our nation's historical, cultural and natural heritage.
    The Sierra Club strongly urges you oppose the Shash Jaa National 
Monument and Indian Creek National Monument Act (H.R. 4532), and any 
attempt to weaken and destroy our public lands like Bears Ears National 
Monument.

            Sincerely,

                                             Michael Brune,
                                                Executive Director.

                                 ______
                                 

                                 The Navajo Nation,
                                       Window Rock, Arizona

                                                   January 19, 2018

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Clarification to Statements and Representations Made in the Hearing 
        on H.R. 4532--Regarding Consultation with the Navajo Nation

    Dear Chairman Bishop and Ranking Member Grijalva:

    The Navajo Nation wishes to clarify and correct an important 
misrepresentation made at the Legislative Hearing on H.R. 4532 held on 
Tuesday, January 9, 2018. Specifically, it was stated at the Hearing 
that tribes were consulted with during the development of H.R. 4532. 
This is incorrect. The Navajo Nation and the other tribes of the five-
tribe Bears Ears Inter-Tribal coalition were not consulted with prior 
to the introduction of H.R. 4532, and we are not aware of any other 
tribe that may have been consulted with on this Bill.
    As support for the statement that tribes were consulted with on the 
Bill, several images were put up on the screen. One of the images was a 
picture of former Representative Jason Chaffetz with Navajo Nation 
President Russell Begaye and Vice President Jonathan Nez. To be clear, 
this picture was not taken during any consultation or meeting on H.R. 
4532, and Navajo Nation leadership was not asked to provide any input 
on the Bill before it was introduced. Representative Curtis, the 
sponsor for H.R. 4532, was not even in office when the picture of 
Representative Chaffetz and the Navajo leadership was taken. The 
introduction of three letters from November 2016 to the record by 
Chairman Bishop also pre-date Representative Curtis's election to 
office by a full year. Those letters simply could not have related to 
H.R. 4532 and certainly do not stand as proof of consultation with 
tribes on the Bill.
    As an additional point of clarification, the individual tribal 
member witness (Suzette Morris) stated that tribes, and the Navajo 
Nation in particular, ``never made a statement on why they wanted the 
Monument.'' This is simply untrue. The Nation has issued numerous 
official statements explaining why we support the 1.35 million-acre 
Monument. For example, see our statements set forth in attached 
Resolution No. NABIJA-O1-17, ``Relating to Naakik'iyati': Supporting 
the Proclamation Establishing the Bears Ears National Monument by the 
President of the United States Barack Obama and Oppose [sic] 
Congressional Action to Reverse the Presidential Proclamation.''
    Ms. Morris also definitively answered ``No,'' when questioned by 
Representative Thompson whether local tribes were consulted in advance 
of the issuance of the Obama proclamation. This too is incorrect. Not 
only did we consult on the Monuments, we actively advocated for the 
Monument designation. In that process, we met with the Obama 
administration numerous times, often done in unity with the other 
tribes of the Bears Ears Inter-Tribal Coalition. When the proclamation 
was finally issued, we were elated, as Resolution No. NABIJA-O1-17 
suggests, and we remain committed to preserving the Monument, as our 
complaint in Hopi Tribe, Navajo Nation, et al. v. Trump. et al. 
suggests.
    Finally, testimony was added to the record at the Hearing on behalf 
of Alfred Ben, who serves in a community chapter capacity on the Navajo 
Nation. As clarified by our Attorney General in the attached letter to 
the Committee, dated January 9, 2018, Navajo law does not authorize 
local government or chapter individuals such as Mr. Ben to speak on 
behalf of the Navajo Nation. Accordingly, you should be clear in 
understanding that Mr. Ben's testimony is submitted in his personal 
capacity only.
    The Navajo Nation is obligated to correct these misrepresentations 
for the official record. The Navajo Nation definitively states that we 
had no consultation on H.R. 4532, and we hereby reaffirm our opposition 
to H.R. 4532. Indeed, on Tuesday this week, our Naabik'iyati' Committee 
(the Navajo Nation Council committee of the whole) unanimously passed 
Legislation No. 0015-18, ``An Action Relating to Resources and 
Development Committee and Naabik'iyati' Committee Opposing H.R. 4532 
Titled `Shash Jaa National Monument and Indian Creek National Monument 
Act'.'' Legislation No. 0015-18 formally sets forth the Nation's 
official policy position in opposition to H.R. 4532. I will forward a 
copy of the legislation to be added to the hearing record when the 
final, official copy is available.
    In closing, I ask that the Committee honor true facts, and honor 
Navajo sovereignty. I also respectfully request that the Committee hold 
a hearing on H.R. 4518, which the Nation was consulted on and strongly 
supports. H.R. 4518 truly honors tribes and tribal sovereignty, and 
ensures a meaningful role for us in managing the lands and cultural, 
historical, and religious patrimony we seek to protect in the Bears 
Ears region.

            Respectfully,

                                            Russell Begaye,
                                                         President.

                                 ______
                                 

                            Ute Mountain Ute Tribe,
                                           Towaoc, Colorado

                                                   January 10, 2018

Hon. Rob Bishop, Chairman,
Members of the House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: The Official Representation and Position of the Ute Mountain Ute 
        Tribe Regarding the Bears Ears National Monument

    Dear Chairman and Honorable Representatives:

    An individual tribal member purported to represent herself as a 
representative of White Mesa and the Ute Mountain Ute Tribe at the 
congressional hearing on H.R. 4532, held on January 9, 2018. Contrary 
to statements that she ``speak[s] for Ute Mountain'' and ``speak[s] for 
White Mesa,'' Ms. Suzette Morris is not an elected official 
representative of White Mesa, a community of Ute Mountain Ute tribal 
members residing on Ute Mountain Ute lands within San Juan County, 
Utah. The handpicking of an unelected tribal member, that serves the 
agenda of anti-monument special interests groups, to speak on behalf of 
White Mesa is a blatant violation of the unique sovereign to sovereign 
relationship shared between the federal government and federally-
recognized Indian nations, as acknowledged in treaties, statutes, 
federal common law, and the U.S. Constitution.
    The Ute Mountain Ute Tribe, not individual bands within the tribe, 
is the federally-recognized tribal government entity that is owed a 
fiduciary duty by the federal government. The seven-member elected body 
that comprises the Ute Mountain Ute Tribal Council, which includes 
Elaine Cantsee, the White Mesa council representative, is the 
appropriate entity that officially speaks on behalf of the Ute Mountain 
Ute Tribe and all its communities, including White Mesa and Allen 
Canyon. We ask that you respect and honor the laws of the Ute Mountain 
Ute Tribe that govern official representation on behalf of the Tribe.
    By way of official resolutions, community meetings attended by 
tribal leaders in White Mesa, and as a member of the Bears Ears Inter-
tribal Coalition, the Ute Mountain Ute Tribe has maintained an official 
position advocating for the protection of the natural, cultural, and 
archeological resources of our ancestral homelands through a national 
monument designation, as contemplated in Presidential Proclamation 
9558. The Ute Mountain Ute Tribe is also engaged in active litigation 
challenging the legality of the current administration's attempt to 
modify the Bears Ears National Monument. H.R. 4532 is an attempt to 
legislatively confirm the improper action by the presidential 
administration. As such, and for the reasons indicated in the statement 
of the Bears Ears Inter-tribal Coalition which includes the Utah 
congressional delegation's failure to consult with any of the Indian 
nations, the Ute Mountain Ute Tribe officially opposes H.R. 4532.
    As trustees to Indian nations, we ask that the House Committee on 
Natural Resources refrain from the shameful practice of using 
individual tribal members that conveniently serves the narrative of 
special interests groups or the Utah congressional delegation, and not 
the official views of elected leaders from the Ute Mountain Ute Tribe. 
In all future dealings and matters concerning the interests of the Ute 
Mountain Ute Tribe we ask that you respect tribal sovereignty and the 
trust relationship by engaging directly with the elected Tribal 
Council.

            Respectfully,

        Harold Cuthair,               Colleen Cuthair,
        Chairman                      Vice Chairwoman

        Elaine Cantsee,               Marissa Box,
        White Mesa Council 
        Representative                Council Secretary

        DeAnne House,                 Juanita Plentyholes,
        Treasurer                     Tribal Council

        Prisllena Rabbit,
        Tribal Council

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Bishop Submissions

    --American Enterprise Institute, ``Presidential Authority 
            to Revoke or Reduce National Monument 
            Designations,'' by John Yoo and Todd Gaziano, March 
            2017.

    --Deseret News, ``Big money, environmentalists and the 
            Bears Ears story,'' by Amy Joi O'Donoghue, August 
            4, 2016.

Rep. Grijalva Submissions

    --The Navajo Nation, Testimony by President Russell Begaye 
            and Council Delegate Davis Filfred.

    --Outdoor Alliance, Letter addressed to Chairman Tom 
            McClintock and Ranking Member Colleen Hanabusa, 
            dated January 8, 2018.

    --Southern Utah Wilderness Alliance, Letter addressed to 
            Representatives Bishop, Grijalva, McClintock and 
            Hanabusa, dated January 11, 2018.

    --Resolution NABIJA-01-17 of the Naabik'iyati' Committee of 
            the Navajo Nation Council.

    --Archaeology Southwest, Statement of William Doelle, 
            President and CEO, dated January 9, 2018.

    --Access Fund, Testimony on The Shash Jaa National Monument 
            and Indian Creek National Monument Act, submitted 
            by Erik Murdock, Policy Director, dated January 12, 
            2017.

                                 # # #

                                     


LEGISLATIVE HEARING ON H.R. 4532, TO CREATE THE FIRST TRIBALLY MANAGED 
    NATIONAL MONUMENT, AND FOR OTHER PURPOSES, ``SHASH JAA NATIONAL 
       MONUMENT AND INDIAN CREEK NATIONAL MONUMENT ACT''--PART 2

                              ----------                              


                       Tuesday, January 30, 2018

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:34 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Thompson, Tipton, 
Gianforte; Hanabusa, Tsongas, Lowenthal, Gallego, McEachin, 
Gomez, and Grijalva.
    Also present: Representative Curtis.
    Mr. Bishop. The Subcommittee on Federal Lands will come to 
order. This Subcommittee is reconvened at the request of the 
Minority in accordance with Rule 11, to further consider the 
Shash Jaa National Monument and Indian Creek National Monument 
Act that is introduced by Representative Curtis and co-
sponsored by the entire Utah delegation.
    Mr. Curtis, I appreciate you being with us here today. 
Nothing is official yet, but we have requested that you 
actually eventually join this Committee, because we are down 
one member. I hope that actually happens and I hope this is the 
beginning of something that is going to be very permanent.
    Mr. McClintock is the Chairman of this Subcommittee, and he 
was kind enough to get sick. He is home, back in California, so 
I have been temporarily empowered--actually, Mr. McClintock is 
sick, and Mr. LaHood was the Vice Chairman, who is no longer on 
the Committee--so I have been demoted to going backwards. I was 
Chairman, I used to be both the Chairman of this Subcommittee 
and the Ranking Member. Now I am officially the Vice Chairman 
of this Committee. Thank you.
    [Applause and laughter.]
    Mr. Bishop. The options are just never-ending.
    With that, I appreciate the witnesses who have taken the 
time to be here. I appreciate you appearing before the 
Committee. Thank you for the written testimony that you have 
sent to us. That will be part of the record.
    Because of the number of witnesses that are here, we have 
reserved the first row. There will be one seat at the table. We 
will call you up one at a time to give your oral testimony to 
us.
    For those who are new to the Committee--and I know many of 
you have been here before--the microphone in front of you, you 
are going to have to turn it on. The timer is there. You have 
your written testimony, and anything you would like to add 
afterwards will obviously be included in the record.
    The oral testimony is going to be limited to just 5 
minutes. With the number of witnesses we have, that is going to 
be a significant chunk of time, anyway. So, please watch the 
clock that is ahead of you. If the green light is on, you have 
plenty of time. When it hits 1 minute left, that is yellow. 
And, like in a traffic light, that is when you speed up so that 
you can quit when it is red.
    And because we have a number of people to go through, I 
will try to be fair and arbitrary when I gavel you down. I 
apologize. I will let you complete a sentence, as long as it is 
not a run-on.
    With that, let me first welcome to the witness table the 
Honorable Jason Chaffetz. You look really familiar. I am not 
quite sure why. But we appreciate you coming back here again.
    Mr. Chaffetz used to be the Representative of this 
particular area. Thank you for coming here and presenting your 
testimony.
    When he is done, he will take a seat back there and then we 
will call the next witness up to that particular spot. 
Questions will be done after all of you have had the chance to 
speak.
    I will also give one caveat, Mr. Chaffetz is also working 
here today.
    So, at any time, if you actually have to leave, we 
understand, we appreciate you generously giving your time 
already. Thank you for that. And it is good to have you back 
here in this Committee room again.
    So, Jason, you have 5 minutes, it is all yours.

    STATEMENT OF THE HON. JASON CHAFFETZ, FORMER MEMBER OF 
          CONGRESS, UTAH'S 3RD DISTRICT, ALPINE, UTAH

    Mr. Chaffetz. Mr. Chairman, Ranking Member, and members of 
the Committee, thank you for inviting me to testify on behalf 
of H.R. 4532, introduced by the second-best Congressman to 
serve from Utah's 3rd Congressional District in the 115th 
Congress, Representative Curtis.
    As you know, I previously sat on the Committee, as I was 
honored to serve in the House of Representatives for 8\1/2\ 
years in Utah's 3rd Congressional District. Having represented 
many parts of Utah, I am intimately familiar with the land, the 
people, and the issues.
    I live in Utah, I care about Utah. My wife and I raised our 
children in Utah, and we intend to continue to live in Utah 
throughout our lives. We enjoy the scenic outdoors, and 
regularly take advantage of access we have to amazing land that 
is just a short drive from our home. We enjoy all four 
vivacious seasons, and want nothing more than continued access 
and preservation of the beauty in this very unique part of the 
world.
    Unlike most states in our Union, nearly 70 percent of the 
state of Utah is owned by the Federal and state government. It 
puts tremendous pressure on local communities, of which I am 
keenly aware. Most dramatically, it affects the way we are able 
to educate our children.
    In San Juan County, for instance, only 8 percent of the 
county is private property. It is this private property that 
generates property taxes to educate our children. This affects 
all the residents of San Juan County, especially the children 
of the Navajo Nation.
    Personally, I have fought to improve the Federal commitment 
to our schools, fighting for and securing an increase in 
appropriations for rural school bus routes. And many of you on 
this Committee supported this effort on both sides of the 
aisle. Again, I thank you for the much-needed support on those 
rural school bus routes.
    Another major burden for the county government is the 
emergency services needed to support such a massive amount of 
land. In the case of San Juan County, they are expected to 
provide first responder services on the Federal land with no 
reimbursement by the Federal Government. With the millions of 
acres in play, you could see how the search and rescue services 
can put a massive financial burden on such a small county 
budget. And, oh, by the way, San Juan County is roughly the 
size of New Jersey. It is big, it is expansive, it is 
beautiful, and it is remote.
    The financial burdens for the counties is exacerbated by 
the uneven and inconsistent funding of PILT, payment in lieu of 
taxes, but we will have to tackle that subject another time.
    The legislation before you today does not convert any 
public land to private property. It does not solve the funding 
problems and challenges. But it does address a challenge long 
identified by Chairman Bishop and keenly recognized by 
Representative Curtis.
    I will be submitting for the record a couple of letters. 
One is a letter dated February 22, 2013. And rather than read 
that, I will just submit it into the record. But it was 
essentially an invitation by Chairman Bishop to involve and 
engage the local communities in this dialogue on how to deal 
with our Federal lands.
    Through the years, Rob Bishop and I, along with others with 
very capable staff, conducted literally 1,200 meetings at every 
level you can possibly imagine. Yes, 1,200. Our goal was to 
achieve certainty for the local communities and state, move 
beyond perpetual lawsuits, and maximize local input from a 
broad cross-section of stakeholders. We called this approach 
the Public Lands Initiative, or PLI.
    There are 29 counties in Utah, but we limited the scope of 
our work to 7 contiguous counties in southeastern Utah, and we 
worked with every possible stakeholder. This effort included my 
flying with San Juan County Commissioner Rebecca Benally to 
Flagstaff, Arizona on August 18, 2015, to meet with the Navajo 
Nation President Begaye, and to talk about our Public Lands 
Initiative for Utah.
    I brought up the so-called Bears Ears Monument. The 
president had never heard of Bears Ears, nor did he have any 
idea where it was located. His concern then was about access 
for local Navajos, access that was not found within the 
monument designation. We were convinced then, and I am 
convinced today, that stakeholders identified in the bill 
before you today maximizes input, allows for broad discussion, 
makes the process transparent, and will give the public 
confidence in its outcomes. The areas identified in the 
legislation include no reservation lands.
    I believe the bill put forward by Congressman Curtis is 
fair, inclusive, and it is necessary. I appreciate the work he 
has already invested in this important subject.
    This new legislative effort puts all of us in the best 
possible position to ensure the area is managed in a way that 
truly takes into account perspectives of national and local 
tribes, multiple stakeholders, and the interests of Utahans.
    This corner of the world is one of the most beautiful on 
Earth, and I hope some day you are able to visit it. The 
culture of these public lands is rich in history, and I am sure 
you will come to love the lands as our family has. It is vital 
that we get the structure and management right, and the 
approach by Representative Curtis, I believe, is the right way 
to do this.
    I thank the Committee for its consideration, and note that 
I ended with 1 second to go.

    [The prepared statement of Mr. Chaffetz follows:]
   Prepared Statement of Jason Chaffetz, a Former Representative in 
                    Congress from the State of Utah
    Chairman, Ranking Member, and members of the Committee, thank you 
for inviting me to testify today regarding H.R. 4532 introduced by the 
second best Congressman to serve from Utah's 3rd Congressional District 
in the 115th Congress.
    As you know, I previously sat on this Committee as I was honored to 
serve in the U.S. House of Representatives for 8\1/2\ years serving 
Utah's 3rd Congressional District. Having represented many parts of 
Utah, I am intimately familiar with the land, the people, and the 
issues.
    I live in Utah. I care about Utah. My wife and I raised our 
children in Utah, and we intend to continue to live in Utah throughout 
our lives. We enjoy the scenic outdoors and regularly take advantage of 
the access we have within a short drive of our home. We enjoy all four 
vivacious seasons and want nothing more than continued access and 
preservation of this beauty in a very unique part of our world.
    Unlike most states in our Union, nearly 70 percent of the state of 
Utah is owned by the Federal and state government. This puts tremendous 
pressure on local communities.
    Most dramatically it affects the way we are able to educate our 
children. In San Juan County, for instance, only 8 percent of the 
county is private property. It is this private property that generates 
property taxes to educate our children. This affects all the residents 
in San Juan County, especially the children of the Navajo Nation.
    Personally, I have fought to improve the Federal commitment to our 
schools, fighting for and securing an increase in appropriations for 
rural school bus routes. Many of you on this Committee supported this 
effort, and I again thank you for the much needed support.
    Another major burden for county government is the emergency 
services needed to support such a massive amount of land. In the case 
of San Juan County they are expected to provide first responder 
services on the Federal land with no reimbursement by the Federal 
Government. With millions of acres in play, you can see how search and 
rescue services can put a massive financial burden on a small county 
budget.
    Oh, by the way, San Juan County is nearly the size of New Jersey. 
It is big, expansive and beautiful.
    The financial burdens for the counties is exasperated by uneven and 
inconsistent funding of PILT (Payment In Lieu of Taxes), but we will 
have to tackle this subject another time.
    The legislation before you today does not convert any public land 
to private property. It does not solve the funding problems and 
challenges, but it does address a challenge long identified by Chairman 
Bishop and keenly recognized by Representative Curtis.

    I will be submitting to the record two letters from Chairman Bishop 
dated February 22, 2013. Here is part of what he wrote to local tribal 
leaders:

    ``After observing and participating in the public lands debate for 
many years, I believe we are in the midst of a paradigm shift. There is 
a growing consensus that a more reasonable, balanced use of the public 
lands can be achieved in Utah. Through conversations with county and 
state officials, tribal leaders, conservation groups, industry, non-
government organizations, and the public. I believe Utah is ready to 
move away from the tired arguments of the past. We have a unique window 
of opportunity to end the gridlock and bring resolution to some of the 
most challenging land disputes in the state.

    In order to strike an appropriate balance between conservation and 
responsible development and use, and to create greater certainty for 
the citizens of Utah and Indian Country, I am pleased to announce that 
I am initiating a process to develop Federal legislation that seeks to 
address many of the issues that have planned public land management in 
eastern Utah.''

    Through the years Rob Bishop and I, along with very capable staff, 
conducted more than 1,200 meetings. Yes, 1,200. Our goal was to achieve 
certainty for the local communities and state, move beyond perpetual 
lawsuits, and maximize local input from the broad cross-section of 
stakeholders. We called our approach the Public Lands Initiative or 
PLI.
    There are 29 counties in Utah but we limited the scope of our work 
to 7 continuous counties in southeastern Utah. We worked with every 
possible stakeholder. This effort included my flying with San Juan 
County Commissioner Rebecca Benally to Flagstaff, Arizona on August 18, 
2015 to meet with Navajo Nation President Begaye to talk about our 
Public Lands Initiative for Utah. I brought up the so-called ``Bears 
Ears'' monument. President Begaye had never heard of Bears Ears nor did 
he have any idea where it was located. His concern then was about 
access for local Navajos--access that is not found with a monument 
designation.
    We were convinced then, and I am convinced today, the stakeholders 
identified in the bill before you today maximizes input, allows for a 
broad discussion, makes the process transparent, and will give the 
public confidence in its outcomes. The areas identified in the 
legislation include no reservation lands.
    I believe the bill put forward by Congressman Curtis is fair, 
inclusive, and necessary. I appreciate the work he has already been 
invested into this important subject. This new legislative effort puts 
all of us in the best possible position to ensure this area is managed 
in a way that truly takes into account the perspectives of national and 
local tribes, multiple stakeholders, and the interests of Utahns.
    This corner of the world is one of the most beautiful on Earth. I 
hope someday you are able to visit. The culture of these public lands 
is rich in history, and I am sure you will come to love these lands as 
our family has. It is vital we get the structure of management right, 
and the approach by Rep. Curtis is the right way to do this.
    I thank the Committee for its consideration and I would be happy to 
answer any questions.

                                 ______
                                 

    Mr. Bishop. You timed that wonderfully. Thank you, 
Congressman. I appreciate it, and it is good to have you back 
here again. Thank you very much.
    All right, he can go back on the first row. We will call up 
Ms. Lopez-Whiteskunk, who is a former Councilwoman of the Ute 
Tribe, and also a former Co-Chair of the Tribal Coalition.
    And you have been here before. We welcome you back again. 
You know the drill. You are recognized for 5 minutes.

STATEMENT OF REGINA LOPEZ-WHITESKUNK, FORMER UTE MOUNTAIN TRIBE 
   COUNCILWOMAN, FORMER BEARS EARS INTER-TRIBAL COALITION CO-
    CHAIR, UTE MOUNTAIN UTE TRIBAL COUNCIL, TOWAOC, COLORADO

    Ms. Lopez-Whiteskunk. Chairman, Ranking Member Hanabusa, 
and members of the Subcommittee, thank you for the opportunity 
to testify on H.R. 4532, the Shash Jaa National Monument and 
Indian Creek National Monument Act. My name is Regina Lopez-
Whiteskunk. I am a former Councilwoman for the Ute Mountain Ute 
Tribe, and a former Co-Chair of the Bears Ears Inter-Tribal 
Coalition. I am duly authorized and appointed by official 
resolution to speak on behalf of the Ute Mountain Ute Tribe.
    The Ute Mountain Ute Tribe is a federally recognized Indian 
tribe with reservation lands in Utah, New Mexico, and Colorado. 
Tribal lands in Utah include the White Mesa community and 
various trust allotment lands along Allen Canyon.
    Bordering these tribal lands are the ancestral homelands of 
the Ute Mountain Ute Tribe that extend far into the Bears Ears 
region. Traces of our ancestors remain in these sacred spaces, 
and deserve protection from looting, off-road vehicles, and 
ongoing efforts to expand uranium mining.
    Protection for thousands of cultural and natural resources 
is warranted and one of many reasons why the Ute Mountain Ute 
Tribe, along with the Hopi Tribe, Navajo Nation, Ute Indian 
Tribe, and Pueblo of Zuni, have joined in forming the Bears 
Ears Inter-Tribal Coalition.
    The Ute Mountain Ute Tribe is concerned about uranium 
mining within and near the Bears Ears region, which poses 
particular threats causing concern for the health and well-
being of tribal members, water and air resources, plants and 
wildlife, and other natural and cultural resources. We, 
therefore, sought and achieved protection of the Bears Ears 
landscape, including the withdrawal of future mineral leasing 
and entry under the mining laws, through a national monument 
designation, as afforded by Presidential Proclamation 9558.
    Each Indian nation knows well that mere consultation, as 
provided by the National Historic Preservation Act, National 
Environmental Policy Act, Archeological Resource Protection 
Act, and numerous other Federal laws, are inadequate for 
managing the cultural landscape and protecting our ancestors. 
We, therefore, sought collaborative management of the national 
monument by crafting the Bears Ears Commission.
    We were successful in acquiring what we strived for. Each 
tribe, as sovereign entities, appropriately had the opportunity 
to designate an official of their choosing to sit on the Bears 
Ears Commission to provide traditional knowledge and expertise 
on how to best manage the lands. This was respectful of tribal 
sovereignty.
    Introduced in tandem with Presidential Proclamation 9681, 
H.R. 4532 legislatively confirms President Trump's improper 
reduction of the Bears Ears National Monument boundaries by 85 
percent. The Ute Mountain Ute Tribe was not consulted in the 
drafting of H.R. 4532, nor was the Ute Mountain Ute Tribe 
afforded an opportunity to testify at the January 9, 2018 
hearing on H.R. 4532.
    Instead of allowing testimony from each sovereign tribal 
government comprising the Bears Ears Inter-Tribal Coalition, an 
individual tribal member that supported the views of the Utah 
delegation was hand-picked, to give the impression that local 
tribes support the bill. That display is actually far from the 
truth. The Ute Mountain Ute Tribe adamantly opposes H.R. 4532.
    Among numerous reasons, the Ute Mountain Ute Tribe opposes 
H.R. 4532, especially with the conception of the tribal 
management council. Nothing about the tribal management council 
would reflect the needs, interest, and expertise of the 
federally recognized Indian tribes holding close cultural ties 
to the Bears Ears landscape. In place of officials duly 
appointed by Indian nations, the tribal management council 
would consist of Federal and state officials and hand-picked 
individual tribal members.
    The Ute Mountain Ute Tribe would be precluded from 
designating an official or tribal leader, or a knowledgeable 
practitioner of the Ute Mountain Ute customs and culture of its 
own choosing. Rather, the task of appointing the individual Ute 
Mountain Ute tribal member to serve on the tribal management 
council would fall on the President after consultation with the 
congressional delegation from the state of Utah. Such 
legislation prevents the Ute Mountain Ute Tribe and other 
Indian nations to self-determine their own destinies, and 
amounts to the failed Federal Indian policies of the 1800s.
    The Ute Mountain Ute Tribe opposes H.R. 4532.
    Thank you for your consideration of our testimony. The Ute 
Mountain Ute Tribe is especially appreciative to the Democratic 
members of the Committee in providing this opportunity for us 
to state our position. Thank you.

    [The prepared statement of Ms. Lopez-Whiteskunk follows:]
 Prepared Statement of Regina Lopez-Whiteskunk, Ute Mountain Ute Tribe
                              introduction
    Chairman McClintock. Ranking Member Hanabusa, and members of the 
Subcommittee, thank you for the opportunity to testify on H.R. 4532, 
the Shash Jaa National Monument and Indian Creek National Monument Act. 
My name is Regina Lopez-Whiteskunk. I am a former councilwoman for the 
Ute Mountain Ute Tribe and the former co-chair of the Bears Ears Inter-
Tribal Coalition. I am duly authorized and appointed by official tribal 
resolution to speak on behalf of the Ute Mountain Ute Tribe.
    The Ute Mountain Ute Tribe is a federally-recognized Indian tribe 
with reservation lands in Utah, New Mexico, and Colorado. Tribal lands 
in Utah include the White Mesa community and various trust allotment 
lands along Allen Canyon. Bordering these tribal lands are the 
ancestral homelands of the Ute Mountain Ute Tribe that extends far into 
the Bears Ears region. Historically, during the winter months various 
bands of Utes would descend from the mountains into the warmer regions 
of the Bears Ears landscape. Traces of our ancestors remain in those 
sacred spaces and are deserving of protection from looting, off-road 
vehicle use, and ongoing efforts to expand uranium mining.
    Protection for the thousands of cultural and natural resources is 
warranted and one of many reasons why the Ute Mountain Ute Tribe, along 
with the Hopi Tribe, Navajo Nation, Ute Indian Tribe, and the Pueblo of 
Zuni, joined in forming the Bears Ears Inter-Tribal Coalition. For the 
Ute Mountain Ute Tribe, uranium mining within or near the Bears Ears 
region poses a unique and particular threat, causing concern for the 
health and well-being of tribal members, water and air resources, 
plants, wildlife, and other natural and cultural resources. We, 
therefore, sought and achieved protection of the Bear Ears landscape, 
including the withdrawal of future mineral leasing and entry under the 
mining laws, through a national monument designation, as afforded by 
Presidential Proclamation 9558.
    Each Indian nation knowing well that mere consultation, as provided 
by the National Historic Preservation Act, National Environmental 
Policy Act, Archeological Resources Protection Act and numerous other 
Federal laws, was inadequate for managing the cultural landscape and 
protecting our ancestors, we therefore sought collaborative management 
of the national monument by crafting the Bears Ears Commission. Through 
countless meetings between the tribes and numerous trips to meet with 
Federal staff, we labored meticulously in arranging for how the Bears 
Ears Commission would contribute to managing the monument. We were 
successful in acquiring what we strived toward. Each tribe, as 
sovereign entities, appropriately had the opportunity to designate an 
official of their choosing to sit on the Bears Ears Commission to 
provide traditional knowledge and expertise on how to best manage the 
lands.
    Despite the Bears Ears Commission's efforts to effectively 
structure and govern its activities, including hiring staff, creating 
by-laws and developing working relationships with Federal staff, 
accomplishments were disrupted by the President's unlawful action in 
purporting to modify the Bears Ears National Monument by instituting 
Presidential Proclamation 9681. Consequently, the Ute Mountain Ute 
Tribe, along with other Indian nations, is engaged in active litigation 
to justly restore protections to over 1 million acres of our ancestral 
homelands.
    Introduced in tandem with Presidential Proclamation 9681, H.R. 4532 
legislatively confirms President Trump's improper reduction of the 
Bears Ears National Monument boundaries by 85 percent. The Ute Mountain 
Ute Tribe was not consulted in the drafting of H.R. 4532, nor was the 
Ute Mountain Ute Tribe afforded an opportunity to testify at the 
January 9, 2018, hearing on H.R. 4532. Instead of allowing testimony 
from each of the sovereign tribal governments comprising the Bears Ears 
Inter-Tribal Coalition, an individual tribal member that supported the 
views of the Utah delegation was handpicked to give the impression that 
``local tribes'' support the bill. That display is actually far from 
the truth. The Ute Mountain Ute Tribe vehemently opposes H.R. 4532.
    Among the numerous reasons the Ute Mountain Ute Tribe opposes H.R. 
4532, we are especially concerned with the conception of the Tribal 
Management Council. Nothing about the Tribal Management Council would 
reflect the needs, interests, and expertise of the federally-recognized 
Indian tribes holding close cultural ties to the Bears Ears landscape. 
In place of officials duly appointed by Indian nations, the ``Tribal'' 
Management Council would consist of Federal and state officials, and 
handpicked individual tribal members. The Ute Mountain Ute Tribe would 
be precluded from designating an official, or a traditional leader, or 
a knowledgeable practitioner of Ute Mountain Ute customs and culture, 
of its own choosing. Rather, the task of appointing an individual Ute 
Mountain Ute tribal member to serve on the Tribal Management Council 
would fall on the President, after ``consultation with the 
congressional delegation from the state of Utah.'' Such legislation 
prevents the Ute Mountain Ute Tribe and other Indian nations to self-
determine their own destinies and amounts to an egregious return to the 
failed Federal Indian policies of the 1800s.
    Under H.R. 4532, the duties of the Bears Ears Commission, along 
with ``affected Indian tribes'' that are excluded from participation on 
the Tribal Management Council, would be merely advisory to Federal and 
state interests. Instead of the Bears Ears Commissioners working with 
the Secretary of the Interior and the Secretary of Agriculture ``on the 
development and implementation of management plans and on management of 
the monument,'' as prescribed in Presidential Proclamation 9558, the 
Bears Ears Commission, under H.R. 4532, would inappropriately have to 
engage with state interests, namely San Juan County Commissioners, in 
regards to tribal concerns and expertise on managing Federal lands. 
This arrangement runs afoul of the unique legal and political 
relationship between Indian nations and the Federal Government.
    Contrary to statements by Utah Representative John Curtis that his 
bill empowers tribes, H.R. 4532 does the opposite. We cannot stress the 
importance of affording Indian nations the opportunity to 
collaboratively manage the lands where our ancestors rest and where 
ceremonies are conducted. H.R. 4532 would effectively deprive Indian 
nations of that opportunity by vesting that authority with a management 
council that specifically lacks involvement of tribal officials duly 
appointed by their respective sovereign tribal governments. H.R. 4532 
would also remove protections for over 1 million acres of the Bears 
Ears cultural landscape. The Ute Mountain Ute Tribe cannot support a 
bill that would legislatively confirm the President's unlawful action. 
Accordingly, the Ute Mountain Ute Tribe opposes H.R. 4532.
    Thank you for your consideration of our testimony. The Ute Mountain 
Ute Tribe is especially appreciative of the Democratic members of the 
Committee in providing this opportunity to state our position.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate that.
    Jason, she beat you, she had 4 seconds remaining.
    Next, we have Tony Small, the Vice Chairman of the Ute 
Business Committee.
    Tony, glad to have you here. You are recognized for 5 
minutes.

STATEMENT OF TONY SMALL, VICE CHAIRMAN, UTE BUSINESS COMMITTEE, 
             UTE INDIAN TRIBE, FORT DUCHESNE, UTAH

    Mr. Small. Members of the Subcommittee, thank you for the 
opportunity to testify on H.R. 4532. I am Vice Chairman of the 
Ute Tribal Business Committee. With me is Business Committee 
member Ed Secakuku.
    The Ute Indian Tribe is a federally recognized tribe. Our 
ancestral lands include the Bears Ears region. We became a 
member of the Bears Ears Inter-Tribal Coalition to promote our 
cultural and sacred resources with Bears Ears National 
Monument.
    The Ute Tribe strongly opposes H.R. 4532, the bill that 
approves Trump's unlawful action attempting to reduce the 
monument by 85 percent.
    The bill also eliminates our role in the management of the 
monument, while promoting the State of Utah and San Juan County 
Board of Commissioners.
    We are thankful to the Subcommittee's Democratic members 
for requesting the second hearing on the bill. At the last 
hearing, all five tribes were forced onto one seat. The tribes 
are committed to working together, but it is important for the 
Subcommittee to hear from each sovereign tribal government.
    At the last hearing, Utah had three witnesses and is well 
represented again. The focus of these hearings on Utah's state 
and county governments, Utah private citizens, and Utah 
lobbying groups makes clear that the purpose of the bill is to 
eliminate tribes in the protection of Bears Ears and its 
sacred, priceless resources. We support and adopt the testimony 
provided by the Inter-Tribal Coalition at the last hearing. The 
testimony opposed the bill and described its many problems.
    At today's hearing, we need to address the untrue and 
misleading statements being made by supporters of the bill.
    First, the local tribes, which are the five tribes here 
today, oppose the bill. Any suggestion otherwise is not true. 
In a recent Salt Lake Tribune article, Congressman Curtis 
falsely claimed the local tribes support the bill. This is not 
true. He cherry-picked individual tribal members for their 
support of the bill. These are private citizens and do not 
represent the federally recognized tribal government of the 
real local tribes.
    Even worse than being untrue, his actions attempt to 
disrupt and undermine our tribal government. His actions make 
no sense, given the U.S. policy of tribal self-determination. 
This is an attack on our sovereignty, and violates the U.S. 
treaty trust, and government-to-government relationship with 
Indian tribes. How would you like it if Russia or France went 
around the U.S. Government to negotiate with private citizens?
    [Slide.]
    Mr. Small. As you can see on the map, we have a long-
standing legal connection to the Bears Ears region. The pink 
area in the southeast corner of the map to the north of San 
Juan River is Royce Map 515, and includes Bears Ears. This is 
one of the Royce maps published by the United States in 1899 to 
show tribal treaty and ancestral lands. The United States 
recognized that Royce Map 515 includes our treaty and ancestral 
lands.
    Second, Congressman Curtis falsely claimed that his 
management council empowers the tribes. His so-called 
management council does not even include the Ute Indian Tribe. 
Cutting us from the management council is not empowering.
    Third, Congressman Curtis claimed that his bill does not 
affect the Bears Ears Commission. This is also misleading. 
Instead of being a primary land manager, the Commission is 
buried under the management council. The bill also limits the 
Commission to an area that is only 10 percent of the original 
monument.
    Finally, at the last hearing, Chairman Bishop used the 
photo for the Ute Tribe bulletin newspaper to claim that he met 
with us to discuss the bill and Bears Ears. This is also not 
true. The date of the bulletin in his photo was July 17, 2015. 
This was more than 2 years before the bill was introduced and 
more than 2 years before Trump unlawfully rescinded the 
monument. In 2015, we met Chairman Bishop to discuss Utah's PLI 
initiative. At that time, we were focused on his proposal to 
take 100,000 acres of our tribal lands and give them to the 
state. We did not discuss any proposal for Bears Ears.
    In addition to countless archeological resources, the Bears 
Ears National Monument was intended to honor tribal voices, 
cultures, and sacred sites. The monument promoted well-being in 
our tribal communities, southeastern Utah, and the United 
States. This bill attacks those purposes and diminishes our 
voices, attacks our governments, and leaves our sacred and 
cultural sites unprotected.
    The Ute Indian Tribe opposes H.R. 4532, and I ask the 
Subcommittee to take up H.R. 4518, which would expand the 
monument to all these areas needing protection. Thank you.

    [The prepared statement of Mr. Small follows:]
 Prepared Statement of Tony Small, Ute Indian Tribe of the Uintah and 
                           Ouray Reservation
                              introduction
    Chairman McClintock, Ranking Member Hanabusa, and members of the 
Subcommittee, thank you for the opportunity to testify on H.R. 4532, 
the Shash Jaa National Monument and Indian Creek National Monument Act. 
My name is Tony Small. I am elected member of the Ute Indian Tribe's 
Business Committee and serve as Vice Chairman of the Business 
Committee.
    The Ute Indian Tribe is a federally recognized tribe. Our 4.5 
million-acre Uintah and Ouray Reservation is in northeastern Utah. Our 
ancestral lands, cultural resources and sacred sites extend into 
central and southern Utah and western Colorado. We became a member of 
the Bears Ears Inter-Tribal Coalition (Coalition) to help protect these 
lands and resources through the establishment of the Bears Ears 
National Monument.
    The Bears Ears Inter-Tribal Coalition includes: the Ute Indian 
Tribe, the Navajo Nation, the Ute Mountain Ute Tribe, the Pueblo of 
Zuni, and the Hopi Tribe. The Coalition worked with Utah Dine Bikeyah, 
a grassroots tribal organization, for nearly a decade for the 
designation of the Bears Ears National Monument and the protection of 
its sacred and priceless cultural and natural resources. We proposed 
that a 1.9 million acre monument be established.
    Ultimately, a 1.35 million acre Bears Ears National Monument was 
designated by President Obama on December 28, 2016 through Presidential 
Proclamation No. 9558. However, on December 4, 2017, President Trump 
issued Presidential Proclamation No. 9681 unlawfully revoking and 
dismantling the Monument and replacing it with two new monuments. These 
two monuments include about 201,397 acres. This is an 85 percent 
reduction that leaves hundreds of thousands of priceless and 
significant cultural, natural, and sacred objects and resources 
unprotected.
    The Ute Indian Tribe remains adamantly opposed to H.R. 4532 which 
would legislatively confirm President Trump's unlawful action. We first 
testified on H.R. 4532 as a part of the Coalition at a Subcommittee 
hearing on January 9, 2018. As noted at that hearing, H.R. 4532 would 
also diminish tribal voices in the management of these cultural and 
natural resources while promoting the voices of Federal agencies, the 
state of Utah and the San Juan County Board of Commissioners. Most 
important, H.R. 4532 attempts to take a monument designated to protect 
and preserve tribal cultural and natural resources and turn it into a 
multi-use area for uranium mining, increased motorized vehicles, and 
increased grazing that would damage these sensitive resources.
    We appreciate the efforts of the Subcommittee's Democratic Members 
to seek this second hearing on H.R. 4532 to provide an opportunity for 
all five of the Coalition tribes to testify. The Coalition represents a 
historic gathering of our tribal nations in support of the significant 
and priceless resources making up the Bears Ears National Monument. 
While we are committed to working together, it is important for the 
Subcommittee to hear and understand the views of the five independent 
and sovereign tribes making up the Coalition.
    At the January 9, 2018 hearing on H.R. 4532, the five tribes were 
forced onto one witness seat while every level of the state of Utah was 
represented, including: the Utah state government, a Utah private 
citizen and a Utah lobbying group. At today's hearing the state of Utah 
is well represented again, including Utah's San Juan County 
Commissioners and another opportunity for the Utah state government. 
The focus of these hearings on the state of Utah, its government 
subdivisions, its private citizens and its lobbying groups are a clear 
indication of the purpose of H.R. 4532--to eliminate tribal voices in 
the protection of Bears Ears National Monument and its sacred and 
priceless resources.
    The Bears Ears Inter-Tribal Coalition's January 9, 2018 testimony 
provided a thoughtful and well-reasoned discussion of the problems with 
H.R. 4532 and why the Subcommittee or Committee should not approve the 
bill. The Ute Indian Tribe incorporates and adopts that testimony here. 
In the reminder of our testimony, we will address issues that have 
arisen since the first hearing.
  claims that h.r. 4532 empowers local tribes are misleading and false
    Chairman Bishop and Congressman Curtis as well as other supporters 
of H.R. 4532 continually make misleading and false claims that they are 
supporting ``local tribes'' or empowering the voices of ``local 
tribes.'' Congressman Curtis most recently made these claims in a 
January 20, 2018 Salt Lake Tribune opinion piece. Nothing could be 
further from the truth. This distortion of the Federal Government's 
treaty, trust, and government-to-government relationship with Indian 
tribes is offensive and damaging.
    The ``local tribes'' Chairman Bishop and Congressman Curtis are 
referring to are individual tribal members cherry-picked by the 
Congressmen for their support of H.R. 4532. These ``local tribes'' are 
simply private citizens expressing their opinion. They do not represent 
the views of federally recognized tribal governments--including the Ute 
Indian Tribe and the other Coalition tribes.
    Even worse, Chairman Bishop and Congressman Curtis' actions are an 
attempt to disrupt and undermine our tribal governments by negotiating 
with individual tribal members. This is an attack on our sovereignty, 
conflicts with the United State's policy of tribal self-determination, 
and violates the Federal Government's treaty, trust, and government-to-
government relationship with federally recognized tribes. This is an 
inappropriate return to the failed policies of the 1800s when the 
United States would divide tribes and pursue its own objectives by 
designating for itself which tribal representatives the United States 
would negotiate. These short-sided and damaging actions stand in the 
way of progress that benefits Bears Ears, the region, and the state of 
Utah. We would expect the full Congress to reject these actions and the 
bill.
    During the January 9, 2018 hearing, Chairman Bishop also falsely 
claimed that a photo from our Ute Bulletin newspaper proved that he had 
met with us to discuss H.R. 4532 or more generally the Bears Ears 
National Monument. The date of the Ute Bulletin shown in his photo was 
July 17, 2015. This was more than 2 years before H.R. 4532 was 
introduced and more than 2 years before President Trump unlawfully 
rescinded and dismantled the Monument.
    On July 17, 2015, Chairman Bishop met with a few members of the Ute 
Indian Tribe's Business Committee, not a quorum, to discuss his Utah 
Public Lands Initiative, not H.R. 4532. While the Public Lands 
Initiative included a proposal for Bears Ears, the July 2015 meeting 
focused on our proposal for trust restoration of lands within our 
Uncompahgre Reservation. Restoration of these lands to trust status 
would provide for local decision making and increased energy 
development in a proven oil field. Unfortunately, Chairman Bishop did 
not include our proposal in his Public Lands Initiative bill and 
instead used the bill to seek the first Indian land grab in more that 
100 years. The meeting did not include any discussion of H.R. 4532 or 
legislative proposals for Bears Ears.
    Let us be clear, Chairman Bishop and Congressman Curtis never 
contacted the Ute Indian Tribe's Business Committee, the tribe's 
governing body, to advise, consult, or assist in the development of 
H.R. 4532. In fact, not a single federally recognized tribal government 
was consulted on the proposals in H.R. 4532. Claiming that they are 
promoting the voices of ``local tribes'' is a disgrace. It is up to 
sovereign tribal governments, not the United States, to select our own 
representatives.
the ute indian tribe and the bears ears inter-tribal coalition are the 
                              local tribes
    During the January 9, 2018 hearing, Chairman Bishop sharply 
questioned whether the Ute Indian Tribe and the Bears Ears Inter-Tribal 
Coalition had a strong and ongoing relationship to the lands and 
resources contained within the Bears Ears National Monument. Chairman 
Bishop's line of questioning misunderstands our long-lasting and vital 
connection to these lands. Our Uintah and Ouray Reservation is in 
northeastern Utah, but we have lived, worked, and prayed in the area 
around Bears Ears for all time. Today we maintain strong cultural 
connections to Bears Ears and its surrounding lands including ongoing 
uses.
    Our connection and legal standing to the lands and resources in the 
area around Bears Ears was long recognized by the Federal Government 
even before the Bears Ears National Monument was designated. In 1899, 
the Government Printing Office published a schedule of Indian land 
cessions by Charles C. Royce including 67 maps outlining those land 
cessions as the second part of the two-part 18th Annual Report of the 
Bureau of American Ethnology--1896-1897, Vol. II. Part 2 was also 
printed as House Document No. 736 of the U.S. Serial Set, 56th 
Congress, 1st Session. This report was part of a series of annual 
reports on Native American issues produced by the U.S. Bureau of 
American Ethnology for the Smithsonian Institution.
    Today, the Department of the Interior and other Federal agencies 
use these ``Royce Maps'' to legally determine which tribes will be 
contacted when a site is discovered under the Native American Graves 
Protection and Repatriation Act (NAGPRA) and for government-to-
government consultation on Federal actions that may impact Indian 
resources. The Royce Map for the state of Utah is attached to our 
testimony as Exhibit A. Bears Ears and its surrounding lands and 
resources is located in the southeast corner of this map, to the north 
of the San Juan River, and included within Royce Map 515. Royce and 
Interior's National NAGPRA Program identify Royce Map 515 as including 
the ancestral lands of the Ute Indian Tribe and a number of other 
tribes.
    The Bears Ears National Monument was designated, in part, to 
celebrate and protect our lasting connections and ongoing uses to the 
lands and resources around Bears Ears. Bears Ears includes our 
ancestral homelands, resources, and spiritual sites that are as 
important to our culture and identity as they ever were. These are both 
legal and cultural connections. The Ute Indian Tribe and the tribes 
making up the Bears Ears Inter-Tribal Coalition are the local tribes. 
In designating the Bears Ears National Monument, President Obama 
recognized this truth.
    the shash jaa tribal management council does not promote tribal 
                               management
    We were shocked by the name of Shash Jaa Tribal Management Council. 
Despite Congressman Curtis' claims in his January 20, 2018 opinion 
piece, nothing about this Council reflects actual tribal management. 
First, the Council does not include the Ute Indian Tribe. Instead, only 
two of the five tribes making up the Bears Ears Inter-Tribal Coalition 
are represented on the Council. Second, the Council consists of three 
representatives who are not required to have any ties to tribal 
governments. Third, the tribal members on the Council are not required 
to be duly elected or appointed representatives of tribal governments, 
which means they will not be authorized tribal government 
representatives. Further to that point, the President will appoint all 
of the members of the Council as opposed to tribal governments. Fourth, 
the Council is required to consult with state and local governments, 
and the public, but is not required to consult with the tribes who hold 
these lands sacred.
    Finally, the most troubling aspect of this ``tribal management 
council,'' is that H.R. 4532 attempts to improperly predetermine the 
tribal representatives who would serve on the Council. It is not up to 
the United States or Congress to select who will represent our tribes. 
This is, again, an inappropriate return to the failed policies of the 
1800s when the United States would divide tribes and pursue its own 
objectives by designating for itself which tribal representatives the 
United States would negotiate. It is up to sovereign tribal 
governments, not the United States, to select our own representatives.
    Curtis also claimed that the original Bears Ears Commission is left 
intact in his bill. However, H.R. 4532 would bury the Commission under 
his so-called ``tribal'' management council that is dominated by 
Federal and state interests. H.R. 4532 would limit and drown out the 
voice of the Bears Ears Commission.
    All of these provisions attempt to treat Indian tribes as merely 
public stakeholders, not as governments with a direct sovereign-to-
sovereign relationship with the Federal Government. This violates 
fundamental principles of Federal Indian law. The United States has a 
treaty, trust, and government-to-government relationship with Indian 
tribes. As specified in the United States Constitution, this 
relationship is exclusive and does not include state governments. H.R. 
4532 must be revised to reflect these important principles of Federal 
law.
  uranium mining, motorized vehicle use, and increased grazing would 
                 damage cultural and natural resources
    Despite provisions of H.R. 4532 purporting to withdraw portions of 
the Monument's lands from entry for mining purposes, the Monument would 
still be subject to and affected by existing claims and leases, 
potential expanded mining, and mining related activities. In addition, 
grazing interests would be given priority and increased motorized 
vehicle use would be permitted. Finally, ghastly looting and grave 
robbing continues to this day throughout Bears Ears and would not be 
deterred by H.R. 4532 which only protects a very small portion of the 
cultural and sacred resources in the area.
    Preventing and addressing these impacts were the primary reason 
that the Ute Indian Tribe and the Coalition sought monument status for 
this area. While we recognize there are appropriate places for resource 
development, including energy development, this is not one of those 
areas. This is an area that must be preserved and protected for its 
cultural, archeological, paleontological, and sacred. Without 
appropriate protection, American citizens and the world would lose the 
opportunity to enjoy one of the most remote and wondrous landscapes 
found anywhere. We would also lose the opportunity to highlight, 
foster, and share our traditional knowledge that is tied to Bears Ears.
  there is no scientific or reasonable basis for eliminating monument 
                              protections
    H.R. 4532 would leave hundreds of thousands of priceless and 
significant cultural, natural, and sacred objects unprotected. There 
are too many objects, sites, and resources left unprotected to list 
them all here. Not to mention the cultural practices and traditional 
tribal intellectual knowledge that would be lost or diminished. There 
is absolutely no rational basis to exclude these sites and objects 
while including the sites and objects that are within the Shash Jaa and 
Indian Creek areas designated by President Trump and H.R. 4532.
    Claims that these objects and sites can be protected under other 
applicable laws like the National Historic Preservation Act or the 
Archeological Resources Protection Act of 1979 are a red herring. If 
these laws provided adequate protections, there would be no need for 
the protections included in President Trump's Proclamation No. 9681 or 
H.R. 4532. Instead, these claims merely expose political decision 
making behind Proclamation No. 9681 and H.R. 4532. Unfortunately, it is 
clear that Proclamation No. 9681 and H.R. 4532 were not based on 
scientific and ethnographic assessments of the resources that would be 
impacted.
    Instead of H.R. 4532, the Subcommittee should be holding a hearing 
on H.R. 4518, the Bears Ears National Monument Expansion Act. H.R. 4518 
would address the President's unlawful action by expanding the Bear 
Ears National Monument to the 1.9 million acres originally proposed by 
the Coalition. As required by the Antiquities Act, that study showed 
that 1.9 million acres was the ``smallest area compatible with the 
proper care and management of the objects to be protected'' and that 
protection was needed under the Antiquities Act. H.R. 4518, developed 
in consultation with tribal governments, would expand the size of the 
Monument to its originally proposed 1.9 million acres to ensure that 
all of its vital and sacred resources are protected in accordance with 
the law.
     indian reservations must be excluded from state land exchanges
    Title III of H.R. 4532 also needs revision. Title III allows the 
state of Utah to exchange its school trust lands located inside the 
Shash Jaa and Indian Creek areas for other lands within the state to 
provide for resource development in support of public schools. However, 
this provision must be revised to exclude lands within Indian 
reservations to prevent impacts to on-reservation Indian resources.
    Our cultural, natural, and sacred resources within our Indian 
reservations are just as important as the resources within the Bears 
Ears National Monument. Our reservation lands were reserved in treaties 
and other agreements to provide a homeland for our tribes. In another 
return to the failed policies of the 1800s, Title III of H.R. 4532 
would allow another Indian land grab where Federal lands lie within our 
reservations. The United States and Congress rejected these policies 
long ago in favor of protecting and restoring Indian reservation lands. 
H.R. 4532 and this extreme proposal should be soundly rejected.
                               conclusion
    The Ute Indian Tribe adamantly opposes H.R. 4532 which would 
legislatively confirm the President's unlawful action in violation of 
the Antiquities Act. H.R. 4532 would dramatically affect some of our 
most important cultural, natural, and sacred resources. Instead, the 
Subcommittee should hold a hearing on H.R. 4518 which has broad support 
and would resolve many of the problems raised today.

    Thank you for your consideration of our testimony.

                                 *****

                               Exhibit A
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

    Mr. Bishop. Thank you.
    Next, we will call up Mr. Carleton Bowekaty--and you are 
going to have to help me if I don't put the right emphasis 
there--Councilman in the Pueblo of the Zuni Nation from New 
Mexico. Was I even close to the pronunciation of your name?
    Mr. Bowekaty. Chairman--Vice Chairman, it is Bowekaty.
    Mr. Bishop. I wasn't even in the same zip code. I 
apologize.
    Mr. Bowekaty. I was in the military. I have heard all 
variations of my last name.
    [Laughter.]
    Mr. Bishop. All right. Thank you for being here. You are 
also recognized for 5 minutes.

  STATEMENT OF CARLETON BOWEKATY, COUNCILMAN, PUEBLO OF ZUNI, 
                        ZUNI, NEW MEXICO

    Mr. Bowekaty. Thank you. Vice Chairman Bishop, Ranking 
Member Hanabusa, and respected members of the Subcommittee, I 
am Carleton Bowekaty, an elected member of the Zuni Tribal 
Council, and the Zuni Tribe's appointed representative on the 
Bears Ears Commission. On behalf of the Zuni Tribe, I want to 
thank you for holding this second hearing on H.R. 4532, and for 
inviting me to testify.
    The Zuni Tribe has almost 13,000 members, the vast majority 
of which live on tribal lands in far western New Mexico. Our 
reservation contains 600,000 acres. However, our aboriginal 
lands, as well as those of our 18 sister pueblos in New Mexico, 
encompass a far greater area.
    In addition to the lands that we aboriginally exercise 
control over, there are other lands that are part of our 
history and culture that even today play an integral role in 
our traditions and religious ceremonies. Bears Ears is one such 
area, and a very important one. It, along with neighboring Mesa 
Verde, is part of the Colorado plateau, the region where our 
ancestors lived before migrating southward into present-day New 
Mexico.
    Zuni has been actively involved in the Bears Ears Inter-
Tribal Coalition since its inception. It is a unique coalition, 
one that has remained focused on our mutual interest in 
ensuring that the remarkable cultural and natural resources 
found on these formerly tribal lands are protected and 
preserved. It was, therefore, entirely appropriate for the 
presidential proclamation creating the Bears Ears National 
Monument, referred to as the Obama proclamation, to have 
established a Bears Ears Commission with representation from 
each of the five tribes so that they can provide guidance and 
recommendations on the development and implementation of 
managed plans and on management of the monument.
    In contrast to the Obama proclamation's respect for the 
tribes' historic and strong connections to Bears Ears and the 
balance it provides to ensure that other interested parties 
have a voice in management issues, H.R. 4532 contains what we 
view as a radical provision giving local politicians effective 
control of management and use decisions.
    The Bears Ears lands, though once controlled and used 
exclusively by tribes in the Southwest, are now Federal lands 
owned by all Americans. So, while no disrespect is intended to 
our local government officials, most of whom work hard to 
better their communities, we recently saw in Oregon and Nevada 
what happens when local residents think they should control 
Federal land for their own benefit in disregard of Federal 
laws.
    I want to avoid repeating the testimony of the tribal 
leaders from the other four coalition tribes, but I do want 
this Subcommittee to know that we stand united, and that Zuni 
supports their substantive testimony.
    We also know that the tribal witnesses here today are the 
duly designated representatives for the five tribes, unlike the 
handful of individuals who have been portrayed as representing 
one or more of the coalition tribes. Differences of opinion on 
major issues like this are inevitable. But let's be honest 
about our differences, and not misrepresent the issues, the 
positions of affected tribes, or those who speak for those 
tribes.
    We are, of course, well aware of the fact that H.R. 4532 
was introduced by Representative Curtis because not everyone 
agrees with the Obama proclamation designating the 1.35 million 
acres of Federal lands as the Bears Ears National Monument. But 
I encourage all to carefully read the Obama proclamation, as it 
presents a thorough, accurate, and compelling justification for 
the establishment of the monument, and provides a balanced 
approach for its future use and management.
    The Zuni and the other tribes that are part of the Inter-
Tribal Coalition had, frankly, hoped for the protection of a 
significantly larger area, 1.9 million acres, but accepted the 
reduced area as a reasonable compromise. However, we cannot 
support a further congressional reduction in the area of the 
monument, much less the drastic reduction proposed by H.R. 
4532, nor can we support legislation that fails to adequately 
recognize the strong historical and cultural interest of tribes 
in the Bears Ears National Monument. Any legislation to modify 
the Bears Ears National Monument should not reduce its acreage 
or diminish the management and policy role of the Bears Ears 
Commission.
    Zuni is not a wealthy tribe, and we don't come to 
Washington often. I am here today at the direction of our 
government and tribal council and at the tribe's sole expense. 
I am here because our people care enormously about the Bears 
Ears National Monument. I am standing united with the tribes 
represented before you today, along with our sister pueblos in 
New Mexico and throughout our country, to express our adamant 
opposition to executive or legislative efforts to abolish or 
reduce Bears Ears.
    I also understand that the organization known as the 
Council of Governors, which includes governors from all 19 of 
the New Mexico Pueblos, will provide the Committee with a 
resolution that recently passed which supports the Bears Ears 
National Monument, opposes President Trump's proclamation 
purporting to rescind the Obama proclamation, and opposes H.R. 
4532.
    Finally, while the Zuni Tribe is appreciative of this 
opportunity to testify on H.R. 4532, we also respectfully urge 
Subcommittee members to schedule a hearing on a much different 
bill concerning Bears Ears, H.R. 4518.
    Thank you for inviting me to testify, and for your 
consideration of my testimony on behalf of the people of Zuni. 
[Speaking Native language.]

    [The prepared statement of Mr. Bowekaty follows:]
 Prepared Statement of Carleton R. Bowekaty, Councilman, Zuni Tribe of 
                      the Zuni Indian Reservation
    Chairman McClintock, Ranking Member Hanabusa, and respected members 
of the Subcommittee, I am Carleton Bowekaty, an elected member of Zuni 
Tribal Council and the Zuni Tribe's appointed representative on the 
Bears Ears Commission. On behalf of the people of the Zuni Tribe, I 
want to thank you for holding this second hearing on H.R. 4532 and for 
inviting me to testify.
    The Zuni Tribe has almost 13,000 members, the vast majority of 
which live on tribal lands in far western New Mexico. Our reservation 
contains 600,000 acres. However, our aboriginal lands, as well as those 
of our 18 sister Pueblos in New Mexico, encompass a far greater area. 
In addition to the lands that we aboriginally exercised control over, 
there are other lands that are part of our history and culture, and 
that even today play an integral role in our traditions and religious 
ceremonies. Bears Ears is one such area, and a very important one. It, 
along with neighboring Mesa Verde, is part of the Colorado Plateau, the 
region that our ancestors lived before migrating southward into 
present-day New Mexico.
   the bears ears inter-tribal coalition and the bears ears national 
                         monument and h.r. 4532
    Zuni has been actively involved in the Bears Ears Inter-Tribal 
Coalition since its inception. It is a unique Coalition, one that has 
remained focused on our mutual interest in ensuring that the remarkable 
cultural and natural resources found on these formerly tribal lands are 
protected and preserved. It was therefore entirely appropriate for the 
presidential proclamation creating the Bears Ears National Monument 
(the ``Obama Proclamation'') to have established the Bears Ears 
Commission, with representation from each of the five tribes, so that 
they can ``provide guidance and recommendations on the development and 
implementation of management plans and on management of the monument.'' 
In contrast to the Obama Proclamation's respect for the tribes' 
historic and strong connections to Bears Ears, and the balance it 
provides to ensure that other interested parties have a voice in 
management issues, H.R. 4532 contains what we view as a radical 
provision giving local politicians effective control of management and 
use decisions. The Bears Ears lands, though once controlled and used 
exclusively by tribes in the southwest, are now Federal lands, owned by 
all Americans. While no disrespect is intended toward local 
governmental officials, most of whom work hard to better their 
communities, we recently saw in Oregon and Nevada what happens when 
local residents think they should control Federal land for their own 
benefit in disregard of Federal laws.
    I want to avoid repeating the testimony of the tribal leaders from 
the other four Coalition tribes, but I do want this Subcommittee to 
know that we stand united, and that Zuni supports their substantive 
testimony. We also note that the tribal witnesses here today are the 
duly designated representatives for the five tribes, unlike the handful 
of individuals who have been portrayed as representing one or more of 
the Coalition tribes. Differences of opinion on major issues like this 
are inevitable, but let's be honest about our differences and not 
misrepresent the issues, the positions of affected tribes, or who 
speaks for those tribes.
    We are, of course, well aware of the fact that H.R. 4532 was 
introduced by Representative Curtis because not everyone agrees with 
the Obama Proclamation designating the 1.35 million acres of Federal 
lands as the Bears Ears National Monument. But I encourage all to 
carefully read the Obama Proclamation, as it presents a thorough, 
accurate, and compelling justification for the establishment of the 
Monument, and provides a balanced approach for its future use and 
management. Zuni and the other tribes that are a part of the Inter-
Tribal Coalition had frankly hoped for the protection of a 
significantly larger area (1.9 million acres), but accepted the reduced 
area as a reasonable compromise. However, we cannot support a further 
congressional reduction in the area of the monument, much less the 
drastic reduction proposed by H.R. 4532, nor can we support legislation 
that fails to adequately recognize the strong historical and cultural 
interests of tribes in the Bears Ears National Monument. Any 
legislation to modify the Bears Ears National Monument should not 
reduce its acreage or diminish the management and policy role of the 
Bears Ears Commission.
                               conclusion
    Zuni is not a wealthy tribe and we do not come to Washington often. 
I am here today at the direction of our Governor and Tribal Council, 
and at the Tribe's sole expense. I am here because our people care 
enormously about the Bears Ears National Monument and stand united with 
the tribes represented before you today, along with our sister Pueblos 
in New Mexico and throughout our country, to express our adamant 
opposition to executive or legislative efforts to abolish or reduce 
Bears Ears. I also understand that the organization known as the All 
Pueblo Council of Governors, which includes governors from all 19 of 
New Mexico's Pueblos, will be providing the Committee with a resolution 
supporting the Bears Ears National Monument, opposing President Trump's 
Proclamation purporting to rescind the Obama Proclamation, and opposing 
H.R. 4532.
    Finally, while the Zuni Tribe is appreciative of this opportunity 
to testify on H.R. 4532, we also respectfully urge Subcommittee members 
to schedule a hearing on a much different bill concerning Bears Ears--
H.R. 4518.
    Thank you for inviting me to testify, and for your consideration of 
my testimony on behalf of the people of Zuni.

                                 ______
                                 

    Mr. Bishop. Thank you very much. I am going to mess up this 
name, as well. Once again, I will apologize in advance. I am 
given a phonetic pronunciation of your name, but that still 
doesn't help.
    So, Clark Tenakhongva, if you will help me on that 
pronunciation, I would appreciate it. You are all the way here 
from Arizona. Thank you for being here. You are a part of the 
Hopi Tribe, on the Hopi Tribal Council. Sir, what is the 
correct pronunciation of your last name?
    Mr. Tenakhongva. Tenakhongva.
    Mr. Bishop. I am still getting the emphasis in the wrong 
part of that, but thank you very much. We appreciate you being 
here. You are recognized for 5 minutes.

  STATEMENT OF CLARK TENAKHONGVA, VICE CHAIRMAN, HOPI TRIBAL 
      COUNCIL, THE HOPI TRIBE, KYKOTSMOVI VILLAGE, ARIZONA

    Mr. Tenakhongva. [Speaking Native language.] Good morning, 
Vice Chairman Bishop, Ranking Member Hanabusa, and members of 
the Subcommittee. Thank you for the opportunity to testify on 
H.R. 4532, Shash Jaa National Monument and Indian Creek 
National Monument Act. I am Clark W. Tenakhongva, a member of 
the Rabbit Tobacco clan, U.S. Army veteran that served in 
Grenada, and Vice Chairman for the Hopi Tribe. I am also the 
Hopi Tribe's Commissioner for the Bears Ears Commission.
    The Hopi Tribe is a sovereign nation recognized by the 
United States. Our reservation is located in northeastern 
Arizona and occupies parts of Coconino and Navajo Counties. Our 
lands are more than 1.5 million acres, and are comprised of 12 
villages on three mesas.
    Our ancestral lands, cultural resources, and sacred sites 
extend into central and southern Utah, western Colorado, and 
New Mexico. We became a member of the Bears Ears Inter-Tribal 
Coalition to help protect these lands and resources throughout 
the establishment of the Bears Ears National Monument.
    The Bears Ears Inter-Tribal Council includes the Hopi 
Tribe, Pueblos Ute Indian Tribe, the Navajo Nation, and the Ute 
Mountain Ute Tribe. We have worked with our traditional leaders 
and grassroots organizations for over a decade for the 
designation of the Bears Ears National Monument to always 
protect its sacred and priceless culture and natural resources.
    We, the people, asked that a 1.9 million-acre monument be 
established. In the end, President Obama designated the 1.35 
million-acre Bears Ears National Monument on December 28, 2016 
through Presidential Proclamation 9558. To our dismay, 
President Trump issued a proclamation on December 4, 2017, 
which cuts the boundaries of the Bears Ears National Monument 
by 85 percent from the 1.35 million acres to 200,000 acres, 
dismantling the Bears Ears National Monument.
    H.R. 4532 seeks to codify this action. The Hopi Tribe 
opposes H.R. 4532 because the bill would, Number one, totally 
exclude the Hopi from the new management councils it creates; 
it diminishes the area that it protected; and it opens it up to 
grazing and motorized vehicles which would detrimentally impact 
this sacred landscape. H.R. 4532 takes away the Hopi Tribe's 
voice at the Bears Ears National Monument and puts our sacred 
sites at risk.
    To the Hopi people, the Bears Ears National Monument is a 
spiritually occupied landscape. For example, the two towers 
near Bluff are called Pokanghoyat, two twin warrior gods. This 
land is a testament of Hopi stewardship evidenced by thousands 
of years of footprints of our ancestral villages, sacred 
springs, migration routes, pilgrimage trails, artifacts, 
petroglyphs, and the physical remains of our buried Hisatsinom, 
our people of long ago, all of which are intentionally left to 
mark the land as proof that Hopi have fulfilled their covenant.
    Hopi migration is intimately associated with the sacred 
covenant between the Hopi people and Maasaw, the earth guardian 
and creator, in which the Hopi people made a solemn promise to 
protect the land by serving as stewards of the earth. In 
accordance with this covenant, the following clans--Katsina, 
Badger, Flute, Parrot, Bow, Greasewood, Bearstrap, Snake, 
Tobacco, and Rabbit--traveled and settled on lands in and 
around southeastern Utah during their long migration to 
Tuuwanasavi, the center of the Earth.
    We, the people of these clans, reside on Hopi today, 
practicing our religion, singing our songs, and living our 
culture, just as our ancestors did at Bears Ears. This sacred 
landscape must be protected and cherished.
    H.R. 4532 would diminish and dissolve the current 
protections that the Bears Ears National Monument provides, 
while also silencing the Hopi Tribe's voice.
    Thank you--[Speaking Native language]--again, for the 
opportunity to testify today. I invite each and every one of 
the Committee to visit the Hopi Reservation and Bears Ears, and 
to hear from our people. [Speaking Native language.]

    [The prepared statement of Mr. Tenakhongva follows:]
 Prepared Statement of Clark W. Tenakhongva, Vice-Chairman of the Hopi 
                                 Tribe
    Chairman McClintock, Ranking Member Hanabusa, and members of the 
Subcommittee, thank you for the opportunity to testify on H.R. 4532, 
the Shash Jaa National Monument and Indian Creek National Monument Act. 
I am Clark W. Tenakhongva, the elected Vice-Chairman of the Hopi Tribe 
and the Hopi Tribe's Commissioner for the Bears Ears Commission. The 
Hopi Tribe appreciates this opportunity to testify to provide the 
Committee with an understanding of our undisputable connection to the 
Bears Ears National Monument, and to object to the new proposed 
management of the Bears Ears National Monument through the December 
Presidential Proclamation and H.R. 4532.
    The Hopi Tribe is a sovereign nation, recognized as such by the 
United States, located in northeastern Arizona. The Hopi Reservation 
occupies part of Coconino and Navajo Counties in Arizona, encompasses 
more than 1.5 million acres, and is made up of 12 villages on three 
mesas. Our ancestral lands, cultural resources, and sacred sites extend 
into central and southern Utah and western Colorado. We became a member 
of the Bears Ears Inter-Tribal Coalition to help protect these lands 
and resources through the establishment of the Bears Ears National 
Monument.
    The Bears Ears Inter-Tribal Coalition includes: the Hopi Tribe, 
Pueblo of Zuni, Ute Indian Tribe, the Navajo Nation, and the Ute 
Mountain Ute Tribe. The Coalition worked with a grassroots tribal 
organization for nearly a decade for the designation of the Bears Ears 
National Monument and the protection of its sacred and priceless 
cultural and natural resources. We proposed that a 1.9 million acre 
monument be established. Ultimately, a 1.35 million acre Bears Ears 
National Monument was designated by President Obama on December 28, 
2016, through Presidential Proclamation No. 9558.
    The Hopi Tribe opposes H.R. 4532. A representative of the Bears 
Ears Inter-Tribal Coalition first testified on H.R. 4532 at a 
Subcommittee hearing on January 9, 2018. As noted at that hearing, H.R. 
4532 would diminish tribal voices in the management of these important 
places. Further, H.R. 4532 emphasizes multi-use management including 
increased motorized vehicle use and increased grazing that would put 
these sensitive places at risk. The Bears Ears Inter-Tribal Coalition's 
January 9, 2018, testimony provided a discussion of the problems with 
H.R. 4532 and why the Subcommittee and Committee should not approve it. 
The Hopi Tribe agrees with that testimony.
                     hopi connection to bears ears

    To Hopi people, the Bears Ears National Monument is a spiritually 
occupied landscape. For example, the two spires near Bluff are 
Pokanghoyat, ``War Twins.'' This land is a testament of Hopi 
stewardship through thousands of years, manifested by the 
``footprints'' of ancient villages, sacred springs, migration routes, 
pilgrimage trails, artifacts, petroglyphs, and the physical remains of 
buried Hisatsinom, the ``People of Long Ago,'' all of which were 
intentionally left to mark the land as proof that the Hopi people have 
fulfilled their Covenant.
    Hopi migration is intimately associated with a sacred Covenant 
between the Hopi people and Maasaw, the Earth Guardian, in which the 
Hopi people made a solemn promise to protect the land by serving as 
stewards of the Earth. In accordance with this Covenant, the Hopi 
Katsina, Badger, Flute, Parrot, Bow, Greasewood, Bearstrap, Snake, 
Tobacco, Rabbit, and Deer Clans traveled through and settled on lands 
in and around southeastern Utah during their long migration to 
Tuuwanasavi, the Earth Center on the Hopi Mesas. The people of these 
clans still reside at Hopi today.
    The Hopi Tribe claims cultural affiliation to ancestral Puebloan 
cultural groups in the Bears Ears National Monument and the Hopi Tribe 
has continually supported the identification and avoidance of 
prehistoric archaeological sites. We consider the prehistoric 
archaeological sites of our ancestors to be ``footprints'' and 
Traditional Cultural Properties. Attached to this testimony are 
pictures of some of the places in the Bears Ears Region that are 
immensely important to us. For instance, the first two pictures are 
pictures of what is known as the ``Perfect Kiva.'' The well-maintained 
kivas from the Hisatsinom--the People of Long Ago--exemplify the 
important cultural and spiritual connection that specific objects 
within Bears Ears provide to the Hopi, among others. Ancestral kivas, 
like those of today, were entered by a ladder stretching from the roof 
down to the center of the floor. Kivas are still used in ceremonies 
today, and one merely has to compare our Tribal Seal to these two 
pictures to understand that we are connected to this place. It is our 
understanding that the ``Perfect Kiva'' will no longer be included 
within the new monument boundaries as proposed by H.R. 4532, and thus 
lose that protection. The other attached pictures are also sites that 
show our connection to this important region.
    The Hopi Tribe is fully aware that over the last few decades the 
archaeological, natural, and geographic resources in the region have 
been severely impacted by looting, industrial development, and 
increased motorized and recreational access, including inappropriate 
all-terrain vehicle use. As a result of that and the importance of this 
region, in 2014 the Hopi Tribe sent a letter to the President 
supporting action to designate the greater Cedar Mesa area as a 
National Monument and the Hopi Tribe participated in the Bears Ears 
Inter-Tribal Coalition that developed the Bears Ears National Monument 
Proposal.
    The purpose of the Antiquities Act is to set aside and preserve 
places like the Bears Ears National Monument for generations to come 
and protect them from destructive exploitation. Through a Hopi Tribal 
Council Resolution in March, 2016, the Hopi Tribe formally supported 
the establishment of Bears Ears National Monument and later in that 
year, the Bears Ears National Monument was established.
    Since then, the Hopi Tribe has participated with the Bears Ears 
Tribal Commission and Federal agencies in the collaborative management 
of the Monument. The Hopi Tribe's participation in the management of 
the Bears Ears National Monument through the Hopi Commissioner is 
critical to maintaining Hopi culture and tradition, as well as to 
protecting and managing Hopi cultural resources, our footprints, and 
our ancestors.
    The Proclamation dated December 4, 2017, cut the boundaries of 
Bears Ears National Monument by 85 percent, from 1.35 million acres to 
201,876 acres, revoking, replacing, and dismantling the Bears Ears 
National Monument. H.R. 4532 seeks to codify this action.
    H.R. 4532 creates new management councils that are not composed of 
tribally elected representatives and excludes the Hopi Tribe 
altogether. As you heard at the hearing on January 9, to which the Hopi 
Tribe was not invited and one tribal spokesperson was forced to testify 
on behalf of five tribes, the Hopi Tribe is a member of the Bears Ears 
Inter-Tribal Coalition that adamantly opposes H.R. 4532. H.R. 4532 
would drastically affect some of our most important cultural resources 
and leave us out of the newly proposed management councils.
    The Hopi Tribe leads the litigation known as Hopi Tribe et. al. v. 
Trump, showing the importance of Bears Ears to us. And therefore, we 
also lead the choir urging you not to legislatively reduce the 
boundaries in any way, and to move ahead on developing the management 
plan for the Bears Ears National Monument with the contributions of the 
Bears Ears Commission of Tribes as originally envisioned by the Hopi 
Tribe and the Inter-Tribal Coalition. The Hopi Tribe cannot work in 
support of a bill, H.R. 4532, that would legislatively confirm the 
President's action dismantling a decade of collaborative work to 
establish Bears Ears National Monument.
    We appreciate the tribal, congressional, and the public support to 
protect Bears Ears National Monument and to maintain the current 
boundaries. Therefore, the Hopi Tribe supports H.R. 4518, Bears Ears 
Monument Expansion Act and Durbin/Udall Senate bill that would expand 
the Bears Ears Monument.
    We invite you to come to Hopi to sit down, eat with us, and meet 
our people. The Hopi people are a people of peace. And so we invite you 
to Hopi to come in and eat, and we can explain to you in more than 5 
minutes the responsibilities of being Hopi and why this place is so 
important to us.
                               conclusion
    The Bears Ears region is immensely important to the Hopi Tribe. It 
is a part of our history and who we are as a people. We have worked 
since time immemorial to uphold our sacred covenant to protect the land 
by serving as stewards of the Earth, and continue to do so today in 
opposing any efforts to abolish and reduce the Bears Ears National 
Monument. We stand united with the tribes represented before you today, 
to express our adamant opposition to this effort to abolish or reduce 
Bears Ears.

                              ATTACHMENTS
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

  Questions Submitted for the Record by Rep. Hanabusa to Mr. Clark W. 
              Tenakhongva, Vice-Chairman of the Hopi Tribe
    Question 1. H.R. 4532 leaves three of the five major tribes 
connected to the original Bears Ears National Monument designation as a 
part of the new management council, which would result in the exclusion 
of the Hopi Tribe.

    You shared with the Committee the significance of the Kivas within 
the President Obama's Bears Ears National Monument designation, 
specifically the one known as the ``Perfect Kiva'' which would no 
longer be within the Bears Ears boundaries if H.R. 4532 were to be 
signed into law. These Kivas serve as a holy place for the Hopi to pray 
and conduct ceremonies, all practices of which were in existence long 
before European colonization. In addition, you have stated that the 
Hopi people have strong ties to this area through thousands of years of 
stewardship along with it being used as migration routes and pilgrimage 
trails for the Hopi people.

    Mr. Tenakhongva, you expressed your concerns regarding the 
religious rights of the Hopi and how the exclusion of these Kivas 
disrupts your right to practicing your religion. Considering that the 
Hopi tribe would no longer be represented in the management and 
oversight of the new Bears Ears National Monument boundaries in 
addition to losing the protection for the ``Perfect Kiva,'' where does 
that leave the Hopi Tribe in regards to the number of places in which 
they can go to practice traditional ceremonies and still have a 
presence in the Utah community?

    Answer. This is in response to your question following the 
testimony on January 30, 2018 of the Hopi Tribe before the Committee on 
Natural Resources, Subcommittee on Federal Lands Legislative Hearing on 
H.R. 4532, the Shash Jaa National Monument and Indian Creek National 
Monument Act.

    Your correspondence states that ``H.R. 4532 leaves three of the 
five major tribes connected to the original Bears Ears National 
Monument designation as a part of the new management council, which 
would result in the exclusion of the Hopi Tribe.''
    Please find enclosed our letter dated February 9, 2018 to 
Representative Curtis regarding another meeting on February 12, 2018 
that states, ``meetings should be held in our communities so you can 
hear from our people about the importance of Bears Ears.'' Removing the 
Hopi Tribe from an integral role in the management of these important 
areas puts western development and beliefs over the beliefs of the Hopi 
people, contrary to the thoughtful process that was originally created 
under the Obama Proclamation. It gives non-Hopi people, that are not 
representatives of the United States, a veto on exactly how these 
places will be managed, without providing the Hopi people with a 
meaningful government-to-government response. When the United States 
abdicates its government-to-government relationship to local 
individuals, it demeans the Hopi Tribe and the historical relationship 
the United States has with the Hopi Tribe, which includes an obligation 
to protect the sovereign rights of the Hopi Tribe.
    Hopi migration is intimately associated with a sacred Covenant 
between the Hopi people and Maasaw, the Earth Guardian, in which the 
Hopi people made a solemn promise to protect the land by serving as 
stewards of the Earth. In accordance with this Covenant, ancestral Hopi 
clans traveled through and settled on the lands in and around the Bears 
Ears National Monument--during their long migration to Tuuwanasavi, the 
Earth Center on the Hopi Mesas. The land is a testament of Hopi 
stewardship through thousands of years, manifested by the 
``footprints'' of ancient villages, sacred springs, migration routes, 
pilgrimage trails, artifacts, petroglyphs, and the physical remains of 
buried Hisat.sinom (the ``People of Long Ago''), all of which were 
intentionally left to mark the land as proof that the Hopi people have 
fulfilled their Covenant.
    The Hopi ancestors buried in the Bears Ears National Monument 
continue to inhabit the land, and they are intimately associated with 
the clouds. These clouds travel out across the countryside to release 
the moisture that sustains all life. This area has been a sacred 
destination for religious pilgrimages since time immemorial. ``The 
clouds, our fathers are calling us,'' the Hopi people say, ``The 
clouds, the spring, the shrine, up above, there's a mesa where they're 
calling us from.''
    The Hopi footprints and clouds in the Bears Ears National Monument 
are part of a living, sacred landscape that nourishes and sustains Hopi 
identity. This landscape is steeped in cultural values and maintained 
through oral traditions, songs, ceremonial dances, pilgrimages, and 
stewardship. As a cultural landscape, the archaeological sites and 
physical terrain of the Monument situates the Hopi people in time and 
space, providing a geographical conception of history and religion that 
connects the past, present and future.
    The landscapes, natural features, place names, archeological sites, 
sacred sites, plants, animals, minerals, and artifacts found in these 
locations are connected to the Hopi people through ceremony, 
traditional histories, and oral traditions. As such, these ethnographic 
resources give meaning to the Monument. Hopi history and cultural 
values associated with ancestral sites and landscapes are deep and 
abiding.
    In response to your question, ``where does that leave the Hopi 
Tribe in regards to the number of places in which they can go to 
practice traditional ceremonies and still have a presence in the Utah 
community,'' enclosed please find our letter dated August 7, 2017, to 
the state of Utah regarding our claim for repatriation and reburial of 
Hopi ancestral human remains in the custody of the state of Utah. We 
have had no response from the state of Utah regarding this claim and, 
therefore, we hereby request the Subcommittee's assistance in inquiring 
of the state of Utah to this ``presence in the Utah community.'' This 
is one example of how the local government treats the traditional 
beliefs of the Hopi Tribe. By removing protections from many important 
places, and giving a veto to local state and county interests over 
those of the sovereign tribes that have historical and ongoing ties to 
this area, the Curtis Bill would clearly signal to all involved that 
the traditional beliefs and practices of the Hopi Tribe are to be 
relegated to an afterthought.
    Therefore, we reiterate that the Hopi Tribe opposes H.R. 4532 and 
we reiterate that it cannot be improved by amendments because it is 
fundamentally flawed in that it would legislatively confirm the 
President's action dismantling a decade of collaborative work to 
establish Bears Ears National Monument. The original monument 
proclamation valued the beliefs and practices of the sovereign tribes 
that have ties to this area, including the Hopi Tribe. We cannot assist 
you in its destruction.
    However, we also reiterate our willingness to answer any other 
questions you may have and our invitation to any member of the 
Committee to the Hopi Reservation to sit down, eat with us, and spend 
more than 5 minutes and one question listening and learning about why 
Bears Ears is so important to the Hopi people. We welcome you!

                                 *****

                              ATTACHMENTS

                                    The Hopi Tribe,
                                        Kykotsmovi, Arizona

                                                   February 9, 2018

Hon. John R. Curtis
2236 Rayburn House Office Building
Washington, DC 20515

    Dear Congressman Curtis:

    We have received the February 8 invitation to meet on February 12, 
2018 to discuss H.R. 4532. Thank you for the invitation, but the Hopi 
Tribe will not be able to send a representative to this meeting.
    As an initial matter, I am Vice-Chairman of the Hopi Tribe, I 
served as the designated representative to testify at the January 30 
hearing in Washington, DC, and I am the Tribe's representative to the 
Bears Ears Commission. Therefore, please direct all future 
correspondence on H.R. 4532 or any issue related to Bears Ears directly 
to me. In addition, please copy my Chief of Staff, Troy Honahnie, Jr. 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a4e5275747b7274737f5a72756a7334746974346f69">[email&#160;protected]</a>, to ensure a prompt reply.
    Second, the Tribe objects to the extremely short notice for the 
meeting, namely two business days for a meeting that would require 
travel. The Tribe is engaged in a great number of important matters at 
this time and cannot rearrange all other pending business to 
accommodate the last-minute request. This challenge is compounded by 
the fact that I would have to travel, again at the Tribe's expense. 
During the January 30, 2018 hearing, I invited you and any member of 
the Committee to the Hopi Reservation to sit down, eat with us, and 
spend more than five minutes listening and learning about why Bears 
Ears is so important to the Hopi people. We would welcome you.
    Third, the tribe objects to the characterization in your invitation 
that San Juan County is ``the community most affected by this ongoing 
debate.'' On the contrary, Hopi people have been associated with Bears 
Ears for thousands of years and as we have stated numerous times, we 
maintain very close cultural and spiritual ties to Bears Ears. From 
that perspective, the Hopi--and indeed all five Tribes in the 
Coalition--are the communities most affected by this ongoing debate. 
Meetings should be held in our communities so you can hear directly 
from our people about the importance of Bears Ears.
    Finally, as Shaun Chapoose stated on behalf of the tribes in the 
first hearing on January 9, and as I reiterated again during the 
January 30 hearing, the Tribe opposes H.R. 4532. It cannot be improved 
by amendments because it is fundamentally flawed in that it would 
legislatively confirm the President's action dismantling a decade of 
collaborative work to establish Bears Ears National Monument. It would 
remove protection from 85% of the area that the Tribe advocated to 
protect. We cannot assist you in its destruction.
    I remain willing to answer any questions you may have, but our 
views on H.R. 4532 have not changed and will not change.

            Sincerely,

                                      Clark W. Tenakhongva,
                                                    Vice-Chairman  
                                              Hopi Representative  
                                            Bears Ears Commission  

                                 ______
                                 

                                    The Hopi Tribe,
                                        Kykotsmovi, Arizona

                                                     August 7, 2017

Shirlee Silversmith, Director
State of Utah, Division of Indian Affairs
250 North 1950 West, Suite A
Salt Lake City, Utah 84116

    Dear Director Silversmith:

    Thank you for your correspondences dated April 4, 2017, regarding 
Official Notification of the Discovery and Analysis of Native American 
Human Remains, Nos. 17-04, 17-05, 17-06 and 17--07.
    Pursuant to Hopi Tribal Council Resolution, H-70-94, the Hopi Tribe 
claims cultural affiliation to prehistoric the Paleoindian, Archaic, 
Basketmaker, Anasazi, and Fremont prehistoric cultural groups in Utah. 
The Hopi Cultural Preservation Office supports the identification and 
avoidance of prehistoric archaeological sites, and we consider the 
prehistoric archaeological sites of our ancestors to be ``footprints'' 
and Traditional CulturaI Properties. Therefore, we appreciate the State 
of Utah, Division of Indian Affair's continuing solicitation of our 
input and your efforts to address our concerns.
    The Hopi Cultural Preservation Office has reviewed the enclosed 
Antiquities Section Reports. Regarding Official Notification of the 
Discovery and Analysis of Native American Human Remains, No. 17-04, the 
enclosed Analysis of Human Remains AS-299 states the remains are from 
Escalante, were found on an ATV trail on private property by the 
landowner, and ``It is likely that the skull was not original to the 
location but had been left by someone after being removed from a 
different location.'' The analysis included radiocarbon dating, and the 
remains date to the Pueblo II period. They have been determined to be 
culturally affiliated to the Ancestral Puebloan or Anasazi culture and 
``the modern Puebloan groups should be afforded an opportunity to 
submit claims on these remains.''
    Therefore, the Hopi Tribe claims cultural affiliation to the human 
remains designated AS-299 and hereby requests the support of the Pueblo 
of Zuni to jointly claim these remains for repatriation and reburial on 
Grand Staircase-Escalante National Monument.
    Regarding Official Notification of the Discovery and Analysis of 
Native American Human Remains, No. 17-05, the enclosed Analysis of 
Human Remains AS-318 and 319 states the remains, a tooth and cranial 
fragment, were transferred from the Hutchings Museum in Lehi subsequent 
to being found in unprocessed collections presumed to be from Ute 
County. The remains are determined to be culturally unidentifiable, and 
likely originated within aboriginal lands of the Ute Tribe. Therefore, 
we defer to the Ute Tribe for the repatriation and reburial of these 
remains.
    Regarding Official Notification of the Discovery and Analysis of 
Native American Human Remains, No.17-06, the enclosed Analysis of Human 
Remains AS-305 states the partial remains of a child were recovered 
while excavating site 42WS2232, described as Pueblo II Virgin Anasazi, 
on private land in St. George. The remains were buried with three 
associated funerary objects including a ceramic jar and two canteens. 
The cultural affiliation section states ``The Virgin Anasazi likely 
ultimately became the Uto-Aztecan Puebloan people of the historic 
period.''
    Hopi people are the Uto-Aztecan people of the historic period. 
However, we also acknowledge the Paiute traditional association or 
cultural affiliation to the Virgin Anasazi earlier identifiable group 
and so we have collaborated with the Paiute bands for the repatriation 
and reburial of culturally unidentifiable remains from Zion National 
Park. Therefore, because these remains were recovered from lands known 
to be aboriginal land of the Southern Paiute, we support the Paiute 
Tribe of Utah for their repatriation and reburial.
    Regarding Official Notification of the Discovery and Analysis of 
Native American Human Remains, No. 17-07, the enclosed Analysis of 
Human Remains AS-301 states the remains were discovered eroding out of 
the side of a wash on private land in Kanab and ``It is clear that the 
remains had been reburied in this location and were not in their 
original burial location.'' The remains were subjected to radiocarbon 
dating and stable isotope analysis resulting in a Pueblo II/III time 
period and maize diet results. They have been determined to be 
culturally affiliated to the Ancestral Puebloan or Anasazi culture and 
``the modern Puebloan groups should be afforded an opportunity to 
submit claims on these remains.''
    Therefore, the Hopi Tribe claims cultural affiliation to the human 
remains designated AS-30l and hereby requests the support of the Pueblo 
of Zuni to jointly claims these remains for repatriation and reburial 
on Grand Staircase-Escalante National Monument.
    We have long reiterated our dissatisfaction with the burial vault, 
and our request that the State of Utah identify a location where human 
remains and their associated funerary objects in the custody of the 
State of Utah can be reburied and protected in perpetuity. We have 
explained that the Hopi Tribe culturally believes Ancient Human Remains 
of migrating Ancient Ancestral Puebloan People should be reburied as 
close as possible to the locations from which they were removed.
    Therefore, in the enclosed letter dated June 12, 2017, and pursuant 
to our enclosed April 17, 2017 intent to repatriate letter, with the 
Bureau of Land Management and Bears Ears National Monument Commission, 
the Hopi Tribe claimed human remains and any associated funerary 
objects designated AS-182, AS-183, AS-236, AS-246, AS-248, AS-249, AS-
250, and AS-303 on behalf of the modern Pueblo groups and the Bears 
Ears National Monument Commission, for repatriation and reburial on 
Bears Ears National Monument.
    In addition, we requested to be provided with a complete inventory 
of all the other Ancestral Puebloan remains in the burial vault at 
Emigration Canyon, and stated our intent to claim all these Ancestral 
Pueblo remains from southeastern Utah on behalf of the modern Pueblo 
groups and the Bears Ears National Monument Commission, for 
repatriation and reburial on Bears Ears National Monument.
    We appreciate you prompt assistance in addressing our requests for 
repatriation. If you have any questions or need additional information, 
please contact Terry Morgart at the Hopi Cultural Preservation Office 
at 928-734-3619 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d1900021f0a0c1f192d05021d0443031e0343181e43">[email&#160;protected]</a> Thank you again for your 
consideration.

            Respectfully,

                              Leigh Kuwanwisiwma, Director,
                                  Hopi Cultural Preservation Office

                                 ______
                                 

    Mr. Bishop. Thank you, sir. Now I am going to call to the 
witness stand, with great pleasure, the Honorable Russell 
Begaye, who is President of the Navajo Nation. President, I 
appreciate the last time we had a chance to talk, and we are 
very honored to have the President of the Navajo Nation joining 
us here from Window Rock, Arizona.
    So, President, you are recognized for 5 minutes.

STATEMENT OF THE HON. RUSSELL BEGAYE, PRESIDENT, NAVAJO NATION, 
                      WINDOW ROCK, ARIZONA

    Mr. Begaye. Thank you, Chairman Bishop, Ranking Members of 
the Committee. My name is Russell Begaye. I am the President of 
the Navajo Nation, and I am also accompanied by Davis Filfred, 
who is the elected council delegate for a majority of the Utah 
chapters.
    One hundred and fifty years ago, Navajo Nation leaders sat 
with Federal officials at Fort Sumner, New Mexico, and signed a 
treaty with the U.S. Government that ended our exile and 
confinement of the Long Walk period. Some of our people, 
however, never went on the Long Walk, and instead took refuge 
at Bears Ears. These people included some of my ancestors. I 
acknowledge that I have learned much about Bears Ears since 
2015. Like many Navajos, I am proud of my connection with Bears 
Ears, and I want the landscape, the burial sites, the cultural 
patrimony preserved for future generations.
    That is why I am here today before Congress, 150 years 
after our people signed a treaty with the Federal Government. I 
am here because 150 years later we must continue to fight to 
honor our treaty, our landscape, and our cultural patrimony for 
future generations. Thank you for holding this hearing on H.R. 
4532, the Shash Jaa National Monument and Indian Creek National 
Monument Act.
    We stand united. The Navajo Nation stands united with other 
tribes at the Bears Ears Inter-Tribal Coalition in opposition 
to this bill. The Navajo Nation was never consulted on H.R. 
4532. Nevertheless, the bill uses our language in its title. In 
addition to providing a misleading bill name to suggest that 
the Navajo Nation supports the bill, H.R. 4532 also 
misleadingly states that its purpose is to create the first 
tribally managed national monument.
    In fact, the monument created by the bill would be managed 
by appointees of President Trump, made in consultation with the 
Utah congressional delegation, and the management council will 
be composed of only a fraction of tribal members. No tribe 
would have an input on the members appointed to the management 
council. The tribal management in this bill is tribal in name 
only.
    In the Antiquities Act, I am the one that selected, with 
approval of the Navajo Nation Council, the person that sits 
today on the Commission. I will not have that opportunity in 
this bill. The Navajo Nation Council unanimously adopted the 
resolution formally opposing H.R. 4532 for several reasons, 
including that.
    The bill was created over the five tribes' clear and united 
position to protect the original monument designation. The bill 
stifles the tribal voice in monument management, and the bill 
eliminates protection for our cultural patrimony, which has 
already been under attack. We want to preserve our cultural 
patrimony for future generations.
    It is important to note that the original monument 
designation was a compromise between inter-tribal proposal and 
the Utah Public Lands Initiative proposal. The Utah delegation 
and county commissioners received most of what they sought in 
their advocacy for the PLI. The final map for the monument 
reflects almost exactly the map the Utah delegation proposed in 
the PLI. Why Utah and county officials now disclaim any 
ownership of the original monument design is mystifying.
    I attended this bill's first hearing and there are some 
statements that I am going to set straight.
    First, one non-Navajo individual stated that the Navajo 
Nation was not consulted prior to the original proclamation. 
This is false. The Navajo Nation was consulted. I, as 
President, was consulted. The Navajo Nation Council unanimously 
supports the original monument.
    Also, at the last hearing, an individual stated that the 
original designation was pushed by special interests from 
outside the Navajo Nation, the Navajo Tribes, our Indian 
tribes, and was therefore not an initiative of the Navajo 
people. This is not the case. The Navajo leadership and our 
grassroots community fully supported and advocated for the 
original designation.
    The only special interests that concern me are those of 
uranium mining interests.
    Thank you, Chairman Bishop, Committee members.

    [The prepared statement of Mr. Begaye follows:]
  Prepared Statement of President Russell Begaye of the Navajo Nation
    The Navajo Nation appreciates the courtesy of the Committee members 
and staff in providing Navajo leadership and the leadership of the 
other tribes of the Bears Ears Inter-Tribal Coalition (the 
``Coalition'') the opportunity to speak on H.R. 4532, the Shash Jaa 
National Monument and Indian Creek National Monument Act. We stand 
united with the other tribes of the Coalition on the subject of this 
hearing.
    The Navajo Nation was never consulted on H.R. 4532, but the bill 
nevertheless uses the Navajo language in its title. In addition to 
providing a misleading bill name to suggest that the Navajo Nation 
supports the bill, H.R. 4532 also misleadingly states that its purpose 
is to ``create the first tribally-managed national monument.'' In fact, 
the miniature monuments created by the bill would be managed by 
appointees of President Trump made in consultation with the Utah 
congressional delegation, and would be composed of only a fraction of 
tribal members. Incredibly, no tribe would have any input on the tribal 
members appointed to the management councils and those individuals 
would not be required to be elected or appointed representatives of the 
five tribes' governments. In essence, this bill's ``tribal-management'' 
is tribal in name only.
    For years, our nation, along with the other Coalition tribes, 
advocated strongly for the protection of the Bears Ears region and its 
unmatched cultural and archaeological resources. The original monument 
the tribes advocated for that was designated by President Obama (the 
``Original Monument'') accomplished much of what we sought. It was 
therefore very disappointing to see and hear the representations made 
at the previous hearing without being provided the chance to address 
them directly to the Committee. So again, thank you for this 
opportunity.

    The Navajo Nation opposes H.R. 4532. On January 18, the 
Naabik'iyati' Committee (the Navajo Nation Council committee of the 
whole) unanimously passed Legislation No. 0015-18, ``An Action Relating 
to Resources and Development Committee and Naabik'iyati' Committee 
Opposing H.R. 4532 Titled `Shash Jaa National Monument and Indian Creek 
National Monument Act'.'' (Attached as Exhibit A). Legislation No. 
0015-18 formally sets forth the Nation's official policy position in 
opposition to H.R. 4532. The legislation specifically objects to H.R. 
4532 for six reasons:

  1.  The bill would codify President Trump's illegal attempt to revoke 
            and replace the original Bears Ears National Monument;

  2.  The reduction in size of the monuments by over 1.1 million acres 
            will leave unprotected countless cultural, natural, and 
            sacred objects;

  3.  The composition of the proposed two management councils may 
            create difficulty in monument management;

  4.  The role of the state of Utah in the monument management will 
            eliminate meaningful government-to-government relations 
            between the Federal Government and the Navajo Nation 
            facilitated previously by the current collaborative 
            management relationship between the Bears Ears Commission 
            and the Federal agencies facilitated by the original 
            proclamation;

  5.  The bill divides the five tribes by not including members of each 
            nation in the management councils and by naming the Shash 
            Jaa monument in only one tribal language;

  6.  The bill includes a Federal-state land exchange provision that 
            could affect tribal reservation lands and only allows for 
            tribal consultation as an avenue for objection to land 
            exchanges.

         the navajo nation's interest in the bears ears region
    The Bears Ears region holds special cultural and historical 
significance for the Navajo people. We believe that the towering spires 
in the Valley of the Gods are ancient Navajo warriors frozen in stone, 
and that the Bears Ears peaks are the top of the dismembered head of a 
bear that stands guard to culturally important Changing Bear Woman. 
Many traditional Navajo ceremonies, practiced since time immemorial, 
continue to take place in the Bears Ears region protected in President 
Obama's Monument. These ceremonies draw on the plants, soils, and other 
items that can be harvested only from the area. For example, certain 
soils from the region possess special protection and empowering 
qualities when harvested and administered in the proper way. The Bears 
Ears landscape also has seminal importance in Navajo songs, prayers, 
and healing ceremonies that have unique and close ties to the Bears 
Ears region, its flora and fauna, and its historical and spiritual 
qualities, including the Hozhooji (Blessingway), which seeks to restore 
and revitalize hozho (harmony, beauty, and balance) for the individual 
for whom the ceremony is performed.
    In addition to its current spiritual significance, Bears Ears has 
great historical significance to the Navajo people. For example, the 
White Canyon region, known as ``Nahoniti'ino'' (hiding place) to the 
Navajo people, is revered because it was a place of refuge in the 
summer of 1864, when Colonel Kit Carson marched over 9,000 Navajos at 
gunpoint 350 miles to Fort Sumner in east central New Mexico as part of 
his scorched earth campaign against the Navajo. Hundreds of Navajos 
died of hunger, exhaustion, or abuse along the journey. Those who 
survived were held as prisoners of war at Bosque Redondo until 1868 
when Navajo leaders negotiated the release and return of their people 
to their homelands pursuant to a treaty. Many Navajos evaded removal 
and conquest by hiding in the Bears Ears region.
    Bears Ears is also home to important figures in Navajo history, 
including Chief Manuelito, (born in the Headwaters Region of Bears 
Ears, north of Cedar Mesa) who was a key figure in the resistance 
against the Long Walk and signatory to the Treaty of 1868. Many 
Navajos, including myself, are also proud to be descended of Navajo 
bands who eluded capture from the U.S. army by hiding in the canyons of 
the Original Monument.
    Navajo people continue to camp in the area and continue to hunt for 
wild game--including elk, mule deer, wild turkeys, and rabbits--as they 
have done since time immemorial. Other Navajo people access the lands 
to forage for native plants such as pinon nuts, wild potatoes, wild 
onions, spinach, turnips, and sumac berries. Navajo people also 
continue to gather firewood, grasses for traditional basket-weaving, 
and logs for traditional structures. Navajo medicine people also 
harvest soils and medicinal plants such as sage, juniper and mountain 
tobacco, all of which are important in numerous Navajo ceremonial 
practices. These uses create a connected, living landscape. The many 
uses of the Bears Ears region support the traditional Navajo way of 
life, not only for those that came before us, but also for Navajos 
today while we strive to protect the land for our future generations.
    We know the Hopi Tribe, Ute Mountain Ute Tribe, Zuni Tribe, and the 
Ute Indian Tribe similarly revere the Bears Ears. We have fought 
together to protect this landscape because within it lives our peoples' 
histories and our futures.
    The original President Obama designation of the Bears Ears region 
as a National Monument reflected the many hours our five nations spent 
working with executive branch staff to explain the significance and 
extent of tribal resources in the Bears Ears region. The Original 
Monument assured us that many of our cultural and historic sites and 
objects would finally receive proper protection. While the monument 
boundaries were not as large as we had advocated for, the Bears Ears 
landscape remained largely intact despite the compromise the Obama 
administration made between what we sought and what the Utah delegation 
sought in the failed Public Lands Initiative (``PLI''). Indeed, the 
Utah delegation and the San Juan County Commissioners received most of 
what they sought in their advocacy for the PLI as can be seen in the 
final map for the Monument, which reflects almost exactly the map the 
Utah delegation proposed in the PLI (maps attached as Exhibit B). Why 
Utah and County officials now disclaim any ownership of the Original 
Monument design is mystifying.
    We were also encouraged that the Navajo Nation and the other 
Coalition tribes would obtain a meaningful role in managing the 
Original Monument, thus restoring our connection to those lands. We 
were extremely disappointed when Secretary Zinke provided his lop-sided 
inquiry into the Monument (granting unfettered access to the Utah 
delegation and County officials, and providing little over an hour to 
the tribes, in sharp contrast to a 4-day excursion the Secretary had 
with the San Juan County Commissioners). We were even more disappointed 
when President Trump ignored our requests to meet with him regarding 
Bears Ears to explain its significance to the Navajo people, and 
barreled forward with a proclamation to shrink Bears Ears National 
Monument to an appalling 15 percent of its original size--all while 
being aware that the Navajo Nation opposed any reduction in the size of 
the Monument. This was an act of great disrespect to the importance of 
the Bears Ears region to the Navajo Nation and the Navajo people.
                               h.r. 4532
    The bill being considered today, H.R. 4532, is a threat to the 
Bears Ears landscape equivalent to President Trump's proclamation. This 
is not a bill designed to help protect the lands for the tribes; it is 
a bill that provides near-exclusive control of these Federal lands in 
the state and local counties' hands and gives only lip service to 
tribal interests. This bill appears to be an opportunity for the state 
to control natural resources on Federal lands rather than a sincere 
effort to include tribes in land management. Indeed, it was a bill 
developed with no consultation from our tribal governments, yet, it is 
being touted as providing tribal co-management.
    During the first hearing on H.R. 4532 and while Chairman Bishop was 
speaking, several images were put up on the screen to suggest tribes 
were consulted during the drafting of the bill. One of the images was a 
picture of former Representative Jason Chaffetz with Navajo Nation 
President Russell Begaye and Vice President Jonathan Nez. This picture 
was not taken during any consultation or meeting on H.R. 4532, and 
Navajo Nation leadership was not asked to provide any input on the bill 
prior to its introduction. Representative Curtis, the sponsor for H.R. 
4532, was not even in office when the picture of Representative 
Chaffetz and the Navajo leadership was taken.
    Also during the first hearing on this bill, two other 
misrepresentations were raised that must be refuted. First, one non-
Navajo individual stated unilaterally that the Navajo Nation was not 
consulted prior to the original proclamation. This is false. The Navajo 
Nation was consulted, I was consulted, and our Navajo Nation Council 
unanimously supported the Original Monument designation even prior to 
the issuance of the original proclamation. In fact, the Navajo Nation, 
along with the other four tribes advocated for an even larger monument 
designation prior to designation.
    Second, that individual stated that the original designation was 
pushed by ``special interests'' and was therefore not an initiative of 
the Navajo people. Again, this is not the case. The Navajo Nation 
elected leadership and our grassroots community fully supported and 
advocated for the original designation. Attached to this testimony are 
resolutions in support of the Original Monument from the Navajo Nation 
Council, the Naabik'iyati' Committee, and the Navajo Utah Commission 
(Exhibit C). The Original Monument designation was supported by the 
Navajo Nation and our Utah chapters.
    Broadly, H.R. 4532 retains the same failing as the Trump 
proclamation: it does not protect the Bears Ears landscape in a way 
that is meaningful and lasting, and it leaves the landscape as a 
disconnected web of management parcels. For example, the Original 
Monument designation protected the Valley of the Gods area from 
extractive development--H.R. 4532 does not for the period between the 
Trump Proclamation and passage of the bill. H.R. 4532 allows for 
extensive uses and development of land between the small, protected 
areas, greatly increasing the risk to cultural sites, traditional use 
areas, and, more generally, a healthy Bears Ears ecosystem, from the 
activities that may occur between these areas. It is no defense that 
some of these lands that fall outside of the protections of H.R. 4532 
may remain in protected status because these protections are limited in 
area and in scope. Just as it was critical to protect the greater 
Yellowstone area to retain the character of that landscape--not just 
the individual geysers or hot springs--the Bears Ears region should be 
protected as a whole landscape or we risk losing the character and 
spiritual significance of it.
    Further, the legislation gives only passive attention to the 
interests of the Navajo Nation and the other Coalition tribes in 
monument management. The Original Proclamation established the Bears 
Ears Commission, a group made up of representatives from and chosen by 
the five tribes, charged with assisting directly the Secretaries of 
Interior and Agriculture with management recommendations for the 
monument. But rather than utilize the Bears Ears Commission's expertise 
in a similar capacity, H.R. 4532 would subordinate the Bears Ears 
Commission input below new management councils chosen without any 
tribal government input. These councils would be made up of individuals 
appointed by the President, including one Federal agency official, two 
members of the San Juan County Commission of Utah, and hand-picked 
tribal members (not tribal officials). The four tribal representatives 
on the Shash Jaa Tribal Management Council would be limited to only two 
tribes, not the five represented on the Commission, and would make up 
just over half of the Council. The one tribal representative on the 
Indian Creek Management Council would not have to be from any of the 
five tribes represented on the Commission, and would be only \1/5\ of 
the Indian Creek Management Council. Importantly, the tribes would not 
have a say in who was appointed to the management councils to speak on 
behalf of the tribes. To call these Councils ``tribal,'' and the 
monuments they would manage ``the first tribally managed national 
monuments,'' is an affront to tribal sovereignty and an insult to the 
intelligence of anyone who has read the bill. The Navajo Nation hoped 
that modern Federal Indian policy would have rejected, not endorsed, 
such practices.
    To be very clear, H.R. 4532 is not a tribal co-management bill 
because none of the tribes with cultural and historic ties to the Bear 
Ears region support the bill nor is there a mechanism for their 
participation in the monuments' management councils. The management 
structure of this bill buries the input of the Bears Ears Commission--
the true voices of the five tribes, chosen by the five tribes--under a 
monument management council likely chosen to be hostile to the 
Commission's interests. The original Bears Ears framework honored 
tribal sovereignty by providing the Commission direct government-to-
government communication with the Secretaries of Interior and 
Agriculture, the tribal trustees, to effectuate monument management. 
Here, H.R. 4532 would charge not cabinet-level government officials 
with this important duty, but hand-selected county commissioners, non-
specific Federal officials, and non-specific individual tribal 
citizens. This does not reflect a true commitment to tribal sovereignty 
and it concerns the Navajo Nation that this Congress is willing to even 
consider an abdication of the trust relationship in this bill to a 
primarily non-tribal and non-Federal council.
    Although H.R. 4532 relies on the original Obama Proclamation to 
provide important consultation rights to tribes--such as ``regularly 
and meaningfully engaging'' with the Bears Ears Commission, in 
``carefully and fully'' considering the Commission's expertise, and 
soliciting information and proposals from tribes ``to integrate Native 
American traditional and historical knowledge and special expertise 
into the management plan''--implementation of the tribes' 
recommendations relies on the discretion of the monument management 
council appointed by the President in coordination with the Utah 
congressional delegation, both fierce opponents of the monument's 
designation.
                               conclusion
    The Navajo Nation respectfully opposes H.R. 4532 because it fails 
to honor the five tribes that worked to establish the Bears Ears 
National Monument. Additionally, the bill fails to reflect a 
fundamental understanding of tribal sovereignty and instead reflects a 
disregard for the cultural, historical, and religious patrimony we seek 
to protect in the Bears Ears region.

                                 *****

            EXHIBIT A--2018 NAVAJO NATION COUNCIL RESOLUTION

                                                           NABIJA-05-18

       RESOLUTION OF THE NAABIK'IYATI' STANDING COMMITTEE OF THE

             23RD NAVAJO NATION COUNCIL--Fourth Year, 2018

                               AN ACTION

RELATING TO RESOURCES AND DEVELOPMENT COMMITTEE AND NAABIK'IYATI' 
COMMITTEE OPPOSING H.R. 4532 TITLED ``SHASH JAA NATIONAL MONUMENT AND 
INDIAN CREEK NATIONAL MONUMENT ACT''
WHEREAS:

  A.   The Navajo Nation established the Resources and Development 
            Committee (``RDC'') as a Navajo Nation Council standing 
            committee and as such empowered RDC with oversight of land, 
            environmental protection and cultural resources and 
            authority to review and recommend resolutions to the 
            Naabik'iyati' Committee and Navajo Nation Council to 
            accomplish or impact the Committee purpose. See 2 N.N.C. 
            Sec. Sec. 164(A)(9), 500(C), 501(B)(4)(a) (2015); See also 
            CO-45-12.

  B.   The Navajo Nation established the Naabik'iyati' Committee as a 
            Navajo Nation Council standing committee and as such 
            empowered Naabik'iyati' Committee to coordinate with all 
            committees, Chapters, branches and entities concerned with 
            all Navajo appearances and testimony before Congressional 
            committees, and departments of the United States 
            government. See 2 N.N.C. Sec. Sec. 164(A)(9), 700(A), 
            701(A)(8) (2015); See also CO-45-12.

  C.   The Navajo Nation has a government-to-government relationship 
            with the United States of America, Treaty of 1868, Aug. 12, 
            1868, 15 Stat. 667.

  D.   In Proclamation 9558 of December 28, 2016, President Barack 
            Obama exercised his authority under section 320301 of Title 
            54, United States Code (the Antiquities Act), and 
            established the Bear Ears National Monument located in the 
            state of Utah. The Proclamation reserved approximately 1.35 
            million acres of federal land to be protected and managed 
            by the Department of the Interior's Bureau of Land 
            Management and Department of Agriculture's United States 
            Forest Service. The Proclamation also acknowledged the 
            centuries of habitation of the area by indigenous peoples, 
            the protection it provided to Navajo people during the Long 
            Walk to Fort Sumner, and the profound sacredness of the 
            land encompassing the Bears Ears National Monument to the 
            Navajo Nation and other surrounding Native American tribes. 
            In addition to the historical and cultural importance of 
            the area, the Proclamation also established the Bears Ears 
            National Monument for the protection of including but not 
            limited to, various vegetation, geology, topography and 
            ecology found within. The Proclamation also established the 
            Bears Ear Commission, comprised of tribal leaders, to 
            provide guidance and recommendation in the development and 
            implementation of the Monument's management plans. See 
            Proclamation No. 9558, 82 Fed. Reg. 3, 1139 (Jan. 5, 2017) 
            attached hereto as Exhibit A.

  E.   In Proclamation 9681 of December 4, 2017, President Donald Trump 
            unlawfully attempted to revoke the Bears Ears National 
            Monument established in Proclamation 9558 and attempted to 
            create two new smaller monuments at Indian Creek and Shash 
            Jaa that combined equal only 15 percent of the original 
            1.35 million-acre landbase of the Bears Ears National 
            Monument. See Proclamation No. 9681, 82 Fed. Reg. 235, 
            58081 (Dec. 8, 2017) attached hereto as Exhibit B.

  F.   On December 4, 2017, H.R. 4532 titled ``Shash Jaa National 
            Monument and Indian Creek National Monument Act'' was 
            introduced to the House of Representatives. H.R. 4532 seeks 
            to void and nullify Presidential Proclamation 9558 by 
            President Barack Obama. See H.R. 4532, 115th Cong. (2017) 
            attached hereto as Exhibit C.

  G.   The Bears Ears Inter-Tribal Coalition is comprised of various 
            Indian tribes including the Navajo Nation, represented by 
            The Honorable Davis Filfred, The Hopi Tribe, The Ute Indian 
            Tribe, Ute Mountain Ute Tribe and the Zuni Tribe.

  H.   The Navajo Nation recognizes that the area known as Bears Ears 
            National Monument is of great significance to other Indian 
            tribes such as the Hopi, Zuni, and Ute.

  I.   The Navajo Nation has historical, cultural, and economic 
            connections to the area known as the Bears Ears National 
            Monument that predate Utah statehood in 1896. Association 
            with the Bears Ears area by the Navajo people is evidenced 
            by oral histories, ruins, and the continued utilization of 
            the resources located within the vicinity of Bears Ears.

  J.   The Navajo Nation opposes H.R. 4532 for the following reasons:

          1.   The Act will codify the unlawful actions set forth in 
        Presidential Proclamation 9681 and thereby reduce the landbase 
        of the Bears Ears National Monument by more than 1,121,000 
        acres as established by President Barack Obama in Presidential 
        Proclamation 9558 to approximately 142,337 acres for the 
        ``Shash Jaa National Monument'' and approximately 86,447 acres 
        for the ``Indian Creek National Monument'';

          2.   The reduction of the Bears Ears National Monument will 
        leave countless cultural, natural, and sacred objects 
        unprotected;
          3.   The Act will create a management council composed of 
        both proponents and opponents of the Bears Ears National 
        Monument thereby creating potential imbalance and gridlock to 
        any successful coordination of management of the national 
        monument;

          4.   The Act will eliminate meaningful government-to-
        government relations between tribes and the federal government 
        facilitated by the Bears Ears Commission by imposing the State 
        of Utah as a significant barrier between the two;

          5.   The Act will impose a division between affected tribes 
        as evidenced in the imbalance of tribal representation on 
        management boards and the use of one indigenous language over 
        the others in the naming of the national monument;

          6.   The Act includes a land exchange provision that has the 
        potential to affect tribal reservation lands and only allows 
        for tribal consultation as an avenue for objection to land 
        exchanges between the federal government and the State of Utah.

          See The Shash Jaa National Monument and Indian Creek National 
        Monument Act: Hearing on H.R. 4532 Before the U.S. House of 
        Representatives Comm. on Natural Resources, 115th Cong. (2018) 
        (Testimony of the Bears Ears Inter-Tribal Coalition) attached 
        hereto as Exhibit D.

THEREFORE, BE IT RESOLVED:

  A.   The Navajo Nation hereby opposes H.R. 4532 titled ``Shash Jaa 
            National Monument and Indian Creek National Monument Act'' 
            because H.R. 4532 seeks to congressionally nullify 
            Presidential Proclamation 9558 and reduce the landbase of 
            the Bears Ears National Monument.

  B.   The Navajo Nation hereby authorizes the President of the Navajo 
            Nation, and the Navajo Nation Washington Office, and their 
            designees, to advocate the Navajo Nation's opposition to 
            H.R. 4532 titled ``Shash Jaa National Monument and Indian 
            Creek National Monument Act'' and to advocate for 
            acknowledgment of the lawful designation of the full 1.35 
            million acre-monument established in Presidential 
            Proclamation 9558, as well as swift implementation of the 
            collaborative management approach described therein.

                             CERTIFICATION

I hereby certify that the foregoing resolution was duly considered by 
the Naabik'iyati' Committee of the 23rd Navajo Nation Council at a duly 
called meeting in Window Rock, Navajo Nation (Arizona), at which a 
quorum was present and that the same was passed by a vote of 12 in 
Favor and 00 Opposed, on this 18th day of January, 2018.

                              LoRenzo C. Bates, Chairperson
                                          Naabik'iyati' Committee  

Motion: Honorable Leonard H. Pete

Second: Honorable Jonathan Perry

Chairperson Bates not voting

                                 *****

                               EXHIBIT B

          Bears Ears National Monument and other proposals for

                     protecting the Bears Ears area
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               EXHIBIT C

                                                           NABIMA-13-15

            RESOLUTION OF THE NAABIK'IYATI' COMMITTEE OF THE

                         NAVAJO NATION COUNCIL

              23rd Navajo Nation Council--First Year 2015

                               AN ACTION

RELATING TO THE RESOURCES AND DEVELOPMENT COMMITTEE AND THE 
NAABIK'IYATI' COMMITTEE; SUPPORTING THE UTAH DINE BIKEYAH CONSERVATION 
PROPOSAL FOR THE FEDERAL DESIGNATION OF BEAR'S EARS NATIONAL 
CONSERVATION AREA/NATIONAL MONUMENT IN SAN JUAN COUNTY, UTAH, TO 
PROTECT NATIVE RIGHTS AND INTERESTS ON FEDERAL LANDS FOR FUTURE 
GENERATIONS
WHEREAS:

   1.   The Navajo Nation Council is the governing body of the Navajo 
            Nation. 2 N.N.C. Sec. 102(A). All powers not delegated are 
            reserved to the Navajo Nation Council. 2 N.N.C. 
            Sec. 102(B). The Navajo Nation Council shall supervise all 
            powers delegated. 2 N.N.C. Sec. 102(C).

   2.   The Naabik'iyati' Committee is one of five standing committees 
            of the Navajo Nation Council and is comprised of all 
            twenty-four members of the Navajo Nation Council. The 
            Committee is authorized to assist and coordinate all 
            requests for information, appearances and testimony 
            relating to proposed county, state and federal legislation 
            impacting the Navajo Nation. 2 N.N.C. Sec. Sec. 180 and 
            701(A)(6).

   3.   The Navajo Nation includes communities in San Juan County, 
            Utah; these communities depend on federal lands and 
            resources within San Juan County, Utah; a copy of a 
            Memorandum of Understanding between the Utah Dine Bikeyah, 
            A Utah Non-Profit Corporation and the Navajo Nation 
            Division of Natural Resources is attached as Exhibit B; and

   4.   The Navajo Nation members occupy a special status as both U.S. 
            citizens and members of the Navajo Nation whose ancestral 
            lands encompass all of San Juan County; and

   5.   Bear's Ears area within San Juan County, Utah, is part of the 
            proposed National Conservation Area/National Monument to 
            consist of 1.9 million acres and would include additional 
            Wilderness units within and outside of its boundary. This 
            region is the ancestral home of many Southwestern Native 
            American Tribes, including the Navajo, Hopi, Zuni, Acoma, 
            Zia, and Jemez Pueblos along with the Ute Mountain, 
            Southern, and Uintah Ouray Utes, the San Juan, Kaibab, and 
            Utah Paiute Tribes and the Jicarilla Apache Tribes which 
            assert their affiliation, occupation and enduring use of 
            these lands. The Bear's Ears region is also the birthplace 
            of Navajo Headman Manuelito; and

   6.   The proposed National Conservation Area/National Monument is 
            bordered on the west by the Colorado River and on the south 
            by the San Juan River and the Navajo Nation; the proposed 
            National Conservation Area/National Monument is 
            characterized by prodigious topographic diversity and 
            striking landforms containing intricately rich ecological 
            systems; the Navajo and other Tribes depend upon the land 
            within the proposed National Conservation Area/National 
            Monument to sustain their traditional livelihoods and 
            cultural practices. Cedar Mesa, the proposed National 
            Conservation Area/National Monument's centerpiece, offers 
            sprawling vistas of Comb and Butler Washes, and extends 
            beyond to Moki, Red, Dark, Grand Gulch, and White canyons 
            that each support verdant ribbons of riparian habitat. 
            Desert bighorn sheep grace the lower desert lands while the 
            11,000 foot Abajo Mountains host forests of ponderosa pine, 
            spruce, fir and aspen, providing a home to mule deer, elk, 
            black bear and mountain lion, sacred icons of the mesa's 
            original peoples. Paramount for the Navajo, the majority of 
            the regions inhabitants, is the proper management of the 
            proposed National Conservation Area/National Monument's 
            native plants and wildlife that are food, shelter and 
            medicine and its cultural sites that are central to their 
            spiritual practices; and

   7.   This region contains unsurpassed cultural and paleontological 
            resources; the proposed National Conservation Area/National 
            Monument is world renowned for the integrity and abundance 
            of its archaeological resources. Six cultural special 
            management areas are within the proposed National 
            Conservation Area/National Monument boundaries: Alkali 
            Ridge National Historic Landmark, the Hole-in-the-Rock 
            Historical Trail and the Grand Gulch, Big Westwater Ruin, 
            Dance Hall Rock, Sand Island Petroglyph Panel, the 
            Newspaper Rock Petroglyph Panel, and the Butler Wash 
            Archaeological District National Register site. Also 
            occurring in the proposed National Conservation Area/
            National Monument's 19 distinct geologic units are 
            scientifically significant vertebrate and non-vertebrate 
            paleontological resources that are particularly abundant in 
            the Cedar Mountain, Burro Canyon, Morrison, and Chinle 
            Formations; and

   8.   The proposed National Conservation Area/National Monument has 
            been inhabited for more than 12,000 years by multiple 
            indigenous cultures, which crossed, and built civilizations 
            on these lands. At the Lime Ridge Clovis site is evidence 
            of Paleoindian occupation and the archaeological record 
            indicates widespread use between 6000 B.C. and A.D. 100 by 
            Archaic Peoples. Possessing numerous Archaic Period sites 
            of varying size and complexity are Cedar Mesa, Elk Ridge, 
            and Montezuma Canyon. While other notable sites include 
            Alkali Ridge, Cowboy Cave, Old Man Cave, and Dust Devil 
            Cave. The heaviest occupation of the proposed National 
            Conservation Area/National Monument lands was perhaps by 
            the Formative Period Peoples (AD 100-AD 1300) who left very 
            large numbers of archaeological sites ranging from small 
            lithic scatters to large highly complex village sites; and

   9.   The proposed National Conservation Area/National Monument 
            includes Bureau of Land Management Wilderness Study Areas 
            and lands with Wilderness Characteristics and U.S. Forest 
            Service Roadless Areas. Vast, remote desert mesas cut by 
            sheer walled serpentine canyons provide unparalleled 
            solitude and scenic quality that is comparable to or 
            exceeds those found in nearby national parks and monuments, 
            such as Canyonlands, Arches, Grand Staircase, Natural 
            Bridges, Hovenweep, and Mesa Verde; and

  10.   Priority Management values to protect within the proposed 
            National Conservation Area/National Monument are: 
            archaeological, wildlife, natural and scenic resources. An 
            essential aspect of the proposed National Conservation 
            Area/National Monument's management is to better protect 
            these resources and to ensure their ongoing and sustainable 
            use; and

  11.   Native Americans have unique and important cultural and 
            historical ties to the land, its wildlife and other natural 
            resources; and the Navajo people have traditional ties to 
            this particular landscape for hunting, medicinal herbs, 
            food gathering, firewood gathering and the grazing of 
            livestock; and

  12.   Native Americans have shown quality and excellence in managing 
            lands and natural resources to protect the cultural 
            integrity of the homeland of Native peoples; and

  13.   These areas are under constant threat of cultural vandalism, 
            looting of Native cultural sites, indiscriminate off road 
            vehicle use that damages areas sacred to Native peoples, 
            energy development footprints that negatively impact lands 
            of historic and cultural importance, and general 
            degradation of wildlife and plant habitats of importance to 
            Native traditional practices; and

  14.   To prevent this rapid destruction of lands in the San Juan 
            County region important to Native peoples, formal 
            protection as a national conservation area or national 
            monument is required; and

  15.   Formal protection of the area as a National Conservation Area/
            National Monument will provide important consistency and 
            quality to management of these lands, and define principles 
            of management that will positively affect Native values on 
            these lands in the following ways:

          A.   Protection will be permanent, part of a national system 
        of protected lands that carry strong and clear legal 
        definitions of the primacy of conservation of cultural, 
        historical and ecological values that define Native connections 
        to these lands.

          B.   Protection as a national conservation area or national 
        monument creates important opportunities for Native American 
        co-management of these resources and increased funding for 
        protection with an emphasis on conservation and preservation of 
        the region's cultural and natural resources.

          C.   Protection should be at the largest landscape level 
        possible, providing connectivity of wildlife and plant 
        habitats, ecological integrity of the region and be 
        comprehensive in its protection of Native sacred sites, which 
        cannot be considered out of the context of the larger 
        landscape.

          D.   Protection of the region as a national conservation area 
        or national monument will be a top priority for concerned 
        federal agencies, with public involvement and prioritization of 
        staffing, resources and cooperation with Native peoples.

  16.   It is in the best interest of the Navajo Nation to support the 
            federal designation of 1.9 million acres in San Juan 
            County, Utah, as the Bear's Ears National Conservation 
            Area/National Monument. Resolutions in support of the 
            federal designation are attached as Exhibit A.

THEREFORE BE IT RESOLVED, THAT THE NAVAJO NATION COUNCIL'S 
NAABIK'IYATI' COMMITTEE EXTENDS ITS SUPPORT FOR:

  1.   The designation of the 1.9 million acres in San Juan County, 
            Utah, as the Bear's Ears National Conservation Area/
            National Monument.

  2.   The designation of identified roadless areas as wilderness under 
            the Wilderness Act.

  3.   Establishment of Collaborative Management Agreement(s) between 
            the Navajo Nation, other Tribes and the federal government 
            to improve management and elevate the Native American voice 
            in the long-term sustainable management of the region.

                             CERTIFICATION

I hereby certify that the foregoing resolution was duly considered by 
the Naabik'iyati' Committee of the 23rd Navajo Nation Council at a duly 
called meeting in Window Rock, Navajo Nation (Arizona), at which a 
quorum was present and that the same was passed by a vote of 15 in 
favor, 0 oppose, 0 Abstain this 12th day of March, 2015.

                    Honorable LoRenzo C. Bates, Chairperson
                                          Naabik'iyati' Committee  

Motion: Honorable Alton Joe Shepherd

Second: Honorable Jonathan Nez

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate that. Now I am going to 
call the Honorable Sean Reyes, who is the Attorney General from 
the state of Utah. Thank you.
    If you have been here before you understand the process. 
You are recognized for 5 minutes. Go for it.
    Mr. Reyes. Yes, sir.

STATEMENT OF THE HON. SEAN D. REYES, ATTORNEY GENERAL, STATE OF 
                   UTAH, SALT LAKE CITY, UTAH

    Mr. Reyes. Thank you, Chairman Bishop, Ranking Member 
Hanabusa, members of the Subcommittee, for inviting me to 
participate in this hearing. And an additional aloha to the 
Ranking Member from Hawaii. My mom was born and raised in North 
Kohala, and I myself spent much time growing up working the 
land of my ancestors on the Big Island.
    In Native Hawaii, our lands are known as aina, and the 
relationship between the kanaka maoli, or Native people, and 
the aina, is sacred.
    In Utah, we also understand that lands are sacred to many 
of the indigenous people who predated statehood. And whether it 
is the sacred nature of lands, language, or children, we are at 
various times, as a state and local communities, in locked step 
with the Native American tribes in Utah and their interests.
    For example, just yesterday, I spent the morning and 
afternoon with my dear friends from the Northwestern Band of 
Shoshone for a sacred ceremony regarding land on Bear River. 
Council Chairman Darren Parry welcomed me and my team as 
family, as they have our governor and lieutenant governor.
    Perhaps an even better example of cooperation occurred just 
2 weeks ago. Chairmen from every council of tribes in Utah, 
along with the State Director of Indian Affairs, met in my 
office or joined us by phone to discuss the defense of the 
Indian Child Welfare Act, or ICWA, from constitutional 
challenges led by other states. Everyone in the room 
acknowledged that ICWA was working very well in Utah, due to 
cooperation between tribal, state, county, and Federal 
interests. As such, I committed to work with the tribes and 
their counsel to defeat any attempt to abolish ICWA.
    The tribes do not always agree with the state or local 
communities. After the announcement of President Trump's 
Executive Order regarding Bears Ears, I heard powerful voices 
on both sides of the issue from various tribal leaders. And 
while I do not speak on behalf of all people for Utah, I think 
my background and current office qualify me to testify in 
support of H.R. 4532.
    The Subcommittee may know from my written statement that I 
think we can draw some analogies between the debate over the 
new monuments in Utah and the Superbowl this weekend. Before 
discussing these analogies, I want to reiterate that these 
lands issues are, without a question, much, much more important 
than any football game. But I do think it is a useful metaphor, 
and a way of thinking about what is at stake.
    First, the Superbowl creates buzz from many voices, but 
that buzz dies within hours of the game for nearly everyone, 
except for the teams themselves and their diehard fans. In my 
view, the debate over the monuments follows a similar pattern. 
I view the tribal, Federal, state, and local governments as the 
teams who must manage these priceless lands for the public's 
benefit. The diehard fans of those teams are San Juan County 
residents, including many tribal members. These are people who, 
for generations, have loved, protected, and used these lands 
for gathering firewood or medicinal herbs, hunting and fishing, 
ranching or grazing, performing sacred ceremonies, and visiting 
ancestors' graves.
    H.R. 4532 uniquely brings the governments and residents 
together. It creates councils that give all the teams a voice 
in how these monuments will be managed, including, for the 
first time, the vitally important voice of the tribes. This 
innovation allows the teams to provide custom-tailored 
responses to the fans' needs, delivers on promises of shared 
management authority that the prior administration made but did 
not keep, because such authority must come from Congress. And 
while it will help governments and residents make the best use 
of the Antiquities Act's limited power to protect objects, the 
definite, concrete things, rather than stretching it beyond its 
text to purport to protect things as ethereal as star-filled 
nights and natural quiet.
    Second, rules are rules, both for football and for 
monuments. Some of those rules have caused heartburn for locals 
in Utah, such as the way H.R. 4532 continues to ban extracting 
minerals from the 1.35 million acres in the Bears Ears 
designation. But, that is the rule, so any assertion that this 
bill throws open public land to harmful development is akin to 
suggesting the Patriots get five downs to go 10 yards: an 
outright falsehood.
    Just as important, the bill establishes funding for new law 
enforcement officers from local communities, such as for 
sheriffs and their deputies, to help protect these lands from 
looting and vandalism. This new or renewed model is a 
significant improvement over prior Federal enforcement in this 
region, which has resulted in serious hardships for many local 
residents.
    Despite similarities between the Superbowl and monuments, 
some important distinctions exist. Above all, in the Superbowl, 
one team wins and the other loses. But monuments in San Juan 
County can and should be managed under multiple-use principles 
that accommodate beneficial uses by all interested parties. In 
short, when it comes to these monuments, everyone can win. And 
this legislation will ensure that San Juan County does not 
become a political football to be repeatedly thrown around by 
each succeeding presidential administration.
    The residents of the county deserve better. This thoughtful 
legislation would give it to them by codifying what we all 
want: appropriate monument protections and a cooperative 
framework to ensure that those designations are managed 
responsibly for the public's benefit.
    Thank you for the chance to testify.

    [The prepared statement of Mr. Reyes follows:]
 Prepared Statement of Sean D. Reyes, Attorney General of the State of 
                                  Utah
    Good morning Chairman McClintock, Ranking Member Hanabusa, and 
members of the Subcommittee on Federal Lands. Thank you for inviting me 
to participate in this hearing. I'm pleased to support H.R. 4532, 
Congressman Curtis' bill establishing the Shash Jaa and Indian Creek 
National Monuments.
    As I've considered what to say today, I confess that this past 
week, my thoughts--like many Americans'--have occasionally been 
interrupted by news and commentary about Super Bowl LII this weekend. 
And I became struck by some similarities between the NFL's premier game 
and the debate involving monuments in San Juan County. Without 
question, the issues we're discussing today are much more important 
than a football game, but if the Subcommittee will indulge me, I'd like 
to use the upcoming game as a metaphor to highlight three key reasons 
why Congress should pass H.R. 4532.
    First, the Super Bowl attracts interest and support from many 
different people and organizations. But the game's most lasting impacts 
fall primarily on two groups: the teams fortunate enough to play in it 
and their dedicated fans.
    I think this mirrors the debate about national monuments in San 
Juan County. As I see it, the ``teams'' are the Federal, Utah, local, 
and tribal governments with interests in exercising careful stewardship 
over these stunning lands for all the public's benefit. Utahns, 
however, have learned that monument designations can make it 
significantly harder to achieve that goal. If designated without due 
care for state, local, and tribal interests, a monument can eliminate 
some of the multiple-use management strategies these governments might 
otherwise employ to maximize the public's beneficial uses of these 
lands.
    The ``fans,'' in turn, are San Juan County residents--people for 
whom the teams work year after year, and who have loved, worked on, and 
protected these lands for generations. These residents depend on access 
to and use of these lands for a host of reasons: gathering firewood or 
medicinal herbs; hunting and fishing; ranching or grazing; performing 
sacred ceremonies; and visiting ancestors' graves, to name just a few. 
So while die-hard Patriots and Eagles fans may have consumed every 
tidbit about their teams for their emotional or intellectual sustenance 
these past few weeks, San Juan County residents use these lands for 
literal sustenance.
    As a result, they know the land better than anyone else. They have 
a vested interest in caring for it more than anyone else. And they are 
our best source for making full use of the Antiquities Act's power--to 
protect ``objects''--because they know which objects need protecting: 
antiquities such as Doll House, Moon House and House on Fire. Indeed, 
compared to San Juan County residents, Hollywood and other special 
interests are like the corporate executives who will leave Minneapolis 
this Sunday. They may momentarily celebrate a victory or rail against a 
defeat, but they face no permanent daily consequences from the 
monuments' designation. Instead, those daily consequences fall upon the 
teams and their fans--the governments and San Juan County residents.
    Enter H.R. 4532. This bill establishes something unique in U.S. 
history: monument management councils that give all the teams a voice 
in land management--including, for the first time, the vitally 
important voice of the tribes. This innovation allows the teams to 
provide custom-tailored responses to the fans' needs. And it delivers 
on shared-management-authority promises that the prior administration 
made (but did not keep) because such authority must come from Congress.
    Second, despite that unprecedented responsiveness, neither the 
Eagles and Patriots nor the teams in San Juan County can participate 
willy nilly. Rules are rules. Next Sunday, it's still 10 yards for a 
first down and a 5-yard penalty for a false start. And in San Juan 
County, rules will still apply to their public lands. Some of those 
rules--such as the way H.R. 4532 continues to ban extracting minerals 
from the 1.35 million acres in the Bears Ears designation--have caused 
some heartburn in Utah. Any assertion that this bill throws open public 
land to harmful development is akin to suggesting the Patriots get five 
downs to go 10 yards--an outright falsehood. After all, monuments or 
not, these are public lands. They are not private lands. They are not 
tribal lands. They will continue to be protected and governed through 
processes in which all our teams play a role. Just as important, the 
bill establishes funding for new law enforcement officers from local 
communities (such as sheriffs and their deputies) to help protect these 
lands from looting and vandalism. This new enforcement regime 
represents a significant improvement over prior Federal enforcement in 
this region, which has resulted in serious hardships for many local 
residents.
    The third point draws on distinctions between the Super Bowl and 
San Juan County monuments to support H.R. 4532. For example, this 
Sunday's game is a zero-sum contest; one team must win and the other 
must lose. But there is no reason that same mentality must apply to 
monuments in San Juan County. Instead, the management councils that 
H.R. 4532 establishes should govern these monuments under the same 
multiple-use principles applicable to other Federal lands. This will 
accommodate beneficial uses by all interested parties. Because H.R. 
4532 gives each team an equal management voice in San Juan County, 
everyone can win.
    Additionally, football fans expect to see the ball repeatedly move 
from one end of the field to the other. Long scoring drives and booming 
kicks make for an exciting Super Bowl. But they make terrible politics. 
My hunch is that the members of this Subcommittee would not approve of 
land in your districts becoming a political football to be repeatedly 
thrown around by each succeeding presidential administration. The 
residents of San Juan County share that same view. They deserve better. 
This thoughtful legislation would give it to them by codifying what we 
all want: appropriate monument protections and a cooperative framework 
to ensure that those appropriate designations are managed responsibly 
for the public's benefit.
    In closing, Utahns love public lands as much as America loves the 
Super Bowl--maybe more. The well-known disagreements that bring us 
together today never have been about whether these specific lands 
should be protected; they have been about how best to accomplish that 
goal. H.R. 4532 is a sensible and responsible answer to that question. 
Congress should pass it with all deliberate speed.
    Thank you again for the chance to testify. I'm happy to answer any 
questions.

                                 ______
                                 

 Questions Submitted for the Record by Rep. Hanabusa to the Honorable 
          Sean D. Reyes, Attorney General of the State of Utah
    Question 1. President Obama's Presidential Proclamation 9558, 
established the Bears Ears National Monument in response to calls from 
tribal governments to protect the numerous culturally and historically 
significant artifacts in the area from widespread looting and 
destruction, as well as the still present threat of oil and gas 
interests spoiling the land. The same tribal representatives that 
worked with President Obama to establish the monument walked away from 
conversations with the Utah congressional delegation when they felt 
that their input was not given proper consideration. Mr. Reyes, in your 
testimony you make two analogies in favor of H.R. 4352 that I would 
like clarification on.

    First, you state that H.R. 4532 continues to ban extracting 
minerals from the original boundaries of the Bears Ears Monument. You 
state that this is to maintain consistency with the ``rules'' 
established under President Obama's original proclamation to establish 
the Bears Ears National Monument. Under President Trump's proclamation 
to modify the Bears Ears National Monument, however, there are no such 
protections from mineral extraction. So, during the time between the 
issuance of President Trump's proclamation and the uncertain date in 
which this bill might be passed, there is a gap during which mineral 
leases could be issued. In addition, your written statement says that 
the mineral extraction ban caused ``heartburn'' for some in Utah. How 
can the state ensure that the 1.35 million acres of the original Bears 
Ears designation won't be subject to such developments?

    The second analogy that I would like clarification on is the 
comparison of the Bears Ears Monument designation to a ``political 
football'' that is subject to change under each new administration. 
Typically, national monument designations are not easily or often 
adjusted. In fact, President Trump's proclamation is currently being 
challenged in court because the Antiquities Act does not expressly 
provide the President with the authority to shrink monument 
designations, so the monument could even retain its original status. 
H.R. 4532 would interfere with these pending legal proceedings. If you 
believe that this issue should not be subject to change with each 
administration do you also believe that this legislation should 
supersede the courts and challenge a presidential proclamation that 
took years of planning under the Obama administration?

    Answer. The process governing the potential extraction of minerals 
in these areas is not exclusively a state one. Although the State's 
Division of Oil, Gas, and Mining (DOGM) can accept mining permit 
applications, the underlying or surrounding lands are still managed 
principally by the Federal Government. So, permit holders still need to 
work with Federal land managers--the Bureau of Land Management or the 
U.S. Forest Service--before attempting to extract resources. That may 
explain in part why, as of February 7, DOGM had not received ``a single 
permit application for plots in the areas.'' See Joe Deaux, Bears Ears' 
mining rush falls flat as no one bothers to show up, Salt Lake Trib. 
(Feb. 7, 2018), https://www.sltrib.com/news/environment/2018/02/07/
bears-ears-mining-rush-falls-flat-as-no-one-bothers-to-show-up/.

    Second, Rep. Hanabusa asked my opinion on whether H.R. 4532 
supersedes both President Obama's original proclamation and the pending 
court challenges to President Trump's proclamations. In my view, the 
Constitution answers this question affirmatively: it gives Congress the 
express ``power to dispose and make of all needful rules and 
regulations respecting the territory or other property belonging to the 
United States.'' U.S. Const., art. IV, Sec. 3, cl. 2. Because that 
power resides in the legislative branch, not the executive branch, H.R. 
4532 embodies a constitutionally permissible expression of the people's 
political will about these lands in Utah.

                                 ______
                                 

    Mr. Bishop. Thank you very much. I am now going to ask Mr. 
John Tahsuda to stand, if you would, please.
    He is the Deputy Assistant Secretary for Indian Affairs, 
Department of the Interior. He will not be giving an oral 
testimony, but will be here for questions if people want to ask 
him.
    Thank you for being here.
    And Casey Hammond, who is the Deputy Assistant Secretary 
for Land and Mineral Management at the Department of the 
Interior is here, and he will be testifying.
    Mr. Hammond, you worked on this Committee staff for quite a 
while.
    Mr. Hammond. That is accurate.
    Mr. Bishop. You forced me to do a whole bunch of things I 
didn't want to do, as my staffer.
    Mr. Hammond. I don't apologize for that.
    Mr. Bishop. Tables are reversed now. You are recognized for 
5 minutes.
    Mr. Hammond. Thank you very much, and thanks for having me 
back here. I appreciate it.

 STATEMENT OF CASEY HAMMOND, DEPUTY ASSISTANT SECRETARY, LAND 
   AND MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Mr. Hammond. Chairman Bishop, Ranking Member, and members 
of the Subcommittee, I am Casey Hammond, the Deputy Assistant 
Secretary for Lands and Minerals Management at the Department 
of the Interior. While today's discussion primarily centers on 
Bureau of Land Management issues, this legislation has an 
important nexus with tribal consultation, engagement, and 
sovereignty.
    Therefore, accompanying me today, as Chairman Bishop 
introduced, is John Tahsuda, who is our excellent principal 
Deputy Assistant Secretary for Indian Affairs. We are pleased 
to provide views on behalf of the Department on H.R. 4532, the 
Shash Jaa National Monument and Indian Creek National Monument 
Act.
    The Department supports the bill and the efforts of the 
sponsor, this Committee, and Congress to codify the first 
tribally co-managed monument. While the Department believes the 
Antiquities Act has been largely successful in protecting 
significant public resources, we also acknowledge previous 
designations may have extended beyond the original purposes of 
the Act.
    Acting upon the recommendation of the Secretary, and 
carrying the full support of Utah's governor and congressional 
delegation, President Trump signed two proclamations on 
December 4, 2017, one of which adjusted the boundaries and 
management of the Bears Ears National Monument. This bold and 
long-awaited action was a fulfillment of the President's 
commitment to restore public lands for generations to come, 
while correcting past abuses of the Act.
    Generally, Congress has plenary authority over Federal land 
use decisions, particularly in protection of public lands. That 
is why Secretary Zinke specifically recommended to the 
President that Congress be asked to ``legislate tribal co-
management authority, and to examine more appropriate land use 
designations.''
    The Secretary also recommended the President work with 
Congress to develop legislative reforms that require a process 
with state, local, and tribal governments and communities who 
would be most impacted by a monument designation. Such reforms 
would prevent abuses in the future.
    H.R. 4532 would appropriately protect cultural and 
archeological sites, as well as unique geologic features within 
the smallest area compatible for the protection of those 
resources.
    The legislation also includes a mineral withdrawal within 
the boundaries of the Bears Ears National Monument, as 
designated by the 2016 proclamation, and each acre remains in 
Federal ownership and under Federal management.
    A key component of H.R. 4532 is the creation of tribal co-
management of the Shash Jaa Monument. The Shash Jaa Tribal 
Management Council would guide specific uses within the 
monument, ensuring important tribal cultural traditions can 
occur, in addition to recreation, grazing, and other 
activities.
    H.R. 4532 also reaffirms and re-establishes the Bears Ears 
Commission with its same membership and roles, while placing a 
critical emphasis on providing recommendations to both the 
council and the Shash Jaa Archeological Resources Protection 
Unit.
    As the President stated on December 4, 2017, ``The 
Antiquities Act does not give the Federal Government unlimited 
power to lock up millions of acres of land and water, and it is 
time we ended this abusive practice. Public lands will once 
again be for public use.'' H.R. 4532 is a refreshing step 
toward genuine local state and tribal involvement in the 
monument designation and management process.
    We welcome the opportunity to work with the Committee and 
Mr. Curtis to further accomplish the goals of this bill. Thank 
you for the opportunity to testify, and we are happy to take 
questions at the appropriate time.

    [The prepared statement of Mr. Hammond follows:]
  Prepared Statement of Casey Hammond, Deputy Assistant Secretary for 
     Land and Minerals Management, U.S. Department of the Interior
    Chairman McClintock, Ranking Member Hanabusa, and members of the 
Subcommittee, I am Casey Hammond, the Deputy Assistant Secretary for 
Land and Minerals Management at the Department of the Interior 
(Department or Interior). Today's discussion primarily centers on 
Bureau of Land Management issues; however, the legislation tells an 
important message about tribal consultation, engagement, and 
sovereignty. Therefore, accompanying me this morning is John Tahsuda, 
the Principal Deputy Assistant Secretary for Indian Affairs at the 
Department. Together, we are pleased to provide views on behalf of the 
Department on H.R. 4532, the Shash Jaa National Monument and Indian 
Creek National Monument Act. The Department supports H.R. 4532 and the 
efforts of the sponsor, this Committee, and the Congress to codify the 
first tribally co-managed monument.
                               background
    Passed in 1906, the Antiquities Act (Act) authorizes the President 
to ``declare by public proclamation historic landmarks, historic and 
prehistoric structures, and other objects of historic or scientific 
interest that are situated on land owned or controlled by the Federal 
Government to be national monuments.'' The Act states that the 
President may reserve parcels of Federal land and designate them as a 
monument, but it also expressly states that designations should be 
limited to ``the smallest area compatible with the proper care and 
management of the objects to be protected.'' While the Department 
believes the Act has largely been a success story for protecting 
significant public resources, we also acknowledge that past 
designations may have extended beyond the original purposes of the Act.
    In response to strong local concerns about egregious past abuses of 
the Act, President Trump signed Executive Order 13792 on April 26, 
2017, which tasked the Secretary to conduct a review of all 
presidential designations or expansions of designations under the 
Antiquities Act since January 1, 1996, that exceeded 100,000 acres, or 
any others that were made without coordination and outreach to the 
public. The Secretary, in accordance with the Executive Order, 
submitted two reports for consideration to the President. The first was 
an Interim Report specifically addressing the Bears Ears National 
Monument. The Final Report features an assessment of 27 monuments, 
which was informed by travel to eight monument sites; dozens of 
meetings with stakeholders, ranging from tribal, local, and state 
officials to conservation organizations; and the first ever formal 
comment period tied to the Antiquities Act.
    Acting upon the recommendation of the Secretary and carrying the 
full support of Utah's governor and congressional delegation, the 
President signed two proclamations on December 4, 2017, one of which 
adjusted the boundaries and management of the Bears Ears National 
Monument. The proclamation resulted in two units within the national 
monument, Shash Jaa and Indian Creek, which encompass key objects such 
as Moon House Ruin, Doll House Ruin, and Indian Creek Rock Art. Also 
included in the proclamation, and consistent with the protection of 
monument objects, is the allowance of increased public access, 
restoration of traditional uses, and protection of opportunities for 
tribal collection of wood and herbs. This bold action was a fulfillment 
of the President's commitment to restoring public lands for generations 
to come while addressing public concerns about past designations. The 
Secretary applauded the President's leadership, stating, ``The people 
of Utah overwhelmingly voiced to us that public land should be 
protected not for the special interests, but for the citizens of our 
great country who use them, and this is what President Trump is doing 
today.''
   h.r. 4532, shash jaa national monument and indian creek national 
                              monument act
    Generally, Congress has plenary authority over Federal land-use 
decisions, particularly to further protect public lands and make other 
areas available for economically productive uses. This is why the 
Secretary specifically recommended in his report to the President that 
Congress be asked to ``legislate tribal co-management authority and to 
examine more appropriate land-use designations.'' The Secretary also 
advised the President to work with Congress to develop legislative 
reforms that require consultation with state, local, and tribal 
governments and communities who would be most impacted by a monument 
designation. Such reforms would prevent further abuses in the future. 
For this reason, the Department supports H.R. 4532, the Shash Jaa 
National Monument and Indian Creek National Monument Act.
    The Department believes H.R. 4532 would effectively and 
appropriately protect cultural and archeological sites as well as 
unique geologic features within the smallest area compatible with the 
protection of those resources. The legislation codifies boundaries for 
two monument units, Shash Jaa and Indian Creek, based upon the 
recommendations provided by the Secretary and reflected in 
proclamations signed by the President on December 4, 2017. In addition 
to establishing the two units, the legislation includes a mineral 
withdrawal within the boundaries of the Bears Ears National Monument as 
designated by Proclamation 9558, which remain in Federal ownership and 
under Federal management.
    A key component of this legislative proposal is the enabling of 
tribal co-management of the Shash Jaa Monument, which the Secretary 
specifically identifies in the report submitted to the President. 
Congressional sanction of this distinctive and collaborative management 
agreement would facilitate the active participation of tribal entities 
in the area. Title I of H.R. 4532 establishes the Shash Jaa Tribal 
Management Council, which is required to develop a long-term management 
plan for the Monument. The Council is expressly able to establish 
specific uses within the Monument, ensuring important tribal cultural 
traditions and ceremonies can occur on the land in addition to 
recreation, grazing, and wildland fire purposes. This includes specific 
mention of the management plan including access for sourcing of 
traditional plants and other materials for subsistence, ceremonial, and 
other uses. The legislation also reaffirms and re-establishes the Bears 
Ears Commission with its same membership and roles while placing a 
critical emphasis on providing recommendations to both the Shash Jaa 
Tribal Management Council and the Shash Jaa Archaeological Resources 
Protection Unit.
    Title II of H.R. 4532 creates the Indian Creek National Monument 
and authorizes the Indian Creek Management Council as the entity to 
manage the Monument. As is indicated in the legislation, the Council is 
required to consult with state and local entities, the Bears Ears 
Commission, affected Indian tribes, and the public. The legislation 
also creates the Indian Creek Archaeological Resources Protection Unit, 
which ensures the preservation of antiquities, resources, and artifacts 
within the boundaries of the Monument.
    The Department firmly believes that H.R. 4532 is a positive step 
toward greater local, state, and tribal involvement in the monument 
designation and management process. We welcome the opportunity to 
further engage with the sponsor and the Committee on the legislation, 
including the Department's responsibilities and operations within the 
scope of the management plan process identified in the legislation.
                               conclusion
    As the President stated on December 4, 2017, ``The Antiquities Act 
does not give the Federal Government unlimited power to lock up 
millions of acres of land and water, and it's time we ended this 
abusive practice. Public lands will once again be for public use.'' The 
Department supports H.R. 4532, which seeks to maintain the protections 
of America's public lands and unique antiquities while ensuring 
consultation with state, local, and tribal governments and communities 
who would be most impacted by a monument designation occurs. We would 
be pleased to work with the Committee and sponsor to address certain 
specific aspects of the legislation to further accomplish its goals.
    Thank you for the opportunity to testify today. We would be pleased 
to answer questions at the appropriate time.

                                 ______
                                 

Questions Submitted for the Record by Rep. Bishop to Mr. Casey Hammond, 
    Deputy Assistant Secretary, Land and Minerals Management, U.S. 
   Department of the Interior and Mr. John Tahsuda, Principal Deputy 
  Assistant Secretary, Indian Affairs, U.S. Department of the Interior
    Question 1. H.R. 4532 would reinstate the 1.3 million acre 
withdrawal established in Presidential Proclamation 9558, effectively 
withdrawing the lands removed from National Monument designation. How 
are these lands currently being managed with respect to appropriation 
and disposal under the public land laws; location, entry, and patent 
under the mining laws; and operation of the mineral leasing, mineral 
materials, and geothermal leasing law?

    Answer. These lands are managed according to the 2008 Monticello 
Resource Management Plan, as amended. These lands were reopened to 
mineral entry 60 days after the issuance ofProclamation 9681, but are 
subject to the decisions and stipulations in the 2008 land use plan.

    Question 2. In the hearing on H.R. 4532, concern was expressed that 
public lands removed from Monument designation in the Bears Ears area 
may restrict Native American access for traditional ceremonies, 
gathering of plants, and woodcutting. For these public lands, are there 
any restrictions currently in place for Native American ceremonial 
access or vegetation gathering?

    Answer. No. In fact, the aim of Proclamation 9681 is to restore 
access threatened by the 2016 action.

    Question 3. It is my understanding that approximately one-third of 
the lands removed from Monument designation in the Bears Ears area 
already have in place protections associated with Wilderness Study 
Areas and Areas of Critical Environmental Concern. Outside of WSAs and 
ACECs, what additional resource protections are in place via 
restrictions on mineral extraction, rights-of-way, and cross-country 
vehicular travel?

    Answer. Many Federal conservation laws, except for the Antiquities 
Act, apply to these lands. This includes the National Environmental 
Policy Act, the National Historic Preservation Act, the Archaeological 
Resources Protection Act, the Paleontological Resources Preservation 
Act, the Wilderness Act, the Endangered Species Act, conservation 
sections of the Federal Land Policy and Management Act (FLPMA) such as 
those pertaining to ACECs and WSAs, and others. Proclamations 9681 and 
9682 reference a number of applicable laws that pertain to the released 
lands.

    According to Proclamation 9681, ``A host of laws enacted after the 
Antiquities Act provide specific protection for archaeological, 
historic, cultural, paleontological, and plant and animal resources and 
give authority to the BLM and USFS to condition permitted activities on 
Federal lands, whether within or outside a monument. These laws include 
the Archaeological Resources Protection Act of 1979, 16 U.S.C. 470aa-
470mm, National Historic Preservation Act, 54 U.S.C. 300101 et seq., 
Bald and Golden Eagle Protection Act, 16 U.S.C. 668-668d, Endangered 
Species Act of 1973, 16 U.S.C. 1531 et seq., Federal Cave Resources 
Protection Act of 1988, 16 U.S.C. 4301 et seq., Federal Land Policy and 
Management Act of 1976, 43 U.S.C. 1701 et seq., Migratory Bird Treaty 
Act, 16 U.S.C. 703-712, National Forest Management Act, 16 U.S.C. 1600 
et seq., Native American Graves Protection and Repatriation Act of 
1976, 25 U.S.C. 3001 et seq., and Paleontological Resources 
Preservation Act, 16 U.S.C. 470aaa-470aaa-11. Of particular note, the 
Archaeological Resources Protection Act specifically protects 
archaeological resources from looting or other desecration and imposes 
criminal penalties for unauthorized excavation, removal, damage, 
alteration, or defacement of archaeological resources. Federal land 
management agencies can grant a permit authorizing excavation or 
removal, but only when undertaken for the purpose of furthering 
archaeological knowledge. The Paleontological Resources Preservation 
Act contains very similar provisions protecting paleontological 
resources. And the Migratory Bird Treaty Act and Endangered Species Act 
protect migratory birds and listed endangered and threatened species 
and their habitats.'' Proclamation 9682 contains similar language.

    Question 4. As Mr. Hammond's testimony indicated, the Department of 
the Interior supports the legislative proposal of actual tribal co-
management of the Shash Jaa and Indian Creek National Monuments, as 
opposed to relegating tribes to a more conventional advisory role. 
Given its support, what is the Department of the Interior doing to 
facilitate actual co-management of these important places by both 
tribes and the Federal Government?

    Answer. Congress has the authority to ensure tribal co-management 
of the Monuments, which is why the Department supports H.R. 4532.

    Question 5. What steps has the Department of the Interior taken to 
implement updates to the National Monuments, per President Trump's 
December 4 Proclamation. What sorts of resources has the Department 
provided to the BLM to ensure that the new Monuments meet the intent of 
the proclamation?

    Answer. The Bureau of Land Management (BLM) officially commenced 
scoping efforts in January 2018 for the Indian Creek and Shash Jaa 
units; the Grand Staircase, Kaiparowits, and Escalante Canyon units; 
and Federal lands previously included in the Grand Staircase-Escalante 
National Monument that are now excluded from its boundaries. In total, 
the BLM is working to produce six land use plans and two Environmental 
Impact Statements. In March of 2018, the BLM hosted four public scoping 
meetings as part of the land use planning process. The scoping period 
closed on April 11, 2018. Currently, the BLM is in the process of 
completing the scoping report.


                                 ______
                                 

    Mr. Bishop. Thank you, Casey. We will now call to the 
witness stand the Honorable Rebecca Benally, who is the Vice 
Chair of the San Juan County Commission.
    Pleased to have you here again, and you are recognized for 
5 minutes.

  STATEMENT OF THE HON. REBECCA BENALLY, VICE CHAIR, SAN JUAN 
             COUNTY COMMISSIONERS, MONTICELLO, UTAH

    Ms. Benally. Good morning. Thank you, Vice Chairman Bishop 
and Ranking Members of the Committee. I think you saved the 
best for last. Thank you for inviting me to testify today. My 
name is Rebecca Benally, I am a San Juan County, Utah 
Commissioner and a Navajo woman. I appreciate the opportunity 
to make my voice and the voice of the community heard.
    In our community, public lands are our most valuable 
resource. The land is our inheritance, handed down from 
generation to generation. We treasure the land, we take care of 
the land.
    It is stated that the purpose of the Shash Jaa National 
Monument shall be to protect, conserve, and enhance the unique 
important historic, sacred, cultural, scientific, scenic, 
archeological, natural, and educational resources of Shash Jaa 
National Monument. I believe that, together, we will accomplish 
these goals.
    H.R. 4532 creates the first true local-tribal management 
council for a national monument. This legislation is only 
effective if it truly serves the people, and no group of people 
has more to lose or gain than the local tribes. No longer will 
our people be shut out of meetings with their interests and not 
protected.
    H.R. 4532 creates true land protection by creating 10 law 
enforcement positions to watch over the land with the funded 
legislation.
    H.R. 4532 reinforces that no new mineral extractions will 
occur, that all Anasazi artifacts, as well as ancestral, 
cultural, and sacred sites, have been protected and will 
continue to be protected by 15 regulations and wilderness study 
areas already in place.
    And, most importantly, H.R. 4532 maintains local access. We 
use the land for hunting, wood-cutting, gathering medicinal 
plants, and for traditional ceremonies. By creating the Shash 
Jaa Tribal Management Council, you are giving the Native people 
the opportunity to manage the land of their ancestors, while 
working to improve public access and protecting all interests.
    The only consistent thing in life is change. Our county 
continues to develop and grow. The needs of each community 
member can be met if we work together. We are all from 
different walks of life, but our vision and needs are the same. 
By supporting H.R. 4532, you are listening to a group that has 
been silenced for too long, and finally allowing us a seat at 
the table. We want land that is well managed and accessible to 
all people.
    It is disheartening for me to hear today in previous 
testimonies about degrading with derogatory remarks to 
grassroots people who choose to stand up for themselves and for 
the local people, the young and old, that they don't mean 
anything unless there is a title to your name. As I have been 
taught, a title is only a tool to represent your people. You 
don't always have to have a title to represent the grassroots 
people, so I am very disheartened by those comments to people 
that choose to stand up for themselves.
    It is an honor to be here today. Thank you for listening to 
the local people. Thank you to the Utah delegation for showing 
respect to the process, and putting forward a thoughtful and 
inclusive bill. I believe all lives matter.
    One thing that I want to stress here is that there are 567 
tribes here in the United States of America. Every step that we 
step is a sacred site. But let's be respectful, and let's have 
a balanced approach. Let's think with beauty, harmony, and 
hozho, as it is said in Navajo, to all approach there is 
balance.
    It is true that the environmental groups and the non-
governmental organizations known as NGO had started this 
process of locking up the Colorado Plateau. And it was 2010, 
2012 that Bears Ears of any sort from the tribes had wanted to 
be part of it. Bears Ears Inter-Tribal Coalition was not 
developed until around 2015. So, therefore, let's get some 
information and facts straight here. It is the local people's 
voice that you need to listen to.
    Thank you very much.

    [The prepared statement of Ms. Benally follows:]
Prepared Statement of Rebecca Benally, San Juan County Commissioner and 
                       Member of the Navajo Tribe
    Thank you, Committee Chair and Ranking Members for inviting me to 
testify in support of House Resolution 4532. My name is Rebecca 
Benally, San Juan County Commissioner, a member of the Navajo tribe. I 
appreciate the opportunity for my voice and the community voice to be 
heard.
    In our community, public lands are our most valuable resource. The 
land is our inheritance, handed down from generation to generation. We 
treasure the land. We take care of the land. H.R. 4532 is a step to 
create the first tribal managed national monument. The Shash Jaa 
National Monument incorporates land within the Bears Ears area. 
Unfortunately, the former Bears Ears proclamation never mentioned 
tribal management just an advisory commission. It is stated that, ``The 
purpose of the Shash Jaa National Monument shall be to protect, 
conserve, and enhance the unique important historic, sacred, cultural, 
scientific, scenic, archaeological, natural, and educational resources 
of Shash Jaa National Monument.''
    The purpose is only worthwhile if it truly serves the people. And 
no group of people has more to lose or gain, than the local tribes. We 
use the land for hunting, wood cutting, gathering medicinal herbs and 
for sacred ceremonies. By creating the Shash Jaa Tribal Management 
Council, you are giving the Native American people the opportunity to 
manage the land of their ancestors and maintain access.

    By supporting H.R. 4532, you are listening to a group that has been 
silenced for too long and finally allowing us a seat at the table. We 
all come from different backgrounds, but we want the same results. We 
want land that is well-managed and accessible to all people. We support 
the language of H.R. 4532. We agree that the land should be protected. 
Currently there are 14 regulation and laws in place, such as:

    1935 Historic Sites Preservation Act

    1960/1974 Reservoir Act

    1964 Wilderness Act

    1966 National History Preservation Act

    1968 Wild and Scenic Rivers Act

    1974 Archaeological & Historic Preservation Act

    1976 Federal Lands Policy and Management Act

    1978 American Indian Religious Freedom Act

    1979 Archaeological Resources Protection Act

    1980  Amendment-Executive Order Protection & Enhancement of 
            Cultural Environment

    1990 Native American Graves Protection & Repatriation Act

    1996 Indian Sacred Site Protection Act

    2000 Consultation & Coordination with Indian Tribal Government Act

    2003 Preserve American Act

    Therefore, H.R. 4532 is a step in the right direction to create the 
Shash Jaa Tribal Management Council that will benefit the local tribes 
and groups to work together to manage the land.
    It is an honor to be here today. Thank you for listening to the 
local people, San Juan County, Utah. I also would like to thank the 
Utah delegation for showing respect to the process and putting forward 
a thoughtful and inclusive bill.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate all the witnesses. We 
will now start a round of questioning. And for Members, if they 
have a question of a specific witness, we will ask that witness 
to come up to the table and the microphone and answer that 
question, and then proceed in that way.
    Mr. Curtis, since I am really new at this job of being Vice 
Chair, I also realized I didn't read ahead in the script far 
enough to notice that you were supposed to have been recognized 
to introduce Mr. Chaffetz. Sorry, I screwed up.
    [Laughter.]
    Mr. Bishop. Would you like to take a second to introduce 
him now, or would you like to ask some questions?
    Mr. Curtis. I will skip straight to questions, although I 
will agree with him about his comment about him being the most 
effective legislator in the district's history.
    Mr. Bishop. Just so you stay within the 3rd District only.
    Mr. Curtis. Within the 3rd District.
    Mr. Bishop. Yes, don't go far afield from that. Mr. Curtis, 
you are recognized first for questions.
    Mr. Curtis. Thank you. I would like to start with 
Commissioner Benally. If you would, please come up again, thank 
you.
    While she is coming up, I would like to thank her, as well 
as all the witnesses. I realize many of you have made a great 
sacrifice to be here today, and I appreciate that.
    Commissioner, it may be obvious to a lot of you, but to 
many of us it is not. Could you explain the difference between 
the Aneth Chapter of the Navajo Nation, who did previously 
oppose President Obama's designation, and the Bears Ears Inter-
Tribal Coalition?
    Ms. Benally. Let me preface this before I answer that 
question. Most chapters of the Navajo Nation, which sits in 
Utah, and by the way, we are the stepchild to Navajo Nation 
called the Utah Strip. And the first go-around of support was 
for a national conservation area. Somewhere along the line it 
got changed to a national monument when environmental groups 
and NGOs started getting involved.
    So, to answer your question, Aneth Chapter is the largest 
Utah Navajo local government, called a Chapter House, who has 
local governance, LGA, on the road to govern themselves, who 
had opposed a national monument around the Bears Ears region of 
anything from 1.35 million to 1.9 million acres. So, that is 
how the government structure is there in Aneth.
    Mr. Curtis. Thank you. Could you help us understand why the 
two would view this differently, and one support and one not 
support the bill?
    Ms. Benally. Can you rephrase your question?
    Mr. Curtis. The Aneth Chapter was pleased with President 
Trump's designation, but the Navajo Nation opposed it. Can you 
help us understand why the different views?
    Ms. Benally. It is very simple. It is the local people that 
drives the local needs of Aneth, and also of Utah Strip, as is 
referred to. The difference is that Navajo Nation sits in 
Window Rock, Arizona, and the local people of Aneth Chapter are 
about 45 miles from the region we talk about. It is our 
backyard, and I believe we have done a great job to keep it a 
pristine area for decades and decades, until someone noticed 
and wanted to have a deep-pocketed interest in the area for 
self-serving need.
    Mr. Curtis. Thank you. One of the primary criticisms of 
this bill has been a perceived lack of tribal consultation. And 
when I met with representatives of the Bears Ears Inter-Tribal 
Coalition, they expressed the same concern to me. In the last 
hearing, we offered to include a requirement that there was a 
consultation with the Bears Ears Commission when those 
presidential appointments were made. Do you think this bill 
provides for adequate tribal input and management of the area?
    Ms. Benally. There is consultation in Section 101 of BLM. 
And when BLM tried to contact tribes, there was never a 
response until starting in 2012. Why the sudden interest? I 
think you can draw your conclusion: self-serving for NGOs and 
environmental groups, and forefronting Native American and 
romanticizing Native American way of life.
    Mr. Curtis. Thank you. I am going to quickly switch to 
Congressman Chaffetz, if you wouldn't mind.
    Former Congressman, you mentioned in your testimony that 
there were 1,200 meetings. And you emphasized that, yes, there 
really were 1,200 in what was called the PLI process.
    Many view this bill as just a snapshot in time of when I 
came along just 8 weeks ago. Could you explain why it is really 
a much longer process? And do you feel like this bill reflects 
what you learned in those 1,200 meetings?
    Mr. Chaffetz. Thank you. It did start more than 4 years 
ago. I personally participated. I got on a plane and, as I 
said, flew to Arizona to meet with the Navajo President. We had 
countless meetings, open meetings, meetings that anybody in the 
public could attend. Some had hundreds and hundreds of people, 
some were much smaller groups.
    I would also give you, for the record, a letter dated 
October 16, 2015, another letter dated April 29, 2016, another 
letter dated November 18, 2016, among others that should be, I 
think, considered. And the other item that I would enter into 
the record is this ``Big money, environmentalists and the Bears 
Ears story,'' that appeared in the Deseret News on August 4, 
2016, which, I think, lays out the issues.
    Mr. Curtis. Thank you. I am out of time.
    Mr. Bishop. Thank you. I appreciate that. Ms. Hanabusa, the 
Ranking Member, has given me a list of the order for the 
Democrats to speak.
    Mr. Gallego, you get to go first.
    Mr. Gallego. Thank you, Mr. Chair. It is Gallego, since we 
are interested in keeping names correct today.
    Mr. Bishop. All right. The gentleman from Arizona and the 
gentleman from Virginia will be recognized by those names 
forever more.
    Mr. Gallego. Thank you, sir.
    Mr. Bishop. Go for it.
    Mr. Gallego. First of all, I would like to have all the 
duly elected tribal witnesses, please come to the table, 
because I will be asking you guys questions. One at a time? 
That is fine.
    Let me thank all the witnesses for traveling to Washington 
for today's hearing. We are very pleased that we have duly--and 
I stress the word ``duly''--elected representatives from the 
five tribes here with us to testify about the importance of the 
Bears Ears National Monument designation for each of your 
communities.
    And I think it is fairly important that we recognize that 
we are actually listening to those that are elected. In my 
years in politics, if we had ever done something of this 
nature, where we skip over the local elected officials and 
tried to designate other people to somehow voice the opinion of 
any area, whether it is city, state, county, without actually 
having a democratic process, we would call that somewhat of a 
sham. And that is what I see happening here.
    So, it is even more important that we really listen, and I 
mean we really listen, to these duly elected officials, and try 
to understand what is at stake if the President's proclamation 
were to be codified.
    So, again, only the duly elected officials. As you all know 
well, the original tribal proposal for the Bears Ears National 
Monument was 1.9 million acres. Can you tell us about the 
effort undertaken by tribes to catalog the cultural resources 
contained in the Bears Ears region? And we can start with 
President Begaye.
    Mr. Begaye. Thank you for that question. The Navajo Nation, 
our people, have been working on protecting this area for over 
80 years. This is something that didn't start just a few years 
back, but this has been in the making from one Navajo Nation 
president to the next, to the next. We have been trying to 
designate and protect this area because it has been ravaged by 
treasure hunters over the years, and a lot of our sacred areas 
have been desecrated.
    And multitudes, many artifacts have been taken from that 
area illegally, and our sacred areas have been trampled upon. 
For 80-plus years, our people have worked hard to have a 
designation of some sort, whether it is a conservation and then 
the Antiquities Act, what became the avenue of choice for our 
people.
    And this is something that didn't happen just in the last 
few years, like I said, but this has been ongoing. Thank you.
    Mr. Gallego. Thank you, President. Because I have a limited 
amount of time, let me skip to Vice Chairman Tenakhongva.
    Specifically, I wanted to talk to you about some artifacts 
and sites. As you know, the Obama designation was ultimately a 
compromise that covered 1.2 million acres of the 1.9 million-
acre tribal proposal. The bill we are reviewing today retains a 
monument designation for only 15 percent of that already 
compromised Bears Ears National Monument.
    As you know, Vice Chairman, the perfect kiva site was 
removed from the monument. What does this mean for this site, 
and for the hundreds of similar cultural sites that were 
removed from the Bears Ears National Monument?
    Mr. Tenakhongva. For the people in here that do practice a 
religion, the kiva is a church. It is much like your church. 
And if it was to be removed from the protected sites, it is 
just like taking our right to practice our religion.
    The kivas we practice in today still exist on Hopi. If you 
look at our letterhead, that is the symbol of our lifeline. 
That is the reason why it is very important that these sites be 
protected. We have had cultural connections to these sites 
since the time we traveled from there, not just in the past 15, 
20 years. We still have sacred pilgrimages to these since 
probably 500 years ago, or before, so that is how we have the 
connection to these sites.
    Mr. Gallego. Thank you, Mr. Vice Chair.
    Mr. Chair, the tribes' official record--official record--is 
clear regarding the full support for the monument designation. 
We, as a Committee, need to find ways forward to honor our 
promises to our duly elected official tribal members, including 
meaningful consultation, not sham consultations, when making 
designations and decisions of this magnitude.
    Again, I thank all the witnesses, and I yield back my time.
    Mr. Tenakhongva. Thank you.
    Mr. Bishop. Thank you.
    Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Vice Chairman. Could I have Ms. 
Lopez-Whiteskunk come up, please? Thanks for taking the time to 
be able to be here. I listened to your testimony, and 
appreciate all that came here today, and wanted to be able to 
touch on a couple of issues that you had brought up.
    First was in regards to the cultural preservation. As I 
have read through this bill, to the President's comments, over 
into Utah, in terms of making sure that those areas are 
actually protected, there are going to be additional people, 
which were not included under President Obama's designation, to 
actually be there to be able to protect those artifacts. And 
areas that are not included in President Obama's designation, I 
believe--correct me if I am wrong, if you have read this 
differently--that those are still part of the National Park 
Service system, or National Forest Service system with the 
protections, and wilderness study areas, with significant 
protections for those cultural areas that need to be able to be 
protected.
    If you could maybe explain--and I don't expect you to be 
able to give me a specific location--what other protections 
would you like to be able to see?
    Ms. Lopez-Whiteskunk. Thank you, Congressman. I appreciate 
your question. In regards to the previous proclamation, a 
little bit of that is untrue, as many tribes have sovereign 
voices and they have capabilities and resources that a lot of 
local governments don't always have that the Native American 
tribes do.
    When we initially came to the table, we came as being 
problem-solvers. We came to be a part of the solution. And one 
of the solutions was to be able to have the capacity to add 
that type of resource to protecting those areas. Native tribes 
have Public Law 638 at our resources, which local agencies 
don't--local governments do.
    And that was one of the things that we wanted to be a part 
of. We wanted to be a part of being able to provide 
additional----
    Mr. Tipton. That is more, actually, in terms of some of the 
consultation end of it. What I was speaking to specifically was 
your first point, in terms of some of the cultural resources. 
Are there additional things, given the expansive nature, I 
think, of more people, and the protections that are there, that 
you would like to be able to see, specifically?
    Ms. Lopez-Whiteskunk. Life itself. That is the biggest 
cultural resource. And the people in the area, to be able to 
conduct ceremonies and collect those additional herbs that are 
medicinal to our ceremonial conduct.
    Mr. Tipton. So, being able to have access, actually, to the 
land.
    Ms. Lopez-Whiteskunk. To continue to harvest cedar, sage, 
and other medicinal plants.
    Mr. Tipton. Is there something in the bill that prohibits 
that?
    Ms. Lopez-Whiteskunk. No. But you know, as we shrink it, 
and as it becomes a little bit more limited, and with 
possibilities of energy extraction, then those would also begin 
to limit that, especially destroy it.
    Mr. Tipton. Great. I would like to be able to move on, 
really, to the second topic that you had brought up and some 
others had, as well, in terms of actually being able to have 
what you were just addressing, actual tribal input into it.
    As I am sure you are aware, under President Obama's 
designation there was no additional tribal input. That was just 
an advisory capacity. It actually takes an Act of Congress and 
a presidential signature to be able to get that real input.
    I believe that, under the proposed monument in Mr. Curtis' 
bill, that is going to be structured. Are there any other 
improvements, in terms of how people are going to be picked, 
that you would like to maybe be able to address?
    Ms. Lopez-Whiteskunk. Under H.R. 4532, it takes that 
extension of the arm of each tribal sovereign government to be 
able to appoint that. That takes away a little bit of the 
sovereign voice and ability to appoint our experts, our 
traditional leaders who have that knowledge, which I beg to 
differ that I don't think that the President or the delegation 
has that knowledge of who are those experts within the tribal 
nations to be able to provide that voice and adequate 
information so that it can be presented in a meaningful manner.
    Mr. Tipton. So, if you saw some of that adjusted to be able 
to get that real input, because that is really the challenge, I 
think. Under President Obama's designation, there was no real 
voice that was given. This is actually going to be able to try 
to create an avenue for the tribes to be able to have real 
input going into some of those management issues. Would you see 
that as a positive?
    Ms. Lopez-Whiteskunk. I would. If Congressman Curtis had 
approached the tribes in getting some of that input initially, 
probably some of this wouldn't be so problematic today.
    Mr. Tipton. Thank you. Out of time, Mr. Chairman.
    Mr. Bishop. Thank you. All right.
    Since I am screwing up every name, Ms. Tsongas, you are 
recognized.
    Ms. Tsongas. You got that one right.
    I want to thank all of our witnesses for traveling across 
the country to be here with us today. It was actually nice to 
see Mr. Chaffetz again, although he spent some time in 
Massachusetts, and I asked him if it had any impact, and he 
said whatever impact it had he shed quickly when he made his 
way back to Utah. But nice to see him here.
    Witnesses, your testimony today has been critical to making 
sure that we here on this Committee have a comprehensive 
understanding of the impacts of H.R. 4532. And as today's 
testimony demonstrates, for years tribes have been seeking 
permanent protections for Bears Ears and the thousands of 
artifacts and sacred sites found in the area. These are public 
lands that belong to all Americans, and I strongly agree that 
they should be permanently protected for the use and enjoyment 
of future generations. These things are very fragile, and it 
takes a concerted effort to do that.
    As such, this Committee has considered several different 
proposals over the years on the best way to provide permanent 
protections to these lands, including Chairman Bishop's Public 
Lands Initiative, the Bears Ears Inter-Tribal Coalition's 
proposal for a national monument, and now H.R. 4532.
    But like the Public Lands Initiative, I am opposed to H.R. 
4532 because a close examination of the so-called conservation 
provisions demonstrate a clear pattern of loopholes, rolled 
back protections, and an undermining of Federal land management 
authority, all of which threaten the long-term conservation 
value of Bears Ears and the protection of these lands for all 
Americans.
    The national monument designated by President Obama in 
close consultation with the Bears Ears Inter-Tribal Coalition, 
I believe, is the best way to protect these areas. And 
President Trump was wrong to abolish the monument. The 
legislation before us today fails to adequately restore these 
much-needed protections for these lands.
    So, turning to Ms. Lopez-Whiteskunk, if you could, come up 
to the table.
    We have heard some testimony on this, but the tribal 
proposal to establish the Bears Ears National Monument stemmed 
from concerns about looting and other damage to sensitive 
cultural resources. We have heard that reinforced. Does H.R. 
4532 adequately address this, in your view?
    Ms. Lopez-Whiteskunk. No. I believe that, with further 
discussions with the sovereign nations--and not just the two 
that are recognized within this, but there are many. There are 
not just the five members of the Coalition that are affected. 
There are tribes, the San Juan Southern Paiute, there are many 
other tribes that also need to be brought into the discussion.
    Just because they do not and are not represented within the 
Coalition, there are other sovereign nations out there that 
will stand up and they will justify and they can talk about the 
protections that are desperately needed, not only just on the 
land, but beneath it, because the story truly lies in the many 
layers, the layers of history that are written on the canyon 
walls, in the land, in the water, and the air that we breathe. 
That is an honor. That is something that is far bigger than we 
are. That comes from our creator and Mother Earth.
    Ms. Tsongas. Another provision of the bill, Section 107, 
establishes an archeological resource protection unit, and it 
requires a minimum number of law enforcement to patrol the 
monument. Will this be enough to limit looting and address the 
resource protection concerns you have expressed?
    Ms. Lopez-Whiteskunk. Looting is always going to be an 
extreme concern. And no matter how many people we get out 
there, if there are 7 or 10, are we going to have those 7 or 10 
after hours, when a lot of the vulnerable time period comes? 
Because we all know not everything happens in the daylight. It 
is usually going to happen after dark. Are those resources 
going to be available after the sun sets? That is usually when 
things tend to happen.
    We would very much like to see more. Of course, we would 
always like to see more money invested in the protection of 
this, and to have more boots on the ground.
    And as I mentioned before, I think if we would just come 
together with the tribes to see what they can bring to the 
table, and become a part of the solution, some of the issues 
that are at stake within the bill wouldn't be so problematic.
    Ms. Tsongas. In your view, why was the national monument 
established by President Obama the best way to protect these 
sacred sites and artifacts, even as you are looking at ways to 
strengthen this bill? Why was the national monument designation 
by President Obama the best way forward?
    Ms. Lopez-Whiteskunk. Time. Time is everything. If we would 
have went the congressional route and came through Congress, we 
would still be seeking some protection. But through the 
Antiquities Act, it allowed for us to be a part of an open 
process. Thank you.
    Ms. Tsongas. Thank you.
    Mr. Bishop. Mr. Gianforte.
    Mr. Gianforte. Yes, thanks, Mr. Chairman.
    Mr. Chaffetz, if I could.
    Thank you all for being here. I appreciate your testimony.
    Mr. Chaffetz, Federal lands limit the funding. You talked 
about this, just 8 percent in San Juan County are eligible for 
property taxes that generate the desperately needed money to 
fund the schools there in the county. How has only having 8 
percent non-Federal land affected the schoolchildren of San 
Juan County? And how does the San Juan County school system 
compare with the school systems in the rest of Utah and the 
rest of the country?
    Mr. Chaffetz. Any quick visit to San Juan County, and you 
would quickly find out that getting to school is a major 
production. You cannot even always move the buses to get there. 
Once you do get to the schools, you understand that they aren't 
the best that we can possibly provide.
    Also, for the residents of San Juan County, the highest 
per-capita property tax in the state of Utah is down in this 
part--not in Salt Lake City, not in Provo, Utah, but down in 
San Juan County, the highest per capita. And again, you are 
talking about a swatch of land that is roughly the size of New 
Jersey.
    And I do want to address what the congresswoman from 
Massachusetts talked about with law enforcement. You have, 
essentially, one BLM officer for every 1 million acres. What 
Congressman Curtis is trying to do is to up the number of 
people that are able to patrol and protect. If you don't do 
anything, and you shoot down the bill, guess what? You are 
still going to have one person for every 1 million acres. It is 
ridiculous. It is not a formula that can succeed.
    Mr. Gianforte. I have just one followup. We heard some 
testimony today that some voices hadn't been heard, and yet you 
said you had 1,200 meetings. Were tribal members represented at 
any of these meetings that you had?
    Mr. Chaffetz. Yes, consistently.
    Mr. Gianforte. And what steps did you take to actually 
reach out to the Native American community to make sure their 
voice was heard?
    Mr. Chaffetz. Via the governor of Utah. I went to great 
lengths to get the state plane to go visit the President of the 
Navajo Nation. We had an ongoing dialogue. I have had members 
of the tribes come to visit me in my office. I have done 
meetings in San Juan County. I have been to hotels where they 
have come in small groups to meet with us. There were public 
meetings that were available.
    And we really relied on Rebecca Benally, who is from the 
Navajo Nation, a Democrat who is on the San Juan County 
Commission, to also engage in the dialogue.
    Mr. Gianforte. So, 4 years, 1,200 meetings, many 
outreaches. You believe their sentiments and input are 
reflected?
    Mr. Chaffetz. Yes. And, by the way, at the time, the five 
Members and then the six Members of the Utah delegation asked 
to meet with President Obama to talk about this. He would 
never, ever even take one meeting on this.
    Mr. Gianforte. OK.
    Mr. Chaffetz. So, to suggest that there was not a dialogue, 
you can point to President Obama. He never listened to us.
    Mr. Gianforte. Thank you very much. I would like to have 
Commissioner Benally, if I could.
    Thank you for being here, especially for your local 
perspective. I want to ask about tribal management of a 
national monument. This is going to create a new precedent for 
us. Considering that you are not only a commissioner, but also 
a member of the Navajo Tribe, what does meaningful co-
management mean to you and your community?
    Ms. Benally. Meaningful tribal co-management means to me 
that the local people have access to carry on their daily way 
of life. So, meaningful, just meaning that there is dialogue, 
communication, participation, and access.
    Mr. Gianforte. OK. Do you think that this bill is going to 
provide a path forward to preserving the historical and 
cultural uses of the land within the monument designation?
    Ms. Benally. On top of the 15 regulations and wilderness 
study areas, you bet it will.
    Mr. Gianforte. So, you think we have enough rules?
    Ms. Benally. Government is about layers of bureaucratic 
laws and regulations.
    But I want to mention this. As was mentioned, for 80 years, 
at least for the Navajo Nation to be involved in this, this was 
just sent to me today. Between 1994 to 1997, Navajo ancestral 
and aboriginal rights were sold for about $12 an acre, and was 
put into the Navajo Lands Claim Fund. So, if you sell your 
rights, then you want it back years later, how does that work? 
I don't know.
    Let's talk about sovereignty. Sovereignty for Native 
Americans, as we see it defined, is the domestic dependent 
nations, and then freedom of speech.
    Mr. Gianforte. Thank you for being here today. Chairman, I 
yield back.
    Mr. Bishop. Thank you.
    Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chairman. And thank you to 
all the witnesses for being here. It is good to see my former 
colleague here, the leading spokesperson for the 3rd District 
of Utah, Mr. Chaffetz.
    I would like to also thank the Chairman for granting the 
Democrats' request for a second hearing, with today having the 
representatives of all five tribes that are impacted by H.R. 
4532. I think this balanced approach has allowed us to correct 
some of the misinformation that we heard in the first hearing 
that still exists surrounding the level of tribal support for 
this bill.
    This bill, as I said over and over again at the last 
hearing and I will say it again today, we should not be 
considering. It codifies President Trump's illegal decision to 
eliminate the Bears Ears and replace it with two drastically 
smaller monuments, leaving thousands of acres and critical 
cultural and natural resources within them unprotected. We are 
now engaging in a process to not protect over a million acres 
that had been protected by President Obama.
    We have also heard a lot about tribal management councils, 
but they are not appointed, the tribes have no say. The 
President appoints, with the support of, or the authorization 
of, or working with the Utah delegation, individual people, not 
sovereign tribal leaders appointing their own people. What we 
have in this bill is not tribal management, but management by 
the President and picking people that the President wants.
    And then, worst of all, as we have heard, this was done 
without any input from the tribes, whose sacred land it 
purports to protect. So, we are not listening to the people, we 
are going to protect it for them.
    But the message that we have heard from the tribal leaders, 
which I want to amplify, is that there is an overwhelming 
amount of support for the Bears Ears National Monument, as 
designated by President Obama, and strong opposition to the 
legislation before us today. Tribal leaders could not be 
clearer: H.R. 4532 is not wanted.
    I have some questions that I would like to ask Ms. Regina 
Lopez-Whiteskunk. I would also like the answer from the 
Honorable Russell Begaye from the Navajo, if you could just 
come up and answer.
    Mr. Bishop. Which one do you want first?
    Dr. Lowenthal. I will ask Mr. Begaye.
    Mr. Bishop. President Begaye, please.
    Dr. Lowenthal. At the first hearing, we heard a lot of 
concerns about access in the Bears Ears National Monument, as 
proposed, that there were real problems with access, some of 
the people said, for gathering of wood and medicinal herbs. And 
these concerns were held up as justification for President 
Trump's, I think, illegal elimination of the monument.
    Are you aware of any restrictions that were in the Bears 
Ears National Monument that limited access for traditional 
activities, like gathering of wood or medicinal herbs? Do you 
know of any that were in the Bears Ears?
    Mr. Begaye. There are none. In fact, on an almost daily 
basis we have Navajos, even today, that drive up into the Bears 
Ears area to gather firewood. You see evidence of people doing 
that on a regular basis, and people go out there to gather 
medicine, to do prayers, to do ceremonies, and those types of 
things. Before the designation, at a meeting, for example, one 
of the towns where we were told by a town's local people that 
this was not our land, that we need to stay on Navajo because 
that belonged to us and not to our people.
    So, the restriction, after the designation came, there were 
none. We can go out there today and do the things that we have 
done before, which is to gather firewood, to gather herbs, to 
do our prayers, our ceremonies. Those restrictions are not 
there. And the protection, the designation is 1.3 million. With 
this new bill, it will limit only to certain areas, and not 
covering many of the other sacred areas. We will not be allowed 
to do that. Thank you.
    Dr. Lowenthal. Thank you, and I yield back.
    Mr. Bishop. Thank you.
    Mr. Thompson.
    Mr. Thompson. Chairman, thank you. Actually, my first 
question is for my former colleague and classmate, Congressman 
Jason Chaffetz.
    Congressman Chaffetz, good to see you, pleasure to have you 
back in Washington. This week, we discuss again the designation 
of the Bears Ears National Monument and the negative affects it 
has had on local populations, and more specifically reflect on 
where this was driven from and how much local input was a part 
of this discussion.
    Congressman, in your testimony you mention the 1,200 
meetings that Chairman Bishop and you conducted over the years 
with local populations and interest groups. What were you able 
to learn from these meetings with regards to local management? 
And how will the tribes manage this land differently than, say, 
the Federal Government?
    Mr. Chaffetz. Well, I do believe, in principle, that if you 
want the best result, you are going to look to the people at 
the most local level. That includes a broad cross-section and 
that is where I believe in multiple use and the access that 
people wanted.
    There are some parts where we should not be doing oil and 
mineral extraction. But I want to remind the Committee that it 
was Federal land before President Obama designated a national 
monument. And President Trump, I think, made the right 
decision--I would have eliminated all of it--but when he made 
the decision to shrink it, it still has the Federal land and 
the Federal protection.
    What you worry about is the management plan that gets 
layered on top of a national monument. That is where the 
concern comes, because then you are managing the land for a 
certain purpose, as opposed to a multiple-use type of purpose. 
That is what causes the uncertainty within the community.
    And I would also remind everybody that none of the 
designation of the national monument under President Obama 
happened on tribal lands. The reduction does not affect what 
has previously been designated as tribal lands. But what Mr. 
Curtis' bill is trying to do is put more input that was not 
there before.
    So, there is a net increase, there is a net improvement in 
the tribe's ability to meaningfully communicate their desires, 
wishes, and beliefs on how that land should be managed. That is 
a net increase in their ability to participate in the 
management of those lands. It is a huge win for the tribes and 
the local communities.
    Mr. Thompson. Thank you.
    And, Chairman, if I could, my second question is for 
Commissioner Benally.
    Commissioner Benally, thank you for being here. I just want 
to follow up. In your testimony, you have talked about and you 
have responded to questions about the special appreciation and 
respect that the Native American community have for the public 
lands. Can you explain further why local Native Americans who 
have lived in this area for generations are best suited to care 
for and manage the land?
    Ms. Benally. Very simple. I think they did a good job up 
until 2012, when there was an interest and a pristine 
situation. Yes, there was some looting. But the local people 
are the best people to manage the land because it is in our 
back yard, we use it on a daily basis. And Navajo families use 
it not only for wood cutting, heating homes, cooking, but also 
for small economic ways, because they turn around and sell it. 
That is a little income for them.
    So, as was mentioned, how does this monument hurt the 
people? It hurts the people that wood cutting would be cut off 
because there is a difference between gathering and wood 
cutting. Just a few miles down the road from the Bears Ears 
Buttes is Natural Bridges. And right there, there is a huge 
sign that says, ``No wood cutting.'' So eventually, that is 
what it would do.
    And just talking about the disadvantages of a monument 
under the BLM and the U.S. Forest Service, within the last 2 to 
3 years there has been an average, on an annual basis, of six 
to seven roads being closed. These are roads that are vital to 
wood-cutting, to medicinal plants, and to ceremony practices, 
so, yes, it is a detriment. And this comes from BLM and the 
Forest Service currently, and it limits to no access.
    Mr. Thompson. Thank you very much.
    Thank you, Chairman.
    Ms. Hanabusa. Thank you, Mr. Chairman. I would like to have 
Clark Tenakhongva come forward. And as he is coming forward, I 
would just like to make a statement.
    As some of you may know--and I know that the good attorney 
general, the former North Kuhala resident, is very well aware--
the sailing, the voyaging ship, the Hokule'a from Hawaii just 
completed its around-the-world voyage in what was culturally 
exactly what they sailed with. And it really showed the ability 
of Native peoples to voyage the world and to answer some 
questions about where we are from.
    When I read Clark's testimony on the Hopi, I was struck by 
a very similar situation, and that is the migratory and, 
really, the journey that the Hopi people have been on. And it 
is, of course, to fulfill their religious goal, for lack of a 
better description, of the Earth guardian telling them to move 
to the Earth's center.
    However, part of that voyage, or part of that journey, took 
them through Bears Ears. And that is when, in his testimony and 
on the slides that he showed, you saw the kavi and a very 
different type of--for lack of a better description, to me--
very culturally significant and religiously significant 
structures that the Hopi left along the way.
    So, Clark, if you would address for us, first, the kavi, 
which I believe is your religious structure. And what does H.R. 
4532 do in relationship to those areas that you spoke to, as 
opposed to the original monument designation?
    Mr. Tenakhongva. My understanding of H.R. 4532 is that it 
will not protect what is there as rightfully the right of the 
first people, which I would say honorably and humbly, is the 
Hopi people. We were there first, along with the other Pueblo 
nations, so it is our covenant, our agreement, just like the 
non-Natives pray to a man named God and Jesus, our creator's 
name is called Maasaw. That is who we made the covenant with, 
in order to make these travels to where we are at today.
    I made this travel all the way here to your empire, which 
is the White House, the Capitol of the United States. And I 
would hope you understand that where we make those standings, 
they are in southern Utah. That is something that is very 
important to us.
    H.R. 4532 would not protect it, because this part, what we 
showed, the kiva is what we call it. The word itself is very 
symbolic. It means the womb of your mother. Much like a church 
would, it has its purpose, the religion that we are practicing 
today.
    As in my testimony, I said please come out and join us. The 
kivas are still existent in the 12 villages. We still practice 
what we practiced there, at Bears Ears.
    For many of the other tribes, they have connections to that 
location, also. For me, personally, our clan, the Tobacco and 
Rabbit clans, were one of those peoples that may have 
constructed those buildings there and left it there for this 
reason.
    It is sad to say that some people just don't understand 
that we left those as evidence, as markers, way before the 
arrival of Columbus and the pilgrims here, in the United 
States. Please respect why we left them. Money is money, life 
is more important than money. We can continue to argue about 
prospering in this Nation, but respecting one another's rights 
and religion is all we ask for. That is all I am asking for, 
what my advisors, what my elders advise me before I make this 
travel here. Thank you.
    Ms. Hanabusa. Thank you. I yield back, Mr. Chair.
    Mr. Bishop. Thank you.
    I will go last.
    Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. I just want to say 
that the first session that we had, the earlier hearing this 
month, both the Governor and Representative heard us mention 
that the decision to abolish Bears Ears was not motivated by 
mining or oil or gas interest. They pointed out the fact that 
H.R. 4532 restores the mineral withdrawal for the entire region 
established by the original designation. And it was great to 
hear the Governor and the congressional delegation of Utah 
understand the importance of protecting cultural and religious 
resources over commercial development. But I am really 
concerned that we need to do much more.
    Friday marks 60 days since Trump scrapped the Bears Ears 
Monument, and the original mining withdrawal is scheduled to 
vanish on Friday. So, that means that while Congress debates 
this controversial piece of legislation, and the courts wait to 
rule on Trump's decision, the whole area is open for 
speculation by big oil and foreign mining conglomerates, and I 
think this situation can only be addressed by swift action by 
the Secretary.
    I have sent a letter to Secretary Zinke requesting an 
emergency withdrawal, and that letter is available for any and 
all members of this Committee to sign on.
    Mr. Chairman, I would request unanimous consent that the 
letter be entered into the hearing record. There is no 
objection?
    Mr. Bishop. No objection.
    Mr. Grijalva. Thank you for the formality, sir. I 
appreciate it.
    Let me just thank all the witnesses that came, the tribal 
leadership that is here present from the nations, and thank you 
very much for the effort to be here and to provide a point of 
view that was absent.
    If I could ask Mr. Begaye a couple of questions. President 
Begaye, if you don't mind, sir?
    Mr. President, at the Subcommittee hearing on January 9, we 
were told by Members of Congress, our Chairman, and other 
members of this Committee on the Republican side that the 
Curtis bill was supported, that the Aneth Chapter supported it, 
and that local people are opposed to the Obama designation.
    Let me ask you. I understand that Navajo support, in San 
Juan County, Utah, is nearly unanimous. How do we explain that?
    Mr. Begaye. When you talk about Utah Navajos, it is a whole 
region. From Navajo Mountain, we have a Navajo chapter there. 
You have Mexican Water, that are partially in Arizona and other 
parts of it are in Utah. You have Red Mesa, where the chapter 
is in Utah, many of the members of that chapter live in the 
Utah area. TeecNosPos Chapter is in Arizona, but along the 
border, but their members also live in Utah. Aneth is up in the 
Montezuma Creek area.
    Every chapter at one time voted to support the monument. 
The first vote, second vote at the Aneth chapter, the president 
of the Aneth Chapter has come out and said, ``I support the 
monument.'' If there was a vote taken today, I believe the 
Chapter would vote for the monument.
    Mr. Grijalva. Mr. President, does the witness, Ms. Benally, 
represent the Navajo Government in this question of this 
legislation, Bears Ears, the original designation?
    Mr. Begaye. She is a county commissioner and not a Navajo 
Nation official. We appreciate her election to that position, 
but a re-vote needs to really take place, where the court has 
ordered that a re-vote for commissioners take place in that 
part of Utah.
    Mr. Grijalva. OK.
    Mr. Begaye. And it needs to happen, rather than the 
Commission trying to stop it. So, that is where our focus 
should be, and I am asking Representative Curtis to put his 
effort and energy there.
    But, over 90 percent of Utah Navajos support the monument. 
Thank you.
    Mr. Grijalva. Thank you very much.
    Mr. Chairman, I want to forward to the witnesses additional 
questions for the Committee, we didn't have enough time. Thank 
you.
    Mr. Bishop. Thank you. Let me ask the last set of questions 
here.
    Casey, I need a wonk, so would you please come forward? I 
just want to make sure of a couple of things, as we go through, 
on these issues of protection and influence.
    All right. When President Obama created the Bears Ears 
Commission that these groups can appoint, what power did they 
have? What was their job to be?
    Mr. Hammond. The way I read the proclamation, it was to 
provide advice.
    Mr. Bishop. Advice, all right. Is there anything in that 
proclamation that required the BLM to acknowledge and actually 
follow their advice?
    Mr. Hammond. No, there is nothing that required them.
    Mr. Bishop. All right. In this bill that is being produced, 
is that Bears Ears Commission appointed by the tribes still in 
existence?
    Mr. Hammond. It is still in existence.
    Mr. Bishop. And they are there to give advice?
    Mr. Hammond. That is accurate.
    Mr. Bishop. We made a change, though, because there also is 
a council. If the council does not accept the Commission's 
advice, does the council actually have to do something?
    Mr. Hammond. By my read of the legislation, they have to 
respond in writing.
    Mr. Bishop. Which is not happening. It did not happen in 
the proclamation, it did not happen in the status quo.
    So, the Commission still exists, the tribes still appoint 
their commission. They still give advice. But in his bill, it 
requires the council that makes the management decision, the 
council has to respond and tell them why they didn't.
    In our original talk about the PLI, we decided to have that 
concept in there, simply because we cannot allow somebody who 
gives advisory opinions to tell the government what to do 
unless you change the statute in some particular way.
    So, here is the bottom line. The council, then, does it 
make mandatory decisions that have to be followed by the BLM?
    Mr. Hammond. By my read of the legislation.
    Mr. Bishop. And that doesn't happen in President Obama's 
commission, does it?
    Mr. Hammond. No.
    Mr. Bishop. This is the only way you can actually have that 
kind of input taking place. Can I have you switch? Chaffetz, if 
you will come up just for a second.
    You talked about protection very quickly. How many people 
before Obama's proclamation were there to protect that area? In 
Obama's proclamation, how many people were added to the 
protection of that area?
    Mr. Chaffetz. Zero.
    Mr. Bishop. In his bill how many people are added to 
protection of that area?
    Mr. Chaffetz. A lot more than zero.
    Mr. Bishop. And did they go home late at night when the 
business is over, or are they supposed to be there 24/7?
    Mr. Chaffetz. They are supposed to be protecting it 24/7.
    Mr. Bishop. And are they contracting with local officials, 
so they will be there in that particular area?
    Mr. Chaffetz. They should be.
    Mr. Bishop. Is that more protection than Obama made in his 
proclamation?
    Mr. Chaffetz. A lot more protection.
    Mr. Bishop. Did we have conversations with the Inter-Tribal 
Council?
    Mr. Chaffetz. Yes.
    Mr. Bishop. Were they late-comers to the process?
    Mr. Chaffetz. Yes.
    Mr. Bishop. Did we get a letter in 2016, which I will put 
into the record, in which we asked for draft advice and 
concepts, especially on this issue of governance?
    Mr. Chaffetz. Yes, we did.
    Mr. Bishop. And did that letter tell us they weren't going 
to give us anything?
    Mr. Chaffetz. Correct.
    Mr. Bishop. OK. Let me have Rebecca Benally come in for my 
last 2 minutes.
    You answer one-sentence answers very well, Jason. Thank you 
for that.
    [Laughter.]
    Ms. Benally, you were asked--no, actually, President Begaye 
was asked--if there were restrictions in either the bill or the 
Obama proclamation about local--especially wood gathering, wood 
cutting, herb gathering, that kind of stuff--if there were 
restrictions in the proclamation. And your answer was--or 
President Begaye--there were no restrictions. That is correct, 
right?
    Ms. Benally. [No response.]
    Mr. Bishop. There were no restrictions in the proclamation, 
per se. But the question I have for you, were there protections 
specifically put in the proclamation that would guarantee these 
activities would take place in the future? Or was it left to a 
future BLM land manager to do whatever he or she wanted to do?
    Ms. Benally. No. No, sir.
    Mr. Bishop. All right. In his bill, are there specific 
protections put in there to guarantee these traditional 
activities by those who live near that area will continue?
    Ms. Benally. Yes, sir.
    Mr. Bishop. And in his bill--as you talked about those road 
closures--if you have a management council that actually has 
the power to make decisions, could you impact those road 
closures?
    Ms. Benally. Absolutely.
    Mr. Bishop. And you can't do it now?
    Ms. Benally. No, because----
    Mr. Bishop. And you couldn't do it during the proclamation?
    Ms. Benally. No.
    Mr. Bishop. There is a net benefit that comes here. The 
Bears Ears Commission in which the tribes can appoint members 
still exists in his bill. And they still give advice, which is 
what they were doing in the proclamation, advice. But it has a 
specific purpose in here, in having a council that can make 
decisions, and they have to respond to those commissions, and 
they actually can tell the BLM exactly what to do in the 
future. That is the difference.
    Ms. Benally. Correct. Bears Ears Commission is still intact 
in H.R. 4532. What is new is that the tribal management council 
will have true authority and can still listen to the Bears Ears 
Coalition. If there is a disagreement, it has to be put in 
writing back to the Commission.
    Mr. Bishop. Thank you, I appreciate that. Key bottom line 
is there will still be a commission appointed by the tribes, 
there still will be a council that actually has some real 
ability to do something. Never happened, it will happen in the 
proclamation.
    I appreciate the witnesses for traveling from all over the 
place, from Arizona, from New Mexico, from Colorado, and from 
Utah, for actually being here so we can talk about this. I 
appreciate the Members for being here. And, as you can 
traditionally see, one of the problems we have in hearings is 
that no one is here at the end to actually hear anything that 
is going on. But it is in the record, so any policy wonk that 
actually wants to read this stuff can do so in the future.
    Congressman Chaffetz, it is nice to see you back here 
again. I appreciate you coming here.
    Attorney General Reyes, thank you. Now I want to ask you a 
question. Do you want to say hi? All right, the question. 
Eagles or Patriots, and your spread?
    Mr. Reyes. Eagles.
    Mr. Bishop. OK, the rest of you go on and make money. Hit 
him up afterwards, and you can do that.
    Commissioner Benally, thank you for being here.
    Members of the Department of the Interior, thank you.
    And for the representatives of the five tribes that are 
involved, thank you for being here, especially President 
Begaye. Thank you, as the head of the Navajo Nation, for 
actually being here.
    I thank you. I want to remind you there may be additional 
questions that Members have. Under our Committee Rule 3(o), 
members of the Committee can have written questions within 3 
business days following the hearing if it is given to us by 
5:00 p.m., and the record will be open for 10 business days for 
your responses. So, we may be hitting you up for additional 
written comments to be put as part of the hearing record.
    Raul, do you want me to be snarky, or not? OK, then I won't 
say anything about the letter. But I will sign the letter as 
soon as you vote for his bill.
    [Laughter.]
    Mr. Bishop. With that, thank you for being here, thank you 
for your presence. I appreciate all of that. Thank you for 
putting up with me. I know you would rather be here with 
McClintock, and I am actually ticked at him that he is sick 
right now, because I wanted to just enjoy this hearing.
    With that, thank you for everything, thank you for being 
here. I appreciate your time, I appreciate the witnesses.

    This Subcommittee is adjourned.

    [Whereupon, at 12:21 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

                     Congress of the United States,
                                       Washington, DC 20515

                                                  February 22, 2013

Utah Land Office/Navajo Land Department
C/O Commissioner Kenneth Maryboy
P.O. Box 410
Montezuma Creek, UT 84534


    Dear Commissioner Maryboy:

    Public lands are valued across the state of Utah. These lands 
support a range of uses, including recreation, solitude, wildlife 
habitat, historical uses, and resource development. However, the 
history and management of the public lands in Utah is long on episodes 
of contention and conflict, and short on examples of compromise and 
consensus. For decades, unsettled land-use designations have fueled 
distrust and acrimony. Much of the debate has centered on a false 
choice between multiple-use or land conservation. I reject this either-
or proposition. Conservation and multiple-use can coexist. They each 
have an important role in making our state healthy, inviting, and 
thriving. Much of the long-term success of counties, tribes, and other 
stakeholders depends on both balanced conservation and responsible 
development and use.
    The existing gridlock and land ownership pattern has created 
countless problems between state, tribal, and federal interests. Nearly 
120 years after statehood, most Utah landholdings (school trust lands) 
still exist as a checkerboard pattern of isolated square-mile sections 
surrounded by federal lands. The small size of the individual state 
school sections and their location within the federal estate preclude 
the state from effectively managing its lands or from realizing their 
full potential for the school trust, the purpose for which the lands 
were originally granted.
    After observing and participating in the public lands debate for 
many years, I believe we are in the midst of a paradigm shift. There is 
a growing consensus that a more reasonable, balanced use of the public 
lands can be achieved in Utah. Through conversations with county and 
state officials, tribal leaders, conservation groups, industry, non-
governmental organizations, and the public, I believe Utah is ready to 
move away from the tired arguments of the past. We have a unique window 
of opportunity to end the gridlock and bring resolution to some of the 
most challenging land disputes in the state.
    In order to strike an appropriate balance between conservation and 
responsible development and use, and to create greater certainty for 
the citizens of Utah and Indian Country, I am pleased to announce that 
I am initiating a process to develop federal legislation that seeks to 
address many of the issues that have plagued public land management in 
eastern Utah. The intent of this letter is to formally request comments 
from interested parties on public lands issues that are important to 
their respective organizations in this region of the state.
    To better understand your organizations interests and priorities, I 
ask that you provide a written, prioritized list of public land 
designations it wishes addressed--including wilderness, other land 
designations, or other considerations. Given the significant scope of 
this process, each individual item that is submitted, should have a 
unique overall ranking to help my office understand your priorities.
    The benefits of land conservation and multiple-use are well-known 
and obvious. Your organization's list of priorities will help inform 
and shape the discussion with other partners and stakeholders as we 
attempt to craft legislation that will help accomplish the appropriate 
balance of conservation and multiple-use on our public lands and help 
sustain and elevate our quality of life for generations to come.
    Utah is blessed with unparalleled landscapes, recreational 
opportunities, and world-class natural resources. This effort will be 
both time-consuming and challenging--but it's worth it. I look forward 
to working with you as we move into the next phase of this critically 
important endeavor. I ask that you please provide your list of 
priorities via email to Fred Ferguson in my Washington, D.C. office 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fdbb8f9899d3bb988f9a888e9293bd909c9491d39592888e98d39a928b">[email&#160;protected]</a>) no later than March 22, 2013.

            Sincerely,

                                                Rob Bishop,
                                                Member of Congress.

                                 ______
                                 

                     Congress of the United States,
                                       Washington, DC 20515

                                                   October 16, 2015

The Honorable Russell Begaye
President, Navajo Nation
P.O. Box 900
Window Rock, AZ 86515

    President Begaye:

    I am writing to update you regarding the latest developments of 
Public Lands Initiative (PLI) and more specifically, to follow up on 
our conversation from August 18, 2015. As you recall, I lead a 
delegation of multiple Utah officials to meet with you and members of 
your Administration in Flagstaff, Arizona. We had a productive 
discussion about shared ideas about how we could find a consensus 
approach to protect the lands and interests of San Juan County, Utah 
residents and at the same time, advance the goals and interests of the 
Navajo Nation.

    In that meeting, you expressed to me repeatedly that the primary 
interest was to find a mechanism where Native Americans would hold 
real, meaningful management responsibility over the Bears Ears 
landscape. I told you then that this was a fair, reasonable, and 
achievable goal. I still believe that to be the case. That is why I 
have instructed my staff to find a way within the PLI to legislatively 
create a management structure that put the Navajo Nation and other 
tribes in such a management position.

    At that meeting, I communicated to you my skepticism that the 
Navajo Nation could achieve its management goals under an executive 
national monument designation. I still continue to hold this 
skepticism. A presidential monument designation is simply not capable 
of providing you with the management control and flexibility you seek. 
A legislative process, such as the PLI, can provide you that management 
control.

    I remain willing to work with you to find a reasonable solution to 
help the Navajo Nation accomplish its aims for the Bears Ears region, 
and I welcome the opportunity to show you how we could accomplish these 
shared goals. If you or your staff would like to discuss legislative 
language or other legislative concepts, please contact my Chief of 
Staff, Fred Ferguson (202-225-7751), to schedule a meeting. Thank you 
for your service and I look forward to hearing from you.

            Sincerely,

                                            Jason Chaffetz,
                                                Member of Congress.

                                 ______
                                 

                     Congress of the United States,
                                       Washington, DC 20515

                                                     April 29, 2016

The Honorable Barack H. Obama
President
The White House
1600 Pennsylvania Avenue NW
Washington, DC 20500

    Dear Mr. President:

    It is widely known that you are considering use of the Antiquities 
Act to declare a national monument in the State of Utah, We have 
previously written to you expressing our opposition to this action, 
While we appreciate the Secretary of the Interior's response to our 
letter, we believe it was an inadequate response, as the Department of 
the Interior does not possess the authority to declare a national 
monument.

    To further communicate our strong opposition against the unilateral 
creation of a national monument in the State of Utah, we respectfully 
request the opportunity to personally meet with you to discuss our 
basis for opposition.

    A meeting of this nature is supported by your recent public 
statements. In a February meeting with the National Governors 
Association, you stated that open lines of communication are needed 
when discussing national monument designations. To that end, we believe 
a meeting involving you, Governor Gary Herbert, the Congressional 
delegation, and Utah's only elected Navajo official is critical to 
successful communication and planning.

    Finally, we hope a recent meeting we had with your staff will 
result in a productive dialogue regarding the Public Lands Initiative 
(PLI). The PLI is a balanced legislative approach to land management in 
eastern Utah. If passed, the PLI will establish greater land-use 
certainty and conserve more than four million acres of federal land. 
Many groups, including conservation groups, are still at the table 
providing feedback and comments on the draft PLI. The same draft was 
given to your staff on January 14, 2016 but thus far feedback has not 
been provided.

    Thank you for your consideration. Collaborative planning is 
essential in the land management arena, and we look forward to meeting 
with you.

            Sincerely,

        Rebecca Benally,              Gary Herbert,
        San Juan County 
        Commissioner                  Governor

        Orrin Hatch,                  Rob Bishop,
        United States Senator         Member of Congress

        Mike Lee,                     Jason Chaffetz,
        United States Senator         Member of Congress

        Chris Stewart,                Mia Love,
        Member of Congress            Member of Congress

                                 ______
                                 

                     Congress of the United States,
                                       Washington, DC 20510

                                                  November 18, 2016


    To the Co-Chairmen and Members of the Bears Ears Inter-Tribal 
Coalition:

    The November 2, 2016 meeting involving the Bears Ears Inter-Tribal 
Coalition and our offices was very productive. We were grateful for the 
time of the Coalition members who were able to attend. We look forward 
to continued dialogue as proposals are put forward concerning the Bears 
Ears region of Utah.

    Following up on the conversations we had during our meeting, we are 
writing to formally request draft legislative language that would 
implement an equitable co-management system for the Bears Ears region. 
It has been widely reported that co-management cannot be achieved 
through an Antiquities Act designation. We believe the congressional 
process can craft a meaningful co-management plan in which the Tribes 
are made equal to other participants.

    We are committed to finding legislative solutions to the various 
land designation and management challenges facing the Bears Ears region 
of San Juan County, Utah. Open dialogue and communication will ensure 
that all points of view, options, and solutions are considered.

    We look forward to hearing from you and stand ready to work 
together.

            Sincerely,

        Orrin Hatch,                  Rob Bishop,
        United States Senator         United States Representative

        Mike Lee,                     Jason Chaffetz,
        United States Senator         United States Representative

                                 ______
                                 

Mr. Bishop Submission

                  BEARS EARS INTER-TRIBAL COALITION

                                                  November 30, 2016

    To Utah Congressional Delegation:

    Thank you for hosting a meeting between tribal leaders from the 
Bears Ears Coalition and Utah congressional staff earlier this month. 
We sincerely valued the opportunity to hear directly from you and to 
discuss some of our concerns with the Utah Public Lands Initiative 
(PLI).

    As you know, each Tribe that comprises the Bears Ears Coalition has 
continually expressed an interest in collaboratively managing the Bears 
Ears landscape. We are pleased that you might be willing to accept our 
approach to collaborative management. After internal deliberation, 
however, the Coalition is still not able to support the Public Lands 
Initiative as drafted. As discussed at the meeting, some problematic 
areas of the PLI include:

    <bullet> The failure to use the boundaries, encompassing 1.9 
            million acres, as proposed by the Coalition after years of 
            expert research and analysis of this area;

    <bullet> The removal of 100,000 acres of land from the Uintah and 
            Ouray Indian Reservation;

    <bullet> Amendments to the Utah Navajo Trust Fund absent 
            consultation with the Navajo Nation;

    <bullet> The long term consequences that the transfer of energy 
            permitting and regulatory authority to the State will have 
            on the landscape and nearby communities;

    <bullet> Provisions validating Utah's claimed ownership of PL 2477 
            rights of way;

    <bullet> Provisions allowing mining in much of the 1.9 million acre 
            area proposed by the Coalition.

    These are only a few of the concerns that the Coalition has with 
the PLI. Until adequately addressed, the Coalition is not prepared to 
acquiesce to a draft bill by providing additional draft language. 
Nonetheless, we are grateful for the opportunity to discuss these 
issues with each of your offices.

            Sincerely,

        Alfred Lomahquahu,            Carleton Bowekaty,
        Bears Ears Co-Chair           Bears Ears Representative
        Hopi Vice-Chairman            Pueblo of Zuni Councilman

                                 ______
                                 

Mr. Grijalva Submissions

                                                  February 13, 2018

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

Hon. Tom McClintock, Chairman,
Hon. Colleen Hanabusa, Ranking Member,
House Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Representatives Bishop, Grijalva, McClintock and Hanabusa:

    As organizations and Tribal Nations dedicated to the preservation 
of cultural, historic, and archaeological resources, we write today 
regarding the Shash Jaa National Monument and Indian Creek National 
Monument Act (H.R. 4532). For the reasons outlined below, we urge the 
Committee not to advance this legislation.
    The full Bears Ears National Monument protects an internationally 
significant cultural landscape that holds evidence of more than 12,000 
years of human history. In excess of 100,000 archaeological sites with 
their associated artifacts lie within the monument's original 
boundaries, along with natural landscapes of outstanding scenic beauty 
that have deep cultural significance for Indian tribes with ancestral 
ties to the region. The monument designation appropriately prioritized 
protecting the remarkable cultural, historic, and scientific resources 
found throughout the area, while continuing to allow for traditional 
and recreational uses of these public lands.
    H.R. 4532 would remove more than 1.1 million acres from the Bears 
Ears National Monument, including some of the most significant and 
highly visited archaeological areas such as Grand Gulch and most of 
Cedar Mesa. The vast area that the bill excludes holds more than 70 
percent of the original monument's documented archaeological sites, 
historic and pre-historic structures, cliff dwellings, pictographs, 
petroglyphs, kivas, ancient roads, historic trails, artifacts, and 
other archaeological resources. These cultural resources require 
greater management focus, strategic planning, and visitor education, 
not less.
    For the two new national monuments, the bill establishes a 
troubling management structure that elevates the role of a small number 
of local officials above the voices of the five sovereign Tribal 
Nations represented on the Bears Ears Tribal Commission, as well as the 
rest of the American people who own these lands. The bill explicitly 
excludes the Hopi and Zuni tribes, whose ancestors, along with other 
Pueblo tribes, are responsible for creating the remarkable 
archaeological record preserved by the monument. We support tribal co-
management--including the Hopi Tribe, Navajo Nation, Ute Indian Tribe, 
Ute Mountain Ute Tribe, and Pueblo of Zuni alongside federal land 
managers--to ensure tribal values and traditional knowledge are 
incorporated in management of the area. Effective co-management 
requires government-to-government collaboration both in design and 
implementation. This bill provides neither.
    We do appreciate the bill's acknowledgement that this culturally 
sensitive and archaeologically rich landscape is not the appropriate 
place for new oil and gas development or mining. We also applaud 
Representative Curtis for seeing the need for more on-the-ground 
resources, which should go beyond law enforcement to include staff 
archaeologists, backcountry rangers, and education specialists. 
However, these positive elements cannot compensate for the removal of 
protection for key archaeological areas and the flawed management 
structure that would put these lands at risk.
    We urge the Committee not to move forward with this legislation, 
and, instead, engage in meaningful discussions with Tribal governments, 
archaeological experts, conservationists and other stakeholders about 
how to protect the exceptional cultural resources of this area for 
current and future generations.

            Sincerely,

        National Trust for Historic 
        Preservation                  National Association of Tribal 
                                      Historic Preservation Officers

        American Anthropological 
        Association                   Nevada Preservation Foundation

        American Cultural Resources 
        Association                   Pala THPO

        Archaeology Southwest         Providence Preservation Society

        Arizona Heritage Alliance     Governor Joseph Talachy and the 
                                      Pueblo of Pojoaque

        Arizona Preservation 
        Foundation                    THPO, Pueblo of Pojoaque

        California Preservation 
        Foundation                    Save Our Heritage Organisation

        Cienega Watershed 
        Partnership                   Site Steward Foundation, Inc.

        Coalition for American 
        Heritage                      Society for American Archaeology

        Colorado Council of 
        Professional Archaeologists   Society for California Archeology

        Colorado Plateau 
        Archaeological Alliance       Society for Historical 
                                      Archaeology

        Colorado Preservation, Inc.   SRI Foundation

        Conservation Lands 
        Foundation                    US/ICOMOS (The United States 
                                      National Committee of the 
                                      International Council on 
                                      Monuments and Sites)

        Crow Canyon Archaeological 
        Center                        Vail Preservation Society

        Council for Northeast 
        Historical Archaeology        Washington Trust for Historic 
                                      Preservation

        Friends of Cedar Mesa

                                 ______
                                 

                         Pyramid Lake Paiute Tribe,
                                              Nixon, Nevada

                                                   February 7, 2018

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

Hon. Tom McClintock, Chairman,
Hon. Colleen Hanabusa, Ranking Member,
House Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Representatives Bishop, Grijalva, McClintock and Hanabusa:

    As organizations dedicated to the preservation of cultural, 
historic, and archaeological resources, we write today regarding the 
Shash Jaa National Monument and Indian Creek National Monument Act 
(H.R. 4532). For the reason outlined below, we urge the Committee not 
to advance this legislation.

    The full Bears Ears National Monument protects an internationally 
significant cultural landscape that holds evidence of more than 12,000 
years of human history. In excess of 100,000 archaeological sites with 
their associated artifacts lie within the monument's original 
boundaries, along with natural landscapes of outstanding scenic beauty 
that have deep cultural significance for Indian tribes with ancestral 
ties to the region. The monument designation appropriately prioritized 
protecting the remarkable cultural, historic and scientific resources 
found throughout the area, while continuing to allow for traditional 
and recreational uses of these public lands.

    H.R. 4532 would remove more than 1.1 million acres from the Bears 
Ears National Monument, including some of the most significant and 
highly visited archaeological area such as Grand Gulch and most of 
Cedar Mesa. The vast area that the bill excludes holds more than 70 
percent of the original monument's documented archaeological sites, 
historic and pre-historic structures, cliff dwellings, pictographs, 
petroglyphs, kivas, ancient roads, historic trails, artifacts, and 
other archaeological resources. These cultural resources require 
greater management focus, strategic planning, and visitor education, 
not less.

    For the two new national monuments, the bill establishes a 
troubling management structure that elevates the role of a small number 
of local officials above the voices of the five sovereign Tribal 
nations represented on the Bears Ears Tribal Commission, as well as the 
rest of the American people who own these lands. The bill explicitly 
excludes the Hopi and Zuni tribes, whose record preserved by the 
monument. We support tribal co-management--including the Hopi Tribe, 
Navajo Nation, Ute Indian Tribe, Ute Mountain Ute Tribe, and Pueblo of 
Zuni alongside federal land managers--to ensure tribal values and 
traditional knowledge are incorporated in management of the area. 
Effective co-management requires government-to-government collaboration 
both in design and implementation. This bill provides neither.

    We do appreciate the bill's acknowledgement that this culturally 
sensitive and archaeologically rich landscape is not the appropriate 
place for new oil and gas development or mining. We also applaud 
Representative Curtis for seeing the need for more on-the-ground 
resources, which should go beyond law enforcement to include staff 
archaeologists, backcountry rangers, and education specialists. 
However, these positive elements cannot compensate for the removal of 
protection for key archaeological areas and the flawed management 
structure that would put these lands at risk.

    We urge the Committee not move forward with this legislation, and, 
instead, engage in meaningful discussions with Tribal governments, 
archaeological experts, conservationists and other stakeholders about 
how to protect the exceptional cultural resources of this are for 
current and future generations.

            Respectfully,

                                             Vinton Hawley,
                                                   Tribal Chairman.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    --Deseret News, ``Big money, environmentalists and the 
            Bears Ears story,'' by Amy Joi O'Donoghue, August 
            4, 2016.

Rep. Grijalva Submissions

    --American Geosciences Institute, Statement for the Record 
            on H.R. 4532.

    --Letter addressed to Chairman McClintock and Ranking 
            Member Hanabusa from the American Alpine Club, 
            dated January 30, 2018.
    --National Parks Conservation Association, Statement for 
            the Record on H.R. 4532.

    --Resolution NABIJA-05-18 of the Naabik'iyati' Standing 
            Committee of the 23rd Navajo Nation Council.

    --Society for American Archaeology, Statement for the 
            Record on H.R. 4532.

    --Ute Mountain Ute Tribe, Advisory Resolution, dated 
            January 24, 2018.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
